<html>
<title> - FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS APPROPRIATIONS FOR 2002</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
      FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS 
                        APPROPRIATIONS FOR 2002

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS
                              FIRST SESSION
                                ________
   SUBCOMMITTEE ON FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED 
                                PROGRAMS
                      JIM KOLBE, Arizona, Chairman
 SONNY CALLAHAN, Alabama            NITA M. LOWEY, New York
 JOE KNOLLENBERG, Michigan          NANCY PELOSI, California
 JACK KINGSTON, Georgia             JESSE L. JACKSON, Jr., Illinois
 JERRY LEWIS, California            CAROLYN C. KILPATRICK, Michigan
 ROGER F. WICKER, Mississippi       STEVEN R. ROTHMAN, New Jersey  
 HENRY BONILLA, Texas
 JOHN E. SUNUNU, New Hampshire      
                     
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
    Charles Flickner, John Shank, and Alice Grant, Staff Assistants,
                     Lori Maes, Administrative Aide
                                ________
                                 PART 4

               TESTIMONY OF MEMBERS OF CONGRESS AND OTHER
                INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              &lt;snowflake&gt;

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 75-117                     WASHINGTON : 2001

                      COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                  DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California             JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky             NORMAN D. DICKS, Washington
 JOE SKEEN, New Mexico               MARTIN OLAV SABO, Minnesota
 FRANK R. WOLF, Virginia             STENY H. HOYER, Maryland
 TOM DeLAY, Texas                    ALAN B. MOLLOHAN, West Virginia
 JIM KOLBE, Arizona                  MARCY KAPTUR, Ohio
 SONNY CALLAHAN, Alabama             NANCY PELOSI, California
 JAMES T. WALSH, New York            PETER J. VISCLOSKY, Indiana
 CHARLES H. TAYLOR, North Carolina   NITA M. LOWEY, New York
 DAVID L. HOBSON, Ohio               JOSE E. SERRANO, New York
 ERNEST J. ISTOOK, Jr., Oklahoma     ROSA L. DeLAURO, Connecticut
 HENRY BONILLA, Texas                JAMES P. MORAN, Virginia
 JOE KNOLLENBERG, Michigan           JOHN W. OLVER, Massachusetts
 DAN MILLER, Florida                 ED PASTOR, Arizona
 JACK KINGSTON, Georgia              CARRIE P. MEEK, Florida
 RODNEY P. FRELINGHUYSEN, New Jersey DAVID E. PRICE, North Carolina
 ROGER F. WICKER, Mississippi        CHET EDWARDS, Texas
 GEORGE R. NETHERCUTT, Jr.,          ROBERT E. ``BUD'' CRAMER, Jr., 
Washington                           Alabama
 RANDY ``DUKE'' CUNNINGHAM,          PATRICK J. KENNEDY, Rhode Island
California                           JAMES E. CLYBURN, South Carolina
 TODD TIAHRT, Kansas                 MAURICE D. HINCHEY, New York
 ZACH WAMP, Tennessee                LUCILLE ROYBAL-ALLARD, California
 TOM LATHAM, Iowa                    SAM FARR, California
 ANNE M. NORTHUP, Kentucky           JESSE L. JACKSON, Jr., Illinois
 ROBERT B. ADERHOLT, Alabama         CAROLYN C. KILPATRICK, Michigan
 JO ANN EMERSON, Missouri            ALLEN BOYD, Florida
 JOHN E. SUNUNU, New Hampshire       CHAKA FATTAH, Pennsylvania
 KAY GRANGER, Texas                  STEVEN R. ROTHMAN, New Jersey    
 JOHN E. PETERSON, Pennsylvania
 JOHN T. DOOLITTLE, California
 RAY LaHOOD, Illinois
 JOHN E. SWEENEY, New York
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania

 VIRGIL H. GOODE, Jr., Virginia     
                           
                 James W. Dyer, Clerk and Staff Director

                                  (ii)

 
      FOREIGN OPERATIONS, EXPORT FINANCING, AND RELATED PROGRAMS 
                        APPROPRIATIONS FOR 2002

                              ----------                             

                                        Wednesday, March, 28, 2001.

 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

    UNIVERSITY OF NOTRE DAME AND UNIVERSITY OF ULSTER COLLABORATIVE 
                      CONFLICT RESOLUTION PROJECT

                                WITNESS

HON. PETER T. KING, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    FLORIDA

                     Mr. Kolbe's Opening Statement

    Mr. Kolbe [presiding]. The Subcommittee on Foreign 
Operations will come to order.
    This hearing, the second formal hearing of the year, is 
devoted to outside business groups and members. And we do have 
a member here to start us off.
    Since Mr. King is here, we will begin with you, Mr. King.
    Thank you very much for coming today. Of course, your 
statement, as I will say to all the members and the outside 
groups, the full statement will be placed in the record.
    Thanks very much, Peter.
    Mr. King. Thank you. Thank you for the opportunity. I will 
make this brief.
    I am here to testify on behalf--I do not know the exact 
terminology here--$2.2 million in the Foreign Operations bill 
for USAID for the project involving the University of Notre 
Dame and the University of Ulster.
    Notre Dame is not in my state. I am a graduate of the 
University of Notre Dame, so I have a certain feeling toward 
them. But what is more important, I have been involved in the 
Irish peace process for over 20 years. I was with President 
Clinton and Prime Minister Blair and a bipartisan delegation at 
the groundbreaking ceremony at the Springvale campus in 1998.
    While much good has happened in Northern Ireland over the 
last several years, primarily because of the assistance of the 
United States, the involvement of the United States, much more 
remains to be done. There is still inherent conflict on the 
ground between the two communities who have warred for over 30 
years, if not for centuries.
    This campus is located right on the dividing line between 
the two communities, the Protestant community and the Catholic 
community. Notre Dame, I believe, is particularly suited to 
play a role in bringing about conciliation, working with the 
University of Ulster, to try to find ways to bring the two 
communities together.
    They have extensive Irish studies institutes at Notre Dame. 
They have been in conflict resolution. And I know the British 
government is strongly behind this move, as are many people in 
the Northern Ireland assembly.
    I think it would be really a dramatic step forward, and it 
would show the continuing involvement by the United States in 
this peace process. And Notre Dame, of course, has a long 
historic connection to the Irish people. Now, by working with 
the University of Ulster, it can actually have a hands-on, real 
impact on the ground.
    I strongly support this appropriations request. I think it 
will repay itself many times over, if we can find a way to 
bring these two communities together, engage the students by 
studies of the inherent reasons for the conflict.
    So again, I cannot support this more strongly.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.001
    
    [GRAPHIC] [TIFF OMITTED] T5117A.002
    
    [GRAPHIC] [TIFF OMITTED] T5117A.003
    
    Mr. Kolbe. Thank you very much, Mr. King. I appreciate your 
comments. Obviously, this is an area that I have a great deal 
of interest in. I sat with the chairman of the Peace Fund last 
week at the luncheon, and I am looking forward to getting over 
there myself and seeing some of the program that we are doing. 
So I appreciate your support.
    Mr. King. You will see, if you go there, this campus is 
right in the middle of what had been a war zone.
    Mr. Kolbe. Thank you very much, Mr. King.
    Mr. Pallone, you are here, and we will go to you next here.
                              ----------                              --
--------

                                         Wednesday, March 28, 2001.

             U.S. FOREIGN POLICY, ASSISTANCE AND INVESTMENT

                                WITNESS

HON. FRANK PALLONE, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    JERSEY
    Mr. Pallone. Thank you, Mr. Chairman.
    Mr. Kolbe. Thank you very much for coming.
    Mr. Pallone. I see your chief of staff of the committee is 
still with us. Nice to know.
    Mr. Kolbe. The members come and go, but as you know well, 
the staff never changes. They just keep on going. [Laughter.]
    Mr. Pallone. Let me say, I wanted to come early. I have a 
complete statement, which I will submit for the record.
    Mr. Kolbe. We will put this in the record.
    Mr. Pallone. But I am going to try to summarize.
    The two areas that I discuss the most before the 
subcommittee are with regard to Armenia and India. And you and 
the committee has been very supportive of efforts in those two 
countries. And there really has been tremendous progress.
    With regard to Armenia, we have, on April 3 next week, the 
Secretary of State and the new President have now been 
successful in having the two presidents of Armenia and 
Azerbaijan--they are going to meet in Key West to try and work 
out an agreement on Nagorno-Karabakh. So we have had 
significant progress there.
    And also, with regard to India, of course, we had the visit 
of President Clinton and the visit of Prime Minister Vajpayee 
last year. So again, there has been a lot of progress with 
regard to India.
    If I could mention Armenia, as you know, we have the 
humanitarian assistance every year. Last year, this 
subcommittee and the full House sent to the President a bill 
with $90 million in assistance for Armenia. In light of the 
progress that has been made with the peace negotiations and the 
efforts by Armenia, I would not like to see any less than that 
appropriated this year.
    I would ask for at least as much as we received last year 
and, obviously, to maintain Section 907, because although there 
has been progress with the peace talks, we still have this 
blockade in effect. And I think it would be wrong to change 
Section 907 as long as the blockade is in effect.
    In the past, the subcommittee provided aid to Nagorno-
Karabakh, a few years ago, for $20 million. I have still been 
concerned about the fact that that has not all been used. There 
is about $11.8 million that has been obligated. But we want to 
make sure that that does not get eliminated somehow, that it 
continues, and that we are able to use up the rest, and the 
subcommittee maybe put some language in suggesting that the 
State Department move quickly to try to obligate the rest of 
the funds.
    The only other thing I wanted to mention, if we do see 
progress on April 3, and we actually see a negotiated 
settlement, Mr. Chairman, with regard to Nagorno-Karabakh,the 
subcommittee would need to start thinking about some sort of peace 
dividend.
    I do not know how you do that. I do not know if it is in a 
supplemental or if it is in this year's bill, depending on 
progress, but there has been a sort of a commitment that there 
will be, you know, reconstruction, rebuilding efforts in place 
as part of that peace settlement. I do not have any specifics 
on it, but I just wanted you to be aware of it. I do not know 
that you would necessarily put that in this bill; it depends on 
the progress of the peace talks.
    And you have also had in the past confidence-building 
measures for the Caucasus nations. Obviously, with these talks 
going the way they are, if they are successful, it is going to 
be important for us to include more language with regard to 
confidence-building measures as well.
    And the last thing is, last year the final bill that went 
to the President had an earmark for this SESAME project. It is 
a synchrotron radiation light source. Mr. Chairman, I cannot go 
into the details. It is a physics project that is very 
important to Armenia, that would do a lot toward keeping people 
there--scientists, engineers--and allowing Armenia to grow in 
terms of its high tech and its future in engineering and 
science. And we would ask again that you consider a level of 
appropriation or earmark or some sort of language with regard 
to SESAME.
    Let me move to India and again point out that this 
committee has been very supportive of India. Every time there 
was an effort on the floor to cut back on aid to India in the 
past, the members of the subcommittee, in general, were not 
supportive of that and helped us a great deal.
    The two biggest concerns right now: One, of course, is the 
earthquake. The federal government spent, I think, about $13 
million to $15 million on earthquake relief through USAID. The 
figure that is now being thrown out, in terms of the level that 
would be needed, is significantly higher, something like $100 
million.
    I know some members of the subcommittee have expressed 
support for that. I would like to see that level of assistance 
provided, and so I put that in my testimony.
    The other thing is with regard to the sanctions. Some of 
the sanctions are still in place in the advent of the nuclear 
testing that was done by India and Pakistan a few years ago. I 
would like, and the members of the India Caucus, would like to 
see all those sanctions removed.
    The biggest one right now is with regard to the World Bank. 
The U.S. continues to oppose some World Bank loans to India. 
That is important, obviously, in terms of the earthquake. There 
have been applications in World Bank for earthquake relief and 
for other areas. And I would like to see some language, if 
possible, put into the bill where we basically call on the 
President to waive all U.S. opposition to World Bank loans for 
India.
    The sanctions are now at the discretion of the President, 
because of language that was put in the DOD appropriation a few 
years ago, and we would like to see that eliminated completely.
    Other than that, I just wanted to say briefly that I 
continue to support the bipartisan foreign aid assistance to 
Israel. And the last thing I wanted to mention is to maintain 
the annual $15 million appropriation provided to Cyprus every 
year. There are obviously ongoing efforts by the U.S. and UN to 
try to resolve the Cyprus conflict between Greece and Turkey, 
and so we should continue that role of assistance.
    Thank you.
    Mr. Kolbe. Thank you very much, Mr. Pallone. I am impressed 
by the range of your interests here.
    Mr. Pallone. Well, it tends to be Mideast and Central Asia.
    Mr. Kolbe. Thank you very much. Thank you.
    I know you have testified many times before us, and I think 
you have had a real impact on the subcommittee and its work. We 
thank you for your interest in these areas.
    Mr. Pallone. Thank you very much.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.004
    
    [GRAPHIC] [TIFF OMITTED] T5117A.005
    
    [GRAPHIC] [TIFF OMITTED] T5117A.006
    
    [GRAPHIC] [TIFF OMITTED] T5117A.007
    
    Mr. Kolbe. Mrs. Morella, even though you missed your slot, 
we will take you here at this point, if we can.
                              ----------                              

                                         Wednesday, March 28, 2001.

 PROGRAMS TO SAVE, PROTECT AND ENHANCE THE LIVES OF WOMEN AND CHILDREN


                                WITNESS

HON. CONSTANCE A. MORELLA, A REPRESENTATIVE IN CONGRESS FROM THE STATE 
    OF MARYLAND
    Mrs. Morella. Mr. Chairman, I apologize to those who have 
succeeded me, who are the leaders in the area that I am going 
to address. Thank you, sir.
    Mr. Kolbe. We will put your full statement on the record if 
you wish.
    Mrs. Morella. Thank you.
    Mr. Kolbe. But we are going to be very strict about the 
five-minute rule, because I have about 47 people----
    Mrs. Morella. I think it is very important; you are 
chairing a very important subcommittee. It has always been very 
important to me because I feel very strongly about those 
programs that save, protect and enhance the lives of women and 
children around the world, such as infectious disease control, 
TB in particular, which I will be speaking to you about; child 
survival; UNICEF; basic education.
    I want to congratulate you on your chairmanship, and Mrs. 
Lowey, who is your ranking member on this committee.
    First of all, I would also kind of like to associate myself 
with the statements made by Mr. Pallone in terms of Armenia and 
help for Armenia and India, too. But I want to particularly 
concentrate on tuberculosis control.
    And I know succeeding me will be Sherrod Brown, who has 
been a real leader in that area. And we have worked together 
very successfully on this, because there have been some 
significant differences.
    I have a little chart here. I do not think I have this in 
your statement. But the current level of funding for 
tuberculosis in your budget is $60 million. We are requesting 
$200 million for fiscal year 2002.
    Four years ago, international tuberculosis funding received 
no money. Three years ago, it received $12 million. Two years 
ago, it received $35 million. Last year, Congress appropriated 
$60 million. And we are now requesting, respectfully, $200 
million for fiscal year 2002.
    This would provide $200 million to USAID to collaborate 
with the Centers for Disease Control, the NIH, the World Health 
Organization. And based on World Bank estimates, treatment for 
tuberculosis is one of the most cost-effective interventions 
available, costing just $20 to $100 to save a life.
    I could talk to you more about TB control, but very 
briefly, tuberculosis kills more women worldwide than all of 
the causes of maternal mortality combined. Currently, an 
estimated one-third of the world's population, including 15 
million people in the United States, are infected with 
tuberculosis bacteria. And due to its infectious nature, TB 
cannot be stopped at national borders. We have been reading 
about that. Even in my county, there was an epidemic of it. It 
is impossible to control tuberculosis in the United States 
until we control it worldwide.
    In the developing world, tuberculosis destroys girls' and 
women's futures. It tends to attack its victims in their most 
productive years, often killing or sickening the primary 
breadwinner of the family. And this, of course, has its ripple 
effect on the loss of educational opportunity for girls in poor 
families. In India alone, 300,000 children leave school because 
of their parents' tuberculosis.
    And in some parts of the world, there is a great stigma 
attached to contracting tuberculosis, which leads to increased 
isolation, abandonment, divorce of women. And again, using 
India as an example, recent studies have found that 100,000 
women are rejected by their families because of tuberculosis 
every year. And I could get into Nepal, and the stories of 
young widows with no income or prospects for another marriage, 
turning to prostitution in order to support their families.
    And of course, all across Africa, a surge in deaths as the 
devastation of TB and HIV; co-epidemics surpass the devastation 
of any disease on its own. And tuberculosis is the leading 
cause of death among HIV-positive people, and it accounts for 
one-third of AIDS deaths worldwide, 40 percent or more of AIDS 
deaths in sub-Saharan Africa. And sub-Saharan Africa has the 
world's highest tuberculosis incidence.
    Effective TB treatment is one of the most cost-effective, 
tangible interventions. It can extend the life of HIV-infected 
persons, protect families from financial ruin, and enable women 
and children to enjoy a brighter future.
    At any rate, just basically going on, tuberculosis experts 
have said that $1 billion addition is needed to adequately 
address this killer. There are multiple drug-resistant strains 
of tuberculosis. An appropriate U.S. share of that amount, of 
that $1 billion, would be $200 million, and that is a small 
price to pay for a healthy future.
    And with that funding, you could seriously tackle this 
killer, by expanding the DOTS coverage, which is a proven 
treatment, including providing needed drugs to an important new 
Global TB Drug Facility.
    I mention those figures at first just to show you we have 
made some strides, and we have begun to recognize how important 
it is that we play our part in it.
    And so I hope, Mr. Chairman, that you will not only read 
the testimony, which gives a lot more instances, but I hope 
that you will act on our request. I thank you sir.
    Mr. Kolbe. And we appreciate your commitment. And as I have 
identified, this is one of the issues that very strongly this 
subcommittee needs to be involved with. And I appreciate your 
commitment. It is helpful to me to have the numbers.
    Mrs. Morella. Thank you. I appreciate very much the fact 
that you let me testify before the subcommittee.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.008
    
    [GRAPHIC] [TIFF OMITTED] T5117A.009
    
    [GRAPHIC] [TIFF OMITTED] T5117A.010
    
    [GRAPHIC] [TIFF OMITTED] T5117A.011
    
    Mr. Kolbe. Thank you.
    Sherrod. Mr. Brown.
                              ----------                              

                                         Wednesday, March 28, 2001.

                          TUBERCULOSIS THREAT


                                WITNESS

HON. SHERROD BROWN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
    Mr. Brown. Thank you, Mr. Chairman.
    I will finish before the sand runs out. I promise. 
[Laughter.]
    I want to thank Mrs. Morella for the good work she has done 
on TB, and also Mr. Waxman and Mr. Ganske and Mrs. Wilson, from 
the state next door to yours. I particularly appreciate your 
public comments, your words in the op-ed piece in the Arizona 
newspaper earlier this month.
    Mr. Kolbe. I am surprised you read it.
    Mr. Brown. I read everything about tuberculosis.
    But Mrs. Morella mentioned the numbers, and there are 2 
billion people in this world, one-third of the world's 
population, that carry the tuberculosis bacteria. There are 15 
million people in this country that carry it. Most will never 
get TB, but some 10 percent will likely get an active form of 
tuberculosis; some smaller number will get multidrug-resistant 
TB.
    Eleven hundred people in India a day die from tuberculosis. 
India is in deep trouble as HIV/AIDS begins to move in higher 
numbers to India, and the synergism, if you will, of HIV/AIDS 
and tuberculosis is an absolute killer. More than half of the 
people of India carry the TB bacteria. We can expect huge 
problems when their immune systems are weaker with HIV/AIDS, in 
the second-largest, maybe soon to be largest, most populous 
country in the world.
    Tuberculosis is a disease, as Mrs. Morella said, that preys 
on the poor, and then creates more poor people, because the 
people that typically are felled or victimized by TB are in 
their 20s and 30s and 40s, mothers and fathers that simply then 
cannot care for their children and cannot make a living the way 
that they need to.
    About $1 billion, as Mrs. Morella said; we are asking for 
$200 million. A $1 billion commitment from the world, from 
philanthropists and from wealthy nations like ours, will cut 
the TB death rate in half over the next 10 years, if we can do 
$1 billion each year.
    Of the $200 million, we would like to see a good part of 
that devoted to the Global TB Drug Facility, which would 
actually buy the drugs. TB can be controlled with between $20 
and $100 per patient in the developing world, with directly 
observed treatment short course, as you know.
    Absolutely, it has been proven to cut, in the case of 
India. In one state in India, in one area, it cut the death 
rate by 95 percent. If it is done right, enough people get the 
drugs. If the infrastructure is built, as part of our money 
will help to do, it will absolutely make a difference, as it 
already has in India and around the world.
    I mention India because it has the highest TB rates, but a 
third of the people that die from AIDS, more than a third of 
the people who die from AIDS in sub-Saharan Africa, actually 
are dying from TB. It is a terrible, terrible disease, 
especially in conjunction with weak immune systems from HIV/
AIDS, from poverty, from hunger, with older people who are just 
physically weaker.
    So I ask this subcommittee, for humanitarian reasons, to 
appropriate $200 million. And because it is in our national 
interest, as others have said, as TB ultimately knows no 
borders, especially multidrug-resistant TB. That is why we need 
to go after regular TB through the DOTS treatment, and 
ultimately then move on to sort of a second battle against 
multidrug-resistant tuberculosis.
    I will complete my statement, Mr. Chairman.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.012
    
    [GRAPHIC] [TIFF OMITTED] T5117A.013
    
    Mr. Kolbe. Thank you very much. I really appreciate your 
commitment on this issue, something that I, too, believe in 
very strongly.
    Mr. Brown. Thank you.
    I know you have been very involved in this the last 
session, when I testified. So thank you, Mr. Chairman.
    Mrs. Morella. Thank you very much.
    Mr. Kolbe. The ranking member, thank you very much for 
joining us here.
    Mrs. Lowey. My pleasure.
    Mr. Kolbe. Tony Hall.
                              ----------                              

                                         Wednesday, March 28, 2001.

                     INTERNATIONAL POLICY ATTITUDES


                                WITNESS

HON. TONY HALL, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF OHIO
    Mr. Hall. Thank you, Mr. Chairman.
    I have a written statement, and I can present this to you. 
I do not know if you already have it, but I would like for it 
to be part of the record. I will not read from it. I will just 
go through a few ideas and suggestions.
    Mr. Kolbe. Thank you. The whole statement will be in the 
record.
    Mr. Hall. Thank you. It is good to be before you and Mrs. 
Lowey. And I think this is one of the great committees in 
Congress. A lot of members do not want to be on it. But if I 
was not on the Rules Committee, this would be my first choice. 
I think it is a great committee, and you do a lot.
    And nobody is coming in to thank you. That is why it is a 
good committee, because you can do it without constituent 
pressure. But you do not have a lot of constituents backing you 
up either.
    On the other hand, it is very interesting. Recently, they 
did a poll, and the poll said that 87 percent of Americans 
support giving food and medical assistance to countries in 
need. That is 87 percent. And 73 percent support helping them 
develop their economies. I found that amazing.
    I am a big believer in foreign aid. I never run away from 
it. I embrace it. And I even, when I do a poll in my district, 
skew my poll against me by saying, ``Tony Hall thinks more of 
Third World nations,'' normally, it depends on what countries 
they name, Ethiopia, than it does their children. You know, 80 
percent of the people in my district said ``No, no way.''
    So I know that you and Mrs. Lowey know this. And I am very, 
very glad that you are leading this committee, both of you.
    I have seen foreign aid work so very, very well. North 
Korea, I have been there six times. And the first time I went, 
people ran from me. And they were scared because they were not 
used to seeing Westerners. They used to have pictures of 
Americans bayoneting children, North Korean children.
    But now when I go there, people thank me for the United 
States, for the food. And they want to talk. They thank us over 
and over again. They salute whatever caravan I am in. It is 
amazing.
    Foreign aid, or humanitarian aid, food aid, we have given 
through the World Food Program has done more for our contact 
with North Korea, and stopped the missiles being sent over 
Japan. I mean, you can talk to all of the negotiators and 
diplomats that you want; I do not believe that they have done a 
doggone thing for the peace process. Because of our 
humanitarian aid, these people will never forget what we have 
done for them, and we can do a lot more.
    Last year, I saw a Kenyan community escape its neighbors' 
dependence on aid, even during the worst drought in 40 years, 
because they had U.S. support for irrigation projects.
    I think I remain concerned that our investments are very 
skewed to old political priorities. For example, Asia, where 
the majority of the world's people live, in three of the four 
largest nations, they only merit about 5 percent of our 
resources. And so, I think we really need to take a look at 
that.
    At the same time, we know what is going on in Africa. 
Archbishop Desmond Tutu has called upon the United States to 
reevaluate our spending priorities, and direct $1 billion to 
help ease poverty and suffering in sub-Saharan Africa. And 
Bread for the World, one of our country's most effective 
grassroots lobby, has launched a campaign to achieve a similar 
goal.
    We have a lot of new challenges. Last year, I was in Iraq, 
and we do not want to really touch Iraq because of a lot of 
political concerns and stuff, but we should, because the people 
there are really, really suffering.
    And again, it is a lot like North Korea. We do not like the 
government. We do not like what is going on. But the people are 
suffering, and the International Red Cross has appealed to us 
for $11 million in relief for Iraq's people and for their 
drought and medical needs. We are not helping like we can. Of 
course, Saddam Hussein is not helping either. But we could 
really aid the people.
    And I hope that we can increase our aid to the World Food 
Program. I have seen their work in so many countries of the 
world, and I am asking that maybe you increase it by $3 
million, from $20 million to $23 million.
    UNICEF, they are asking to increase our contribution to 
$120 million. And UNHCR, these three UN agencies are 
tremendous, and they really, really need our help. They go into 
areas that so many countries do not touch. So I hope we really 
look at that.
    I hope we continue to maintain our child survival money, 
along with that, basic education. That is one thing the 
committee has done, and is very, very good at. They have been 
very good at it. And it has really, really helped. We lead the 
world in that. There is no question about it.
    Then there is this new initiative that I am sure you have 
heard about, and many of the people are urging this committee 
to sustain or increase its $50 million contribution to the 
Global Alliance for Vaccines and Immunizations. This is the 
Bill Gates foundation, which has put a tremendous amount of 
money in. I know that you are aware of it.
    I hope the committee will also provide money for the debt 
burden that they have worked on in the past; that is so very, 
very important.
    Fourth, I think another priority is microcredit. 
Microcredit works. You have seen it work. I have seen it work 
in so many different nations. It does not take a lot of money, 
and it really, really helps people get on their feet.
    So with that, I just thank you for the chance to be here.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.014
    
    [GRAPHIC] [TIFF OMITTED] T5117A.015
    
    [GRAPHIC] [TIFF OMITTED] T5117A.016
    
    [GRAPHIC] [TIFF OMITTED] T5117A.017
    
    [GRAPHIC] [TIFF OMITTED] T5117A.018
    
    [GRAPHIC] [TIFF OMITTED] T5117A.019
    
    [GRAPHIC] [TIFF OMITTED] T5117A.020
    
    [GRAPHIC] [TIFF OMITTED] T5117A.021
    
    [GRAPHIC] [TIFF OMITTED] T5117A.022
    
    Mr. Kolbe. Mr. Hall, we very much appreciate your being 
here. I think it is safe to say you have been the conscience of 
the House of Representatives for many years now. I think your 
testimony carries special weight with us, and we certainly 
appreciate the support you have given the work of this 
subcommittee.
    Mrs. Lowey. You are an inspiration. You show us all what 
one person can do.
    Mr. Hall. No, I----
    Mr. Kolbe. It is true. And we have been joined by Mr. 
Kingston. We appreciate Mr. Kingston's views.
    Mr. Hall. Thank you very much.
    Mrs. Lowey. Thanks so much.
    Mr. Kolbe. Mr. Jim Walsh.
                              ----------                              

                                         Wednesday, March 28, 2001.

                      FOREIGN ASSISTANCE PROGRAMS


                                WITNESS

HON. JAMES WALSH, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Walsh. Good afternoon, Mr. Chairman, members of the 
subcommittee. Thank you for giving me a few minutes to address 
an issue.
    First of all, Chairman Kolbe, congratulations. I think this 
subcommittee is in very good hands, and I wish you all the 
best.
    I know your priorities. I am very excited, certainly, about 
the discussion that we had just recently about a number of 
them, including the HIV crisis in Africa. I think it is 
remarkable that you are willing to take that on, with the 
assistance of the subcommittee. And I think you can make a real 
difference there. And you have my support.
    I have joined with Tony Hall on a number of issues over the 
past, some of which I will discuss with you. He is, as you 
said, a remarkable leader on these health issues around the 
globe. And he is to be commended also.
    Four issues--I think there are four: child survival; 
tuberculosis control, which is tied up with HIV; UNICEF; 
International Fund for Ireland; Peace Corps. I guess that is 
five.
    I am a former Peace Corps volunteer, as was Tony Hall. So I 
guess that has brought us together, certainly, but Peace Corps 
does a remarkable job for relatively inexpensive costs, given 
the goodwill that it creates. And it creates some real leaders 
in this country, too. So I think it is a goodinvestment.
    Child survival activities. I would urge you to support 
additional increases in child survival, given the budget 
constraints. For UNICEF, basic education. Vitamin A 
micronutrient program, Bread for the World has really been a 
great leader there.
    Making a Difference, Sonny Callahan picked that up. With 
the help of the subcommittee, set up a separate line item in 
the budget for it, and it has solidified our country's 
commitment to kids all over the globe. And it is something we 
can all be proud of.
    TB. Less than 25 percent of those sick with TB actually 
receive proper treatment around the globe. It kills millions of 
people every year. It is an insidious disease. It has been 
around for far too long. It is not going away. If anything, it 
is worse than it was. When I was diagnosed, turning positive on 
a test, and took TB medicine for two years, carried bottles and 
bottles of pills around with me while I was in Nepal. But I am 
healthy. But there are a lot of people who are dying from it, 
and so the funds are needed there.
    International Fund for Ireland. As chairman of the Friends 
of Ireland, it is something that I bring before this committee 
every time. It is $25 million. People talk about the Celtic 
tiger and the economy in the Republic of Ireland. There is no 
question that it is there.
    But in the north and in border counties, there are still 
pockets, deep pockets, of high unemployment. And this is really 
the United States commitment to the peace process. It creates 
work projects that bring Protestants and Catholics together. It 
gives them a crucible to develop interpersonal relationships. 
It really has improved the economy in some of these pockets, 
and it has definitely improved the civility within the country.
    So thank you for your time.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.023
    
    [GRAPHIC] [TIFF OMITTED] T5117A.024
    
    [GRAPHIC] [TIFF OMITTED] T5117A.025
    
    Mr. Kolbe. Thank you.
    Mrs. Lowey. Thank you.
    Mr. Kolbe. I spent the weekend traveling with another Peace 
Corps volunteer, and it reminds me of the impact that 
organization can have on public policy by the handful of 
members that it has in Congress. You people have really made a 
difference, and we really appreciate it.
    Mr. Walsh. We are everywhere.
    Mr. Kolbe. You are.
    In El Salvador, all the Peace Corps volunteers have been 
brought in to help in the relief from the earthquake there. It 
is really very inspirational.
    Mr. Walsh. And I think this may be the crisis group that 
they set up to get people with El Salvadoran, for example, 
experience and language experience, to go back and help out, 
and then withdraw after the crisis is past.
    Mr. Kolbe. Thank you very much.
    Mr. Walsh. Thank you all for your time.
    Mr. Kolbe. Thank you.
    Mr. Crowley.
                              ----------                              

                                         Wednesday, March 28, 2001.

                      FOREIGN ASSISTANCE PROGRAMS


                                WITNESS

HON. JOSEPH CROWLEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NEW 
    YORK
    Mr. Crowley. Is there something not said yet? [Laughter.]
    Mr. Kolbe. Thank you very much, Mr. Crowley.
    Mr. Crowley. Thank you, Mr. Chairman. I appreciate you 
giving me this opportunity.
    And, Ranking Member Lowey, thank you.
    As a member of the International Relations Committee and 
the representative of one of the most diverse districts in the 
country, I have seen firsthand the important role foreign 
assistance plays in development of the social, political and 
economic climate in our world. The work of the subcommittee is 
essential, and I applaud you for your many accomplishments.
    This year, I come before you to provide a brief overview of 
several projects that I seek to continue the work that this 
nation has been so successful in supporting in the past.
    The first project that I would like to discuss is the 
Galilee Society. I come before you today to request an earmark 
of $250,000 for that society. The Galilee Society is a well-
established, highly respected, nonprofit organization that 
works in Israel to improve health care and the environment in 
the Israeli Arab community.
    The Galilee Society has 20 years of experience in providing 
professional research and services to this community in 
conjunction with Israeli universities and government agencies, 
along with other partners from Jordan, Egypt and the West Bank. 
The funding I am seeking on behalf of this organization would 
be used to advance these ongoing efforts.
    Established in 1981, the Galilee Society is the leading 
Israeli Arab nongovernmental organization in the country, with 
offices and facilities in the Galilee region in northern Israel 
and Be'er Sheva in the south. With 30 employees, both Jewish 
and Arab, the Galilee Society has established itself as a major 
catalyst for establishing local community health, 
environmental, development and educational projects. The 
Galilee Society works with multiple Israeli and non-Israeli 
partners such as USAID in the region to solve problems of 
mutual interests.
    In light of the violence that has consumed the state of 
Israel during the past five months, programs such as those 
offered by the Galilee Society lay the foundation for peace by 
facilitating a climate of cooperation and trust.
    The next project that I want to talk about and submit for 
your consideration is a $250,000 grant to the International 
Women's Democracy Center, IWDC. The IWDC is a global, 
nongovernmental organization which was established to 
strengthen women's global leadership roles through training, 
education, networking and research in all facets of democracy, 
with a particular focus on increasing theparticipation of women 
in policy, politics and decisionmaking. IWDC is committed to responding 
to the increasing need of women leaders around the world to acquire the 
technical skills and leadership tools so critical to their leadership 
roles in the next millennium.
    I have seen firsthand the work of the IWDC in action. In 
partnership with the Ulster People's College in Northern 
Ireland, IWDC designed the Community Advocate Mentor Program to 
strengthen the public policy, lobbying and advocacy skills of 
community-based women leaders from across Northern Ireland.
    Last September, 23 women came to D.C. for two intensive 
weeks of training, which were a hands-on look at how our 
legislative process functions and included the intersections of 
the judiciary, executive and legislative branches. The training 
encouraged them to take what was applicable back to Northern 
Ireland and use it as they become more engaged with their newly 
elected assembly.
    As part of the program, each woman spent two days shadowing 
a D.C.-based lobbyist, going to strategy meetings, fund-
raisers, press conferences and other client-based events. An 
additional day was spent shadowing a member of Congress to 
learn firsthand about the competing pressures we face in our 
job from constituents, special interests, colleagues and 
others.
    Through these mentorship opportunities and hands-on 
workshops, the women leaders gained the necessary tools and 
skills to determinate how best to begin to lobby their newly 
elected legislators and how to advocate for the issues critical 
to the their communities.
    I would now like to call your attention to crucial funding 
considerations contained in the global health bill that I plan 
to reintroduce in Congress.
    Men, women and children all over the world are struggling, 
as you heard from previous speakers, with the impact of an HIV/
AIDS pandemic in Africa that threatens to engulf parts of Asia 
over the next few years and destabilize regional security on 
each of these continents.
    The former Soviet Union has the most rapidly growing number 
of HIV/AIDS cases in he world and has already overwhelmed its 
faltering health care infrastructure.
    The people of these developing countries are struggling 
with the fact that more than 10 million children die each year 
before their fifth birthday from preventable diseases in those 
developing countries. They are struggling with the continued 
impact of global infectious disease such as tuberculosis, 
malaria and other infections that threaten their lives, the 
lives of their children, the viability of their villages, their 
economies and their national security.
    In response to these potential and existing crises, I will 
be submitting a request for $250 million for HIV/AIDS 
prevention and research, $225 million for child survival, $200 
million for research, $200 million for international family 
planning and $100 million for maternal health.
    And finally, my last point is on the IFI as well, that Jim 
Walsh has spoken about, with also inclusion in that the 
$250,000 for Project Children. It is a working entity that you 
are very, very aware of.
    And I want to thank all of you for your time and 
consideration for those potential projects.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.026
    
    [GRAPHIC] [TIFF OMITTED] T5117A.027
    
    [GRAPHIC] [TIFF OMITTED] T5117A.028
    
    Mr. Kolbe. Thank you very much, Mr. Crowley.
    Mr. Crowley. And I hope I did speak too quick for a New 
Yorker, but Nita Lowey got me. [Laughter.]
    Mrs. Lowey. I will interpret. No problem.
    Mr. Kolbe. Thank you very much, Mr. Crowley.
    Let's see, Mr. Visclosky is not here yet.
    Mr. Kirk. Mr. Kirk, you are sitting back on this side here. 
We are delighted that you are sitting over there. And it is a 
great honor for us to have you here as a member of the House, 
and we are just so pleased to have you testifying before us.
                              ----------                              

                                         Wednesday, March 28, 2001.

                      FOREIGN ASSISTANCE PROGRAMS


                                WITNESS

HON. MARK STEVEN KIRK, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Kirk. Thank you. As Charlie and John and everybody 
know, this is something that I have had some experience with in 
the past.
    Mr. Kolbe. Just a little bit.
    Mr. Kingston. Mr. Chairman, excuse me, but I do not think 
we want any witness who knows too much. [Laughter.]
    He can tell us where he wants it inserted in the budget.
    Mrs. Lowey. I join the chairman in welcoming Mark. Nice to 
see you.
    Mr. Kirk. I just want to raise four things from the heart 
very quickly. To extend my offer of help and support----
    Mr. Kolbe. Thank you.
    Mr. Kirk [continuing]. On the Mexico City policy, which 
will no doubt bedevil this bill.
    Mrs. Lowey. Hopefully not.
    Mr. Kirk. And to say something new, which is that something 
has changed in the last three years. We have a huge body of new 
evidence available on the effect of modern family planning on 
reducing abortion rates. And we see that in a number of former 
Soviet republics--Azerbaijan, Kazakhstan, et cetera--where you 
see dramatically dropping abortion rates with the introduction 
of modern contraceptives. And I want to work with you on that, 
tobring that body of information to the floor and talk about 
how, if you are concerned about eliminating abortion, then you are for 
modern family planning.
    Something also that I want to talk about, the unique 
relationship between AID and the domestic contraceptive 
industry. What contraceptive industry? AID is alone in 
developing new and modern contraceptives, and American women do 
not have access to the same modern and effective contraceptives 
as European women. Why? Because of the Trial Lawyers 
Association.
    The industry was killed off in this country. And I think we 
have to look at tort reform so that we can have American women 
with the same access to modern, effective contraceptives as 
European women do now. Point one.
    Point two is, I have a very strong, active Armenian 
community in our district that is raising money on their own 
for relief work in Armenia. I just want to put in the point how 
much I support the role of AID in Armenia in what they are 
doing.
    I am very pleased to see all the support for the 
international AIDS program in this bill. That program was 
started by John Porter in 1985 over strenuous objections, we 
founded that program in the cafeteria in the Longworth Office 
Building with a $25 million earmark, and we saw that this 
program has now become a huge focus of interest.
    The reason for our interest, Mr. Porter's interest, is that 
the AIDS test was developed in my district, in Deerfield, 
Illinois. And when it was donated to the World Health 
Organization, we got an astonishing answer, that the HIV 
prevalence rates were far and above what they were in the 
United States. In Central Africa, all the people who were 
affected were heterosexuals, not homosexuals. They were 
Zaireans, Angolans, et cetera; they were not Haitians. And we 
broke several of the stigmas attached to AIDS then.
    Critical issue before us now, and I think what this 
committee can help on, is developing a policy in which we 
definitely continue the advancement, the development of 
diagnostic kits and treatment. We are about to launch, once 
again out of Deerfield, Illinois, Kaletra, the most powerful 
anti-AIDS drug available; not yet available to Americans, but 
about to be. And continuing that research and development is 
crucial.
    Some of the policy decisions looked at in South Africa 
would have killed off the industry, and having that medical 
development is crucial. What has not been really looked at is 
that we are also developing an entirely new diagnostic kit that 
will be available for under $1 per dose, entirely appropriate 
for the Third World context.
    But I have a concern here. Under the previous 
administration, we divided AIDS policy from power. Originally, 
under the Global Program on AIDS, policy and power were united 
under one budget at the World Health Organization. But since 
that time, we have created UNAIDS, which has no budget 
authority, and the largest provider of assistance to countries 
to fight AIDS is the World Bank. And yet the World Bank does 
not really play much with UNAIDS.
    Since the authorizers are not going to move forward with a 
policy bill, I think it is incumbent upon you to unify AIDS 
budget and AIDS policymaking. I would recommend that that be 
done at the World Bank, because they are the ones with the 
biggest check now on AIDS, and you could also probably use the 
authority and strength of the WHO.
    I would argue that we not go forward with the current 
structure in which the head of UNAIDS simply has a policy to be 
able to recommend to other agencies what goes on, but, quite 
frankly, the World Bank can ignore what they say.
    The final point I want to raise is on Israel. They face a 
growing missile threat, and as you shift our assistance to 
Israel to the military account, there are two exciting programs 
that are going on there that I think will help U.S. armed 
forces, as well as Israel: the ground-based laser and the Arrow 
missile.
    In the past, we have not supported it through this account, 
and I am going to work as hard as I can through the 050 DOD 
process to support those accounts, but I think we should also 
look at what we can do to help Israel through this account. And 
I think that is going to be a growing issue.
    Anybody you talk to in the Israeli leadership now, missile 
defense will come up pretty much as item one. And the 
deployment of the Patriot system that we saw to Israel last 
summer only underscores that unless Israel provides that kind 
of defense, the United States Army will, and I think it is 
better that Israel be able to do that.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.029
    
    [GRAPHIC] [TIFF OMITTED] T5117A.030
    
    [GRAPHIC] [TIFF OMITTED] T5117A.031
    
    [GRAPHIC] [TIFF OMITTED] T5117A.032
    
    Mr. Kolbe. Thank you very, very much, Mr. Kirk.
    Mr. Kirk. Thank you.
    Mr. Kolbe. It is obvious from your testimony, we are very 
fortunate to have you as a member of the House. Thank you.
    Mr. Kirk. Thank you.
    Mr. Kolbe. Ms. Kilpatrick.
    Ms. Kilpatrick. Mr. Chairman, these Appropriations 
Committees seem to be scheduled on top of each other.
    Mr. Kolbe. They are.
    Ms. Kilpatrick. So I am telling you I am better than this, 
but sorry for being late.
    Mr. Kolbe. Thank you very much.
    We will take Mr. Visclosky. Though he missed his time slot, 
we will take him now.
    Thank you, Mr. Visclosky.
    We will put your full statement in the record, if you would 
like. We are trying to stick to the five-minute rule so we do 
not fall too far behind.
                              ----------                              

                                          Wednesday, March 28, 2001

                     PEACE AND CONFLICT RESOLUTION


                                WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA.
    Mr. Visclosky. Mr. Chairman, Mrs. Lowey, members of the 
subcommittee, you have been very attentive to my requests in 
the past and you have been very generous and your staff has 
been very professional and helpful to us. I want to thank you 
for that.
    I mentioned in my testimony, I have asked for an earmark 
for the University of Notre Dame's Keough Institute for a joint 
venture they have with the University of Ulster. I would ask 
that the subcommittee also retain Section 907 language 
regarding Armenia and Azerbaijan. And with that, I will 
conclude my remarks.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.033
    
    [GRAPHIC] [TIFF OMITTED] T5117A.034
    
    [GRAPHIC] [TIFF OMITTED] T5117A.035
    
    Mr. Kolbe. Well, that is very nice. [Laughter.]
    Mr. Kingston. Is he a member of the committee or something, 
Mr. Chairman? Does he know something--
    Mr. Kolbe. We thank you very much.
    I do see Mr. Pomeroy here.
    We welcome Mr. Earl Pomeroy. Thank you very much for 
joining us here.
                              ----------                              

                                         Wednesday, March 28, 2001.

                BASIC EDUCATION IN DEVELOPING COUNTRIES


                                WITNESS

HON. EARL POMEROY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF NORTH 
    DAKOTA
    Mr. Pomeroy. Mr. Chairman, thank you. I am very pleased to 
present to the subcommittee, and I will be providing a written 
copy of my statement.
    The issue that I want to speak to is the funding of basic 
education as funded by AID programs. Mark Green and I had the 
most extraordinary experience in January. As the guests of 
three nongovernmental organizations, we literally toured the 
schools that these funds have made possible in the countries of 
Mali and Ghana.
    Mali, as you know, Mr. Chairman, is one of the very poorest 
countries in the entire world with average per capita income 
below $300, less than $1 a day. And yet, we found from these 
schools hope and increasing receptivity not just with the eager 
students, but also their families and the community about the 
value these schools were providing to the villages.
    There has been a lot of change in Mali relative to their 
educational systems. And the President is committed to one 
teacher, one school per village, which is an aggressive 
expansion plan for that country. They have also changed their 
manner of instruction, moving from French to the mother tongue 
for the first three years of instruction.
    And using educational materials developed by the Academy of 
Education Development, a nongovernmental organization funded by 
AID, they have moved education into life skills. So as they 
teach reading, for example, they are teaching also nutrition or 
they are teaching sanitation, basic life skills, giving the 
learning immediate relevance.
    The results were told to us by the parents themselves. 
Children help the subsistence farmers make certain they do not 
get ripped off by the cotton traders anymore. I told them our 
farmers had similar concerns as they sold their crops. They do 
not have to look throughout the village to find someone that 
can read or write a letter; every family has someone with this 
capacity.
    This is a country where the adult literacy rates for women 
are below 50 percent and men in the low 60s; the average 
lifespan is 46 years. So you can see the tremendous need for 
expanding basic education. I am pleased to say to you that what 
I saw occurring was very, very impressive.
    Mark and I went on this trip because we became convinced 
that education is a way to affect systemic, long-term change 
for our foreign aid dollar. And all too often it seems like we 
come in and clean up after the crime scene, but this is a way 
of changing children, which changes their families, which 
change their villages, which change their community, and 
ultimately the country. I really believe that. And I think the 
macroeconomic data supports that as well.
    Secretary Larry Summers, the former secretary and now 
Harvard president Larry Summers, when he was chief economistat 
the World Bank, said investing in girls' education is about the best 
investment you can make in terms of international development.
    The studies have shown that for each year of education 
beyond grade four, you have up to a 10 percent reduction in 
family size, up to a 10 percent reduction in rates of infant 
and child mortality, up to 15 to 20 percent increase in wages.
    And so I really would like to see, Mr. Chairman, us, within 
the very tight Foreign Ops budget, come to a bipartisan 
consensus, as Mark Green and I did on our trip, that this is 
money well-spent and we need to do more.
    We were previously at something like--Charlie knows much 
better than me--but about $136 million, I think, in the early 
1990s, back to a frozen account of about $93 million, and with 
your assistance, a slight increase in funding last year. And 
that is good.
    We are not frozen, we are moving. But I think a goal that I 
believe that will reflect an appropriate commitment of 
resources in this area would be funding levels in the $146 
million range this year, moving essentially to a doubling of 
the commitment over two years. The funding level, again, this 
past year was, I think, $103 million, and so it is, I 
recognize, a substantial increase.
    Part of the difficulty is, we invented this account, child 
survival and basic education. So if you are going to increase 
basis education, what are you going to do, cut back on 
vaccinating children? I mean, that has been just an 
unacceptable, in my opinion, and unnecessary choice. What we 
need is to recognize that there is no better foreign aid dollar 
than in basic ed, in particular girls' ed, because those are 
the ones most frequently left out of the education system, and 
increasing the funding, as I have asked.
    That concludes my presentation. I would be happy to take 
questions.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.036
    
    [GRAPHIC] [TIFF OMITTED] T5117A.037
    
    [GRAPHIC] [TIFF OMITTED] T5117A.038
    
    [GRAPHIC] [TIFF OMITTED] T5117A.039
    
    [GRAPHIC] [TIFF OMITTED] T5117A.040
    
    Mr. Kolbe. We thank you very much for your commitment on 
this. And the work that you have done on Africa really helps us 
understand these issues a lot better. We appreciate it. Thank 
you very much, Mr. Pomeroy.
    Mr. Pomeroy. Mr. Chairman, I went to kind of check out a 
theory, and I found this trip to be a life-changing one. I 
mean, count me on a crusade to do more for children's 
education. I feel that strongly about it.
    Mrs. Lowey. As Charlie knows.
    Mr. Kolbe. One of the really interesting things to me is 
listening to--first time I have had to the opportunity to chair 
this hearing, public hearing--is the number of members who pick 
up particular causes and bring that information back to the 
other members of the Congress, and it really makes a huge 
difference. It is really inspiring to me. So we thank you very 
much, Mr. Pomeroy.
    Mr. Pomeroy. I thank you. I want to note that Mark Green 
had previously taught in Kenya, and so his participation in 
this trip was extremely important, greatly enhanced my own 
learning.
    Mr. Kolbe. Was he Peace Corps?
    Mr. Pomeroy. No, it was some teacher exchange thing. But in 
the late 1980s, he taught for an entire year. Got malaria and 
dysentery and everything else, but his commitment to Africa and 
children's ed there is really phenomenal.
    Mr. Kolbe. Thank you very much.
    Mrs. Lowey. Thank you so much.
    Mr. Kolbe. I do not see Mr. Baird here, but Mr. Burrill is 
here, so we will go to Mr. Burrill at this point.
                              ----------                              

                                         Wednesday, March 28, 2001.

        BUSINESS ALLIANCE FOR INTERNATIONAL ECONOMIC DEVELOPMENT


                                WITNESS

GEORGE BURRILL, CHAIR OF B.A.I.E.D.
    Mr. Burrill. Good afternoon, Mr. Chairman, Mrs. Lowey.
    Mr. Kolbe. Good afternoon.
    Mr. Burrill. My name is George Burrill, president of ARD, 
Inc., and I am here today in my capacity as chair of the 
Business Alliance for International Economic Development, a 
coalition of nine trade associations which collectively 
represents hundreds of companies.
    And I would like to stress the rationale for development 
assistance, knowing that others will address the issue of 
humanitarian assistance. And the question that I would like to 
most directly address is: Foreign assistance, what is in it for 
Americans?
    The Business Alliance believes the targeted investments we 
make today in USAID in the form of sustainable development 
assistance will pay economic dividends to the United States 
well into the future.
    Our administration's preliminary budget request for Foreign 
Operations for fiscal year 2002 is $15.1 billion, and we 
believe that this funding level is inadequate, both from the 
perspective of meeting this country's responsibilities to 
provide humanitarian assistance to the world's poorer nations, 
but also from the perspective of laying the foundations for 
sustained economic growth in emerging markets and developing 
countries.
    Foreign assistance increases our exports and creates jobsby 
developing the economies of poorer countries so that they are able to 
buy our goods. Foreign assistance increases the number and the quality 
of our trading partners by helping countries that are undergoing 
difficult transitions to achieve political and economic stability. And 
foreign assistance protects our own economy from the ravages of 
disease, environmental degradation, destruction and overpopulation by 
treating global problems at their source.
    Today, exports account for 10 percent of the entire U.S. 
economy. That is double the level of only a decade ago. And the 
fastest-growing markets for U.S. goods and services are in the 
developing world. Between 1990 and 1995, annual exports to 
developing countries increased by $100 billion. That export 
boom created roughly 1.9 million jobs in the United States.
    Unfortunately, while the United States has been withdrawing 
and cutting foreign assistance, our competitors have stepped in 
to fill the void and are now much more active in some of the 
most promising developing country markets.
    OECD research reveals that in 1999 the United States was 
dead last in official development assistance as a percentage of 
GNP among the 22 members of the Development Assistance 
Committee. The European Union and Japan gave in excess of 0.3 
of 1 percent of GNP and the United States gave only 0.1 of 1 
percent. I realize these are numbers that you are all familiar 
with.
    The economy of the European Union's 15 member nations is 
only about 5 percent larger than our own. However, in 1999, the 
EU contributed almost three times as much official development 
assistance as did the United States. EU contributed $26.7 
billion compared to $9.1 billion by the United States.
    The EU gave more than twice as much official development 
assistance in 1999 to Latin America, our own neighbors, than 
did the United States.
    Some critics of foreign assistance believe the private 
sector should make these investments, and indeed they should, 
and they are. However, there is a level of basic investment 
that only government can make.
    For example, programs that change legal systems, induce 
policy reform, protect intellectual property, promote 
democracy, improve health and education, all these steps have 
to be achieved to assure sustained economic growth.
    Social and economic stability is an important goal of U.S. 
engagement through development assistance. And when countries 
achieve economic growth and build a strong middle class, the 
likelihood that American troops will be called in to restore 
social order is greatly diminished.
    A stable economy is one that will invite private foreign 
investment and create good trading partners for U.S. goods and 
services.
    The economic activity we are seeing in the developing world 
is tightly linked to the work the U.S. government carried out 
20 and 30 years ago. Mr. Chairman, if Congress doubled the 
foreign assistance budget, it would be about the right level. 
The American public would be well-rewarded for the investment. 
That level would still be, today's dollars, less than we were 
spending in the mid-1970s.
    Two final points, and that is that our group would urge you 
as much as possible to resist earmarks to the extent you can; 
and also that, obviously from what I have said, the development 
assistance part of the aid budget is absolutely critical. And 
really, for all Americans to benefit from global engagement, 
the leadership has to come from our elected officials.
    Mr. Chairman, thank you for the opportunity.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.041
    
    [GRAPHIC] [TIFF OMITTED] T5117A.042
    
    [GRAPHIC] [TIFF OMITTED] T5117A.043
    
    [GRAPHIC] [TIFF OMITTED] T5117A.044
    
    [GRAPHIC] [TIFF OMITTED] T5117A.045
    
    [GRAPHIC] [TIFF OMITTED] T5117A.046
    
    [GRAPHIC] [TIFF OMITTED] T5117A.047
    
    [GRAPHIC] [TIFF OMITTED] T5117A.048
    
    [GRAPHIC] [TIFF OMITTED] T5117A.049
    
    Mr. Kolbe. Thank you very much, Mr. Burrill. In the 
interests of time, I will not get into a debate, but I just 
want to comment on one point you made about relative amounts of 
aid the United States gives vis-a-vis Europe and some of the 
others.
    I came back from my first official trip as chairman of the 
subcommittee from Central America and South America this past 
weekend, and while future information may change my mind again 
about it, I come with a slightly different perspective about 
that then I had before, which was certainly agreement, had been 
agreement with you.
    For example, in Central America, of the money pledged 
following Hurricane Mitch, not one penny from Europe has 
reached there yet, not one penny has been released. And they 
are quite aware of that. They have lots of pledges, but no 
money has shown up on their doorstep. So it has been the United 
States that has been there actually providing the assistance.
    Mr. Burrill. There are instances of this on the ground, 
absolutely, where the United States has been much more 
proactive. I think Colombia's another example.
    Mr. Kolbe. Lots of promises at the pledging little meeting 
in Madrid, but nothing is there. And even what they pledged, of 
course, is just reallocated loans from long-term loans, 
development assistance to emergency assistance.
    I appreciate very much your comments. Thank you very much 
for coming. Appreciate it.
    We are joined now by Mr. Baird. And thank you for coming. 
And I will disappear for one second and have Mrs. Lowey chair 
this while I go up the stairs and vote.
    Mr. Baird, please go ahead.
                              ----------                             

                                         Wednesday, March 28, 2001.

                          TUBERCULOSIS THREAT


                                WITNESS

HON. BRIAN BAIRD, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WASHINGTON
    Mr. Baird. Thank you, Mr. Chairman. I appreciate this 
opportunity to speak to the committee and appreciate your 
leadership, as well as the ranking member's.
    I would like to address today one of the issues of great 
concern internationally on the health care front, and that is 
the growing problem posed by tuberculosis. This disease is not 
only a problem throughout the developing world, but it 
disproportionately affects minority and poor populations within 
the United States.
    It is estimated that as much as one-third of the world's 
population may be infected with tuberculosis. And even though 
it is a treatable disease, millions die because they lack the 
resources needed for treatment. World health officials estimate 
that every 15 seconds a person is infected with this deadly 
virus, and as a consequence, more people will die of this 
disease this year than in any other year in history.
    As members of this committee know, our colleague, 
Congressman Sherrod Brown, has introduced a proposal, H.R. 
1168, which would increase foreign assistance for TB treatments 
around the world from current levels of $60 million to up to 
$200 million. The global community worked collectively to 
eradicate smallpox and is working now to rid the world of the 
polio virus, and I believe we can do the same with regard to 
tuberculosis.
    Thankfully, a cure for tuberculosis exists, but we must 
make sure the medicines are administered in the proper way. The 
cure that is most effective is known as Directly Observed 
Treatment Shortcourse, sometimes known as the acronym DOTS in 
the treatment community. It is effective in up to 95 percent of 
the cases, and it is very cost-effective.
    The critical element here is that the funding and the 
supervisory personnel are available so people do not take the 
medicine in the wrong way and develop drug-resistant TB.
    The trouble is that the money and the treatments are not 
reaching the people who need it. TB control experts estimate 
that about a billion additional dollars each year would be 
needed to fully control TB, and my hope would be that this 
subcommittee could consider investing $200 million in 
international TB control for 2002.
    The investment, if made now, could provide a much-needed 
jump start for TB treatment programs in the countries most 
heavily affected by this killer and could save hundreds of 
thousands of lives and protect millions more from infection.
    Let me add, there is a selfish consideration to this for 
our own nation. TB, as you know, is infected through airborne 
transmission. That is a great problem. Those of us who travel 
internationally are conceivably exposed to it every time we 
fly, in fact. And if we do not control it internationally, it 
is the kind of disease that could affect our population in 
increasing numbers, particularly as we deal with drug-resistant 
strains.
    I have a personal interest in this on two levels. One level 
is that my grandfather suffered from TB, and, in fact, spent a 
great deal of time in upstate New York in Saranac Lake, in a 
TB-treatment hospital for several years of his life.
    The other much more painful, in some ways, recent 
experience was not directly related to TB, but my father died a 
month ago from a lung-related illness, and seeing people die 
from a lung disease of any sort is not pleasant, to say the 
least, particularly in cases of TB, one that we can protect and 
prevent.
    It is an example of how we need to work on a global level 
to protect our own health locally. And I would hope this 
committee can encourage our U.S. involvement and leadership on 
this critical issue.
    Thank you for the opportunity to speak with you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.050
    
    [GRAPHIC] [TIFF OMITTED] T5117A.051
    
    Mr. Kolbe. Thank you very much.
    Mrs. Lowey. Thank you.
    Mr. Kolbe. Thank you, Brian, very much for sharing, 
particularly those experiences.
    Mr. Lyons.
    Charles Lyons from UNICEF.
    Mr. Lyons, thank you very much for joining us here.
                                         Wednesday, March 28, 2001.
                              ----------                              


                     UNITED STATES FUND FOR UNICEF


                                WITNESS

CHARLES J. LYONS, PRESIDENT OF THE U.S. FUND FOR UNICEF
    Mr. Lyons. Mr. Chairman, good afternoon and thank you for 
the opportunity to join you.
    My name is Charles Lyons. I am the president of the U.S. 
Fund for UNICEF, which puts me in a very privileged position to 
represent, literally, tens of thousands of volunteers and 
donors in our country that support UNICEF's work.
    I would like to submit formal testimony for the record, 
sir, if I may.
    I would just like to make several other very brief 
comments. About the subcommittee itself, we want to 
congratulate you on your chairmanship of this subcommittee, but 
also very much welcome Representive Lowey as the ranking 
minority member.
    We look forward to a dialogue with you and to working 
together as we have for quite a number of years.
    I want also, on behalf of our supporters, to recognize and 
thank your predecessor, Chairman Callahan, and his colleagues 
for all of the support, over the years, they have given to 
children and, specifically, to UNICEF, including writing into 
law the Child Survival and Disease Programs Fund.
    It is hugely important to our work with children around the 
world. The intent of that fund and the signal it sends about 
the priority of children is extremely useful in our work.
    I think reflective of that, also, is that, for six years, 
the subcommittee supported UNICEF at the level of $100 million, 
the last two years at $110 million. Those things that UNICEF is 
credited with accomplishing for kids would have been very 
substantially less possible without this subcommittee's 
support. And we are here to thank you for that.
    We are, this September, looking ahead at the next decade. 
We will be reporting on what has been accomplished since the 
World Summit for Children in 1990. And among other things, we 
see enormous challenges for kids over the decade, whether it is 
the HIV plague, whether it is the increase in poverty in a 
number of countries, the number of emergencies that affect 
children and affect the way people respond to kids and the 
programs they can have for kids.
    Our experience is it has never been easy to try to help 
kids and get substantial results in their health and nutrition 
and education in developing countries, but we have a record of 
doing that.
    We have also identified opportunities over the next decade 
that we are very excited about and that we will be talking 
about at the U.N. Special Session on Children.
    In that context, we are aware of the President's request 
for fiscal year 2002. I think it asks for a modest increase 
overall in the international foreign affairs function. We would 
respectfully ask your support for a contribution in fiscal year 
2002 of $120 million.
    And with those resources, in the short time that we have, I 
would simply try and say that it will help UNICEF to do, in a 
way, what is expected of UNICEF, but it will help us fight in 
more places. I hope it will help us fight smarter. And it will 
help us reach more kids, immunize more kids, immunize more 
mothers, move us along in our goal of eliminating maternal and 
neonatal tetanus, for example, that takes the lives of 220,000 
women and children, because they do not have a tetanus 
vaccination.
    You made a comment about the response to Hurricane Mitch. I 
have recently come back from India, in Gujarat, in part, to see 
the progress that we were making with private resources raised 
by my organization to help there. And I think, like most 
people, you probably had an image of that earthquake, I am 
sure.
    This is, probably, a fairly common image of the earthquake. 
This was a school. But I want to replace that image with 
something a little more positive.
    This is up and running. It is a classroom outside of Bhuj, 
one of the areas nearest to the epicenter or near the 
epicenter. One of the most important things we can do in 
emergencies, after basic water and shelter and food are 
provided, is to get the kids back in school.
    Another image I would like to leave you with is at this 
time under construction, a maternal and child health center. It 
is now fully functioning and working very well. It is the kind 
of response that we were able to help with by virtue of those 
volunteers and donors that I mentioned.
    Finally, sir, I would like to make reference to the Special 
Session this fall. I think it is a tremendous opportunity to 
talk about the opportunities for kids, to articulate a new 
agenda, as was done in 1990, to showcase support from the 
United States, including very creative partnerships like the 
one with Kiwanis International and the work we are doing 
together to eliminate iodine deficiency. And just in 
parentheses, I would say, I would certainly support their 
request this afternoon for $2.5 million.
    We hope President Bush will attend. Twenty-five heads of 
state are already confirmed to be there.
    And with that, sir, I thank you for your time.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.052
    
    [GRAPHIC] [TIFF OMITTED] T5117A.053
    
    [GRAPHIC] [TIFF OMITTED] T5117A.054
    
    [GRAPHIC] [TIFF OMITTED] T5117A.055
    
    [GRAPHIC] [TIFF OMITTED] T5117A.056
    
    [GRAPHIC] [TIFF OMITTED] T5117A.057
    
    [GRAPHIC] [TIFF OMITTED] T5117A.058
    
    [GRAPHIC] [TIFF OMITTED] T5117A.059
    
    Mr. Kolbe. Thank you very much.
    I was particularly interested in your comment about the 
schools, about education, because when we were in El Salvador 
over the weekend, that was one of the things, as a result of 
the earthquake there, they are most concerned about, getting 
the schools back in.
    They already have a very high dropout rate; 40 percent of 
the children do not finish the sixth grade in rural areas. And 
if they are out of school a month, two months or three months, 
you are not going to get them back again. So it is very 
important to get schools running.
    Mr. Lyons. Well, as parents are trying to pull themselves 
back together, I cannot imagine the relief it is to have your 
children safely looked after in that kind of traumatic 
situation.
    Mrs. Lowey. Just one quick comment. I thought Carol 
Bellamy's op-ed in the New York Times was interesting last 
week, talking about the experience of UNICEF in vaccinating 
huge populations and the relevance of that to what we are going 
to be doing with AIDS. So it might be something that we might 
want to pursue at some point.
    Mr. Lyons. Almost all of the kinds of things that people 
want to do with kids, no matter what price the drugs drop to 
for HIV and AIDS, we need a delivery system, whether we are 
vaccinating. And we have to invest in support for those 
delivery systems.
    Mr. Kolbe. Thank you very much, Mr. Lyons.
    Mr. Lyons. Thank you very much.
    Mr. Kolbe. Mr. Kohr.
    Welcome, we are glad to have you here, Mr. Kohr. Thank you 
very much.
                              ----------                              

                                         Wednesday, March 28, 2001.

                AMERICAN ISRAEL PUBLIC AFFAIRS COMMITTEE


                                WITNESS

HOWARD A. KOHR, EXECUTIVE DIRECTOR, AIPAC
    Mr. Kohr. Thank you. First of all, it is a privilege and an 
honor to be here again, Mr. Chairman. I want to congratulate 
you and say we are looking forward to working with you and 
Ranking Member Lowey in your new roles of leadership in this 
subcommittee that is so vital to U.S.-Israel relations. It is a 
privilege.
    I come, today, frankly, with a sense of disappointment and 
frustration and, frankly, even anger over recent events in the 
Middle East. It is hard to believe that just a year ago, when I 
was before this subcommittee, we were hoping that the year 2000 
would bring an end to the Arab-Israeli conflict.
    Former Prime Minister Barak devoted his entire time in 
office to the quest for a comprehensive peace. First, he 
focused on a Syrian track, offering Syria the entire Golan 
Heights in return for a peace agreement. Syria refused.
    And then he decided to unilaterally withdraw from the 
security zone in southern Lebanon, which he counted on UN 
pledges that the government of Lebanon and UN forces would keep 
Hezbollah out of that area. Instead, Israel's troop are out, 
Hezbollah's are in, and they are accumulating weapons, they are 
kidnapping Israeli soldiers, and they are threatening northern 
Israel.
    Prime Minister Barak then offered the Palestinians 
virtually every reasonable thing that they were seeking in the 
final status negotiations, and this time it was Chairman Arafat 
who refused, refused not only the unprecedented concessions 
offered by Israel, but he consciously turned his back on the 
Oslo peace process.
    What we are witnessing on the ground, today, is not a 
spontaneous popular uprising of Palestinians unhappy with 
Israeli policies. Rather, we are seeing a well-planned, 
deliberate, military campaign conducted by the Palestinian 
leadership to secure through violence what they could not 
secure at the negotiating table.
    No government can tolerate what we are seeing every day in 
Israel: over 30 incidents a day of live-fire attacks on Israel 
soldiers and civilians; almost daily terrorist incidents 
against innocent Israelis, including today's suicide bombing 
where two teenagers were merely waiting at a bus station to go 
to school, to be picked up by the bus, were killed. One of them 
happens to be the younger brother of someone who actually works 
at the embassy here in Washington. So the bus bombing in 
Jerusalem and the senseless murder two days ago of a 10-month-
old baby in her stroller in Hebron.
    Mr. Chairman, the Palestinian leadership must understand 
they will gain nothing through violence. Israel's new prime 
minister is anxious to restart negotiations with the 
Palestinians, and I know he indicated this to both of you when 
he met with you last week, to improve the daily lives of 
Palestinians. But the Palestinian leadership must demonstrate 
that they reject the path of violence and are willing to enter 
into more realistic interim arrangements.
    Few of the countries and entities with which Israel has 
signed peace agreements have done enough to make these 
agreements more than pieces of paper or to convince their 
people of the benefits of peace.
    Other regimes in the region openly espouse the destruction 
of Israel and are within reach of obtaining weapons of mass 
destruction. It is now estimated that Iran, with the help of 
the Russians and the Chinese, will be able to build a nuclear 
weapon by 2005, an event that would have profound implications 
for the United States and Israel.
    In Iraq, UN inspectors have not been in Iraq for over three 
years, and there are indications that Saddam Hussein's regime 
has rebuilt large portions of its prohibited arsenal.
    Both Iran and Iraq are doing all they can to take advantage 
of the current instability to further weaken the Jewish state. 
The threat of a wider regional conflict is very real today.
    In this new strategic environment, even a strong military 
like Israel's is finding it difficult to maintain its deterrent 
capabilities. Israel's defense forces have prepared a 10-year 
plan which will require it to be ready to fight around the 
clock, in all weather conditions, againstenemies at 
increasingly greater distances.
    This must be funded by a country that already spends close 
to 10 percent of its GDP on defense while also meeting the 
requirements of dealing with ongoing Palestinian-Hezbollah 
violence, of paying for a costly withdrawal from Lebanon, and 
bearing the cost of readiness for a possible escalation of the 
current violence into a broader war.
    U.S. assistance is critical to these efforts. Under the 
Callahan plan recently endorsed by the administration, Israel 
is scheduled to receive $2.04 billion in military assistance 
and $720 million in economic support funds in fiscal year 2002. 
We urge the subcommittee to approve these funds and the 
traditional terms of that assistance, earmarks, early dispersal 
and offshore procurement, which is so important to Israel's 
defensive and deterrence capabilities.
    I also hope you will look favorably on the commitment made 
by the previous administration to provide Israel with 
additional funding to help meet the cost of withdrawal from 
Lebanon and of the new technologies to counter the 
proliferation of weapons of mass destruction. Now is the time 
to stand strongly and solidly with our one real ally in the 
Middle East, Israel.
    Mr. Chairman, I look forward to the day when I can come 
before this subcommittee and celebrate the end of the Arab-
Israeli conflict. After 53 years of statehood, Israel should 
not have to wonder whether its existence will ever be accepted 
by its neighbors. Unfortunately, that continues to be a very 
real question in the Middle East today.
    Without United States support and the support of this 
subcommittee, Israel's continued existence could well have been 
seriously questioned. Your continued support will be more 
important than ever as Israel confronts the tremendous military 
and political challenges it faces in the coming year.
    Thank you, Mr. Chairman.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.060
    
    [GRAPHIC] [TIFF OMITTED] T5117A.061
    
    [GRAPHIC] [TIFF OMITTED] T5117A.062
    
    [GRAPHIC] [TIFF OMITTED] T5117A.063
    
    [GRAPHIC] [TIFF OMITTED] T5117A.064
    
    [GRAPHIC] [TIFF OMITTED] T5117A.065
    
    [GRAPHIC] [TIFF OMITTED] T5117A.066
    
    [GRAPHIC] [TIFF OMITTED] T5117A.067
    
    [GRAPHIC] [TIFF OMITTED] T5117A.068
    
    [GRAPHIC] [TIFF OMITTED] T5117A.069
    
    [GRAPHIC] [TIFF OMITTED] T5117A.070
    
    [GRAPHIC] [TIFF OMITTED] T5117A.071
    
    [GRAPHIC] [TIFF OMITTED] T5117A.072
    
    Mr. Kolbe. Thank you very much, Mr. Kohr, we appreciate 
your testimony very much.
    Mr. Kohr. You are welcome.
    Mr. Kolbe. Lindsay Miller.
                              ----------                              

                                         Wednesday, March 28, 2001.

                             SEEDS OF PEACE


                                WITNESS

LINDSAY MILLER, V.P. OF SEEDS OF PEACE
    Ms. Miller. Good afternoon, Chairman Kolbe and Ranking 
Member Lowey.
    My name is Lindsay Miller. I am vice president of Seeds of 
Peace.
    I want to thank you and the other members of this committee 
for this honor and opportunity to talk with you briefly about 
an extraordinary organization.
    For nine years, Seeds of Peace has brought youngsters from 
the Middle East, Cyprus, and now also the Balkans, India and 
Pakistan, to programs in conflict resolution. Teenagers from 
these turbulent regions are brought together for the unique 
conflict resolution programs at the Seeds of Peace 
International Camp in Maine and at the Seeds of Peace Center 
for Coexistence in Jerusalem.
    These teens develop relationships in an environment which 
overcomes prejudice, fear and anger. Parallel programs have 
also been established for the adult educators who accompany the 
teens to Maine. At camp, these youngsters work to break down 
the barriers of mistrust and suspicion, and they begin to see 
one another as people, not as enemies, and, more important, as 
potential friends.
    Seeds of Peace is not about singing a song or planting a 
tree and calling it peace. What transpires at the coexistence 
sessions is often painful and reflects the rawness, hatred and 
stereotypes that fuel the conflicts. What emerges is something 
quite remarkable: youngsters who are willing to listen to one 
another, learn from one another and respect one another.
    In June of 2000, Seeds of Peace received a congressional 
appropriation which enabled us to expand the summer experience 
into a comprehensive year-round program for our alumni.
    Even during these most troubled times, the Seeds of Peace 
staff is on the ground working to help hundreds of Israeli and 
Arab Seeds sustain their friendships with their former enemies 
and commitment to coexistence.
    We seek to foster genuine coexistence, to humanize the 
faces in conflict that have too often been deliberately 
dehumanized. In short, we try to give the enemy a face.
    For nine years, Seeds of Peace has succeeded in changing 
the attitudes of teenagers caught up in bitter and historic 
conflicts that were not of their making. I would like to 
introduce one of our Seeds to you, Jawad Issa.
    Mr. Issa. Ladies and gentlemen, my name is Jawad Issa, and 
I am a Palestinian from Gaza attending a boarding school up in 
Maine.
    It is cold there. [Laughter.]
    I would like to tell you about myself and a friend whom I 
never thought I would ever have.
    After the war of 1948, my grandparents had lost all of 
their belongings in Palestine and were forced to live in a 
refugee camp. My parents both escaped living there, and they 
have wandered from country to country, six in all, looking for 
a place to live.
    And even now, after we are settled in Gaza, the stamp that 
is on my passport that says, ``Refugee,'' is not enabling me to 
live or lead a normal life.
    In 1998, I was chosen to attend Seeds of Peace camp by my 
government. I was faced by many people who tried to talk me out 
of going there. A teacher of mine took me for an hour and tried 
to explain to me that I was not going to be doing the right 
thing. My mother tried to talk me out of it because of fear for 
my life. And it was only my father who has supported me for 
that, and this is how I entered the world that has changed my 
life.
    I never had met an Israeli before, and at Seeds of Peace 
camp, I met this Israeli kid called Gil. We lived in the same 
cabin, and we played sports together. We were also assigned to 
the same discussion group where we talked about the conflict.
    Gil Messing is a strong, nationalist Israeli, and he is a 
leader in the right-wing Likud youth party. His father is a 
retired colonel in the Israeli army, who has participated in 
many of the Arab-Israeli wars.
    When we looked at our backgrounds, Gil and I realized that 
we are very different, and we have little in common besides our 
love for our countries and many of the experiences that made us 
hate the other side or the enemy.
    We were so different that even after our experience at 
camp, I was shocked to receive a call from him a month later. 
He was inviting me to come to visit his school in Yavhen, north 
of Gaza.
    After we had set the date, three days later he called me 
again and he was crying on the phone. And he was telling me, 
``Jawad, I am really sorry.'' There was a rumor in the school 
that upon my visit to his school, I would be under the threat 
of attack of fanatic Israeli religious students, and so the 
visit was canceled.
    Now, let's forget about this for a little bit and look 
about how does a Likud member, who almost justifies the killing 
of Palestinians, have undergone the change to become a person 
who cries out of fear for a Palestinian's life, my life.
    I eventually visited his school, and I eventually visited 
his home and many other Israelis. And many other visits between 
Palestinians and Israelis have happened all throughout the 
region. And the only common thing between those people is that 
they have been Seeds of Peace graduates.
    I am a strong believer in what Seeds of Peace does. AndI 
have had hard times going through the camp and through the program, but 
I still have this dream of achieving peace. And I see that Seeds of 
Peace is the only community that helps us eliminate the hatred and 
grudges held because of prejudice and stereotypes.
    Thank you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.073
    
    [GRAPHIC] [TIFF OMITTED] T5117A.074
    
    [GRAPHIC] [TIFF OMITTED] T5117A.075
    
    [GRAPHIC] [TIFF OMITTED] T5117A.076
    
    [GRAPHIC] [TIFF OMITTED] T5117A.077
    
    [GRAPHIC] [TIFF OMITTED] T5117A.078
    
    [GRAPHIC] [TIFF OMITTED] T5117A.079
    
    [GRAPHIC] [TIFF OMITTED] T5117A.080
    
    [GRAPHIC] [TIFF OMITTED] T5117A.081
    
    [GRAPHIC] [TIFF OMITTED] T5117A.082
    
    [GRAPHIC] [TIFF OMITTED] T5117A.083
    
    [GRAPHIC] [TIFF OMITTED] T5117A.084
    
    [GRAPHIC] [TIFF OMITTED] T5117A.085
    
    [GRAPHIC] [TIFF OMITTED] T5117A.086
    
    [GRAPHIC] [TIFF OMITTED] T5117A.087
    
    [GRAPHIC] [TIFF OMITTED] T5117A.088
    
    [GRAPHIC] [TIFF OMITTED] T5117A.089
    
    [GRAPHIC] [TIFF OMITTED] T5117A.090
    
    [GRAPHIC] [TIFF OMITTED] T5117A.091
    
    [GRAPHIC] [TIFF OMITTED] T5117A.092
    
    Mr. Kolbe. Jawad, thank you very much.
    Sometimes I despair about our prospects of peace in the 
Middle East, but if we are ever going to achieve it, it is only 
going to be if we change a generation of young people like you 
on both sides.
    And so I admire very much what Seeds of Peace does, and I 
certainly admire your commitment, Jawad. Thank you very much 
for coming down and giving us this testimony here today.
    Thank you very much.
    Mr. Issa. Thank you.
    Mr. Miller. Thank you.
    Mr. Kolbe. Dr. Bruce Cohen, Interns for Peace.
                              ----------                              

                                         Wednesday, March 28, 2001.

                           INTERNS FOR PEACE


                                WITNESS

RABBI BRUCE M. COHEN, INTERNATIONAL DIRECTOR OF INTERNS FOR PEACE
    Mr. Cohen. Hello, Mr. Chairman, Congresswoman Lowey and 
members of the subcommittee. Thank you so much for this 
opportunity to testify to you today on behalf of Interns for 
Peace, established in 1976 to build an infrastructure for peace 
by training ethnic peace workers to empower people and unite 
communities in development.
    My name is Rabbi Bruce M. Cohen, and I serve as 
international director for Interns for Peace, an organization 
which I founded over a quarter of a century ago.
    Today, I am also representing my Palestinian and Israeli 
counterparts, Hisham Kullab, director and founder of Interns 
for Peace, Palestinian, who you have met, and Stav Appel, 
director, Interns for Peace, Israel.
    Today, my focus is on Interns for Peace, Palestinian. And 
this is the first time that I have testified before Congress. I 
am here today because the situation has become so acute in the 
Middle East. I believe that Interns for Peace's proven 
community development training approach is so critically needed 
now that I seek U.S. Government funding to implement it on a 
large scale, enough to build a foundation for a just and 
lasting peace in the region.
    Interns for Peace plays a unique role in promoting peace in 
the Middle East. It is the only organization that focuses on 
training community development and peace workers in Palestinian 
Gaza and the West Bank as well as Israel.
    Why is an indigenous corps of trained peace workers so 
critically needed? The United States, as you so well know, has 
dedicated huge amounts of time and money to promoting peace in 
the Middle East. But even if peace is achieved in principle, 
true peace will require the participation of average people in 
every ethnic, religious and national group.
    The current peace process is taking place at the level of 
the political elites and essentially ignores the street and the 
refugee camps, particularly the average Palestinian.
    Interns for Peace does not neglect the street but works 
directly with it, particularly in those very refugee camps, and 
our interns come from those refugee camps. Interns for Peace 
has spent decades in developing a proven means of offering 
ethnic communities in the Middle East alternatives to hatred 
and violence.
    In July of 1999, Palestinian delegates from refugee camps 
gathered at a USAID-funded conference, organized by Interns for 
Peace in Ramallah on the West Bank. These delegates came from 
refugee camps from throughout Gaza and the West Bank and 
overwhelmingly voted that Interns for Peace expand its training 
in Gaza and initiate its training programs in the West Bank, so 
as to create a true peace dividend for the Palestinian people.
    To achieve this goal, Interns for Peace has detailed and 
prepared a proposal, which it will now submit to USAID, to 
train 160 Palestinian interns in community development, civil 
society and empowerment of women and youth at risk. These 
individuals will, in turn, empower 160,000 Palestinians in over 
40 refugee camps on the West Bank and Gaza through self-help 
projects to empower these youth, women and the unemployed.
    These 160 Palestinian graduates will go on to form a corps 
of moderate, well-trained professionals who can go on to found 
or staff governmental and nongovernmental agencies in 
education, civil society, development and social services. This 
would be the most broad-based program of civil-society-building 
ever undertaken within Palestinian areas, and I truly believe 
that it is a necessary and concrete step toward peace in the 
Middle East.
    Interns for Peace is seeking an earmark of $2.1 million 
from the U.S. Congress in fiscal year 2002 to implement this 
program. This training program builds on decades of Interns for 
Peace knowledge and the Interns for Peace proven record of 
success.
    I believe it is critical to peace, and I ask that you 
consider including funding specifically for this program, for 
Interns for Peace to truly establish the infrastructure for 
peace to the Middle East.
    Thank you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.093
    
    [GRAPHIC] [TIFF OMITTED] T5117A.094
    
    [GRAPHIC] [TIFF OMITTED] T5117A.095
    
    [GRAPHIC] [TIFF OMITTED] T5117A.096
    
    [GRAPHIC] [TIFF OMITTED] T5117A.097
    
    [GRAPHIC] [TIFF OMITTED] T5117A.098
    
    [GRAPHIC] [TIFF OMITTED] T5117A.099
    
    [GRAPHIC] [TIFF OMITTED] T5117A.100
    
    [GRAPHIC] [TIFF OMITTED] T5117A.101
    
    [GRAPHIC] [TIFF OMITTED] T5117A.102
    
    Mr. Kolbe. Thank you very much, Dr. Cohen. We appreciate 
what you are doing, and the fact you have taken the time to 
come up and share this with us. It is going to be very helpful 
to us.
    Mr. Cohen. Thank you.
    Mr. Kolbe. Mr. Worthington.
    Barry Worthington, U.S. Energy Association, welcome. Thank 
you for coming.
                              ----------                              

                                       Wednesday, March 28, 2001.  

                    UNITED STATES ENERGY ASSOCIATION


                                WITNESS

BARRY WORTHINGTON, EXECUTIVE DIRECTOR OF THE UNITED STATES ENERGY 
    ASSOCIATION
    Mr. Worthington. Thank you, sir. Thank you for the 
opportunity to speak to you today.
    The U.S. Energy Association is a voluntary association of 
165 energy-related organizations. And today, I would like to 
talk you about the importance of energy in sustaining economic 
growth in developing countries and also the financial 
contributions that are being provided to do so by the U.S. 
energy sector.
    Just as in California, energy supply shortages, unusually 
high prices and unreliable service are severe impediments to 
economic growth. The demand for energy in developing countries 
is increasing faster than production, and this is jeopardizing 
the continued growth and stability of these nations and 
presenting threats to democracy and social stability.
    Worldwide, 2 billion people lack access to energy. 
Hospitals cannot refrigerate vaccines, schools cannot provide 
adequate lighting, clean water systems cannot function without 
energy. Lacking an adequate energy infrastructure, it is likely 
that unemployment, illiteracy, spread of infectious disease, 
environmental degradation and the cycle of poverty in 
developing countries will continue unabated.
    The potential for civil unrest fueled by energy poverty in 
developing countries poses an increasingly significant 
geopolitical risk to the security of the United States and to 
its allies. Energy security is critical to national security. 
The Gulf War, current tensions over petroleum resources in the 
South China Sea and public demonstrations over power blackouts 
are examples of conflicts and civil unrest spawned by 
insufficient energy resources.
    You know, Russia is now using energy exports as a political 
weapon in dealing with Ukraine, with Armenia and the Republic 
of Georgia. Energy-related political issues continue to brew in 
the Caspian region and now are affecting our NATO ally Turkey. 
In countries as diverse as Nigeria, India and Mexico, energy 
issues present both opportunities and also threats to U.S. 
interests.
    Global trade and investment in energy provides jobs in the 
United States as well as in developing countries. We believe 
that the U.S. energy industry has much to offer in the form of 
efficient and clean energy technologies, systems and services 
to developing countries.
    Leveraging the U.S. energy sector resources, the U.S. 
Energy Association began the volunteer Energy Partnership 
Program in 1990 with funding from the U.S. Agency for 
International Development. This Energy Partnership Program 
matches U.S. energy companies, regulatory agencies and industry 
associations with counterparts in USAID-assisted countries.
    We started with a modest three programs in 1990 and have 
spread now to over 80 energy and regulatory partnerships in 
more than 30 countries. Over 8,000 utility and regulatory 
executives have participated pro bono, volunteering their time 
and effort in our partnership activities.
    The U.S. energy companies and organizations have freely 
volunteered over $50 million of time and expertise of senior 
executives. And this actually represents $1 of private sector 
voluntary contributions for every $1 of U.S. Government funding 
that goes into these energy cooperation programs.
    Since its inception, over 50 organizations and 21 
regulatory commissions have participated in over 30 states and 
the District of Columbia. And I might add, nearly all of the 
electric utilities in the State of New York have been 
participants in this program and Tucson Electric Power has been 
a very strong participant in hosting countless delegations in 
Arizona.
    The purpose of these partnerships is to promote the 
efficient, environmentally sound supply and use of energy by 
transferring commercially viable, market-oriented approaches to 
overseas utilities. These partnerships help enhance 
opportunities for U.S. investments and trade in international 
energy markets.
    Our partnerships have achieved numerous results of 
tremendous value to the U.S. taxpayer, when you have $1 
ofprivate sector funding matching $1 of government funding.
    All of that is in our written testimony, so I will not go 
over it now. But let me conclude, simply, by recommending that 
energy really needs to be a cornerstone of U.S. development and 
trade assistance policy. We recommend that the U.S. Government 
expand the funding of energy-related assistance programs with 
USAID.
    And we urge consideration be given to expanding those types 
of programs and activities where the U.S. private sector is 
contributing on a pro bono basis, $1 for $1, leveraging U.S. 
Government funding. None of these organizations would spend 
their own time and their money if they did not think it was 
worthwhile.
    Further, we really need to have energy-related economic 
assistance plan coordinated, almost a Marshall-Plan-like 
concept for energy. Such an approach needs to be cohesive and 
consistent to facilitate U.S. exports and strengthen the 
institutional components of a civil society. An energy Marshall 
Plan can help reestablish U.S. leadership in the energy sector.
    And with that, Mr. Chairman, I will conclude my remarks. 
And thank you very much for giving us the opportunity to 
testify.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.103
    
    [GRAPHIC] [TIFF OMITTED] T5117A.104
    
    [GRAPHIC] [TIFF OMITTED] T5117A.105
    
    [GRAPHIC] [TIFF OMITTED] T5117A.106
    
    [GRAPHIC] [TIFF OMITTED] T5117A.107
    
    [GRAPHIC] [TIFF OMITTED] T5117A.108
    
    [GRAPHIC] [TIFF OMITTED] T5117A.109
    
    [GRAPHIC] [TIFF OMITTED] T5117A.110
    
    [GRAPHIC] [TIFF OMITTED] T5117A.111
    
    [GRAPHIC] [TIFF OMITTED] T5117A.112
    
    [GRAPHIC] [TIFF OMITTED] T5117A.113
    
    [GRAPHIC] [TIFF OMITTED] T5117A.114
    
    [GRAPHIC] [TIFF OMITTED] T5117A.115
    
    [GRAPHIC] [TIFF OMITTED] T5117A.116
    
    [GRAPHIC] [TIFF OMITTED] T5117A.117
    
    [GRAPHIC] [TIFF OMITTED] T5117A.118
    
    [GRAPHIC] [TIFF OMITTED] T5117A.119
    
    [GRAPHIC] [TIFF OMITTED] T5117A.120
    
    [GRAPHIC] [TIFF OMITTED] T5117A.121
    
    [GRAPHIC] [TIFF OMITTED] T5117A.122
    
    [GRAPHIC] [TIFF OMITTED] T5117A.123
    
    [GRAPHIC] [TIFF OMITTED] T5117A.124
    
    [GRAPHIC] [TIFF OMITTED] T5117A.125
    
    [GRAPHIC] [TIFF OMITTED] T5117A.126
    
    Mr. Kolbe. Thank you very much, Mr. Worthington.
    You know, I have met some of the people in Tucson. I did 
not realize it was through this association. I appreciate the 
work that you are doing.
    Thank you very much.
    Mr. Worthington. Thank you, sir.
    Mr. Kolbe. Dr. Bruce Spivey from Helen Keller Worldwide.
    Dr. Spivey, welcome and thank you very much.
                              ----------                              

                                         Wednesday, March 28, 2001.

                         HELEN KELLER WORLDWIDE


                                WITNESS

DR. BRUCE SPIVEY
    Dr. Spivey. Mr. Chairman, Congresswoman Lowey.
    I am Bruce Spivey. I am here on behalf of Helen Keller 
Worldwide and the millions of people we serve. I am a volunteer 
member of that board, and I have spent most of my professional 
life promoting eye health as an ophthalmologist, a professor of 
ophthalmology and as a leader of national and international 
ophthalmological organizations.
    Helen Keller Worldwide, or HKW, is the leading U.S.-based 
private voluntary organization dedicated to blindness 
prevention and to improving survival, health and productivity 
of vulnerable populations.
    Founded in 1915 with the help of deaf-blind crusader Helen 
Keller herself, we currently operate in 29 countries, Africa, 
Asia and the Americas.
    I would like to begin by thanking you for the past 
assistance. Your help has allowed us to reach millions of 
people around the world.
    As much as we have done, the need is still great. According 
to the World Health Organization, 1.5 million children are 
blind and 7 million children suffer from low vision. Vitamin A 
deficiency and congenital cataracts are primarily to blame.
    I was recently in Mexico to evaluate Helen Keller's child 
blindness program. And I was particularly gratified to see, 
firsthand, the success of these programs. They have brought 
hope where, before, none existed.
    I would like to tell you very briefly about a young child, 
Javier, who is now eight. When he was a year old, Javier began 
bumping into things in his living room, could not walk to the 
side, had to walk straight ahead slowly, sought objects by 
sound, not sight. And he was taken to several programs in 
Mexico and told that he could not have eye surgery, having had 
congenital cataracts before he was age 14.
    Fortunately, our program was able to provide, in five 
months, cataract surgery at the Louis Sanchez Bulnes Hospital 
in Mexico City, which is our partner in this program.
    Following up, as we do with every operated child, this 
young man now is in school, performing well and loves jigsaw 
puzzles. He could not even get around in his living room, 
previously, so we feel very, very pleased with this example.
    Congenital cataract is a major cause of treatable childhood 
blindness, and it affects over 350,000 children every year. 
Since 1993, we have addressed this problem by bringing cataract 
surgery to afflicted children throughout the world. We have 
programs in Bangladesh, Brazil, Mexico, Morocco and South 
Africa.
    Now, to switch a bit, statistics show that, globally, 250 
million children of preschool age do not have enough vitamin A 
in their diet. The consequences of vitamin A deficiency are 
dire: 350,000 of these 250 million children will go blind, and 
2 million will die.
    Addressing vitamin A deficiency is Helen Keller's largest 
and most successful endeavor. Interventions through 
supplementation, proper food consumption and food fortification 
not only help to prevent unnecessary blindness but prevent loss 
of life. This is rampant, particularly with children with a 
lack of vitamin A.
    The simple distribution of vitamin A capsules--is one of 
the most effective and widespread interventions. Last fiscal 
year alone, HKW was involved directly and indirectly in the 
distribution of capsules to over 60.5 million children across 
the globe. Supplementation is the most cost-effective public 
health treatment available, amounting to just 50 cents per 
child per year.
    Not only do we want to help avoid preventable blindness, we 
want to enable people to help themselves as well. Because we 
work closely with local health authorities and nongovernmental 
organizations, we know our programs can achieve sustainability, 
and a number have already done so.
    For example, in most of the countries where we operate, 
vitamin A programs have already seen government incorporate 
their capsule distribution into national immunization days 
ornational micronutrient days. When this happens, we continue our work 
by providing technical assistance and training.
    The success we, at Helen Keller Worldwide, have witnessed 
is indeed encouraging.
    Mr. Chairman, I hope that we can count on the subcommittee 
to renew its support for these very important programs. 
Specifically, we ask that you include language in your report 
recommending at least $1.5 million for the program for blind 
children and $30 million for micronutrients, including 
increased funding for vitamin A programs.
    Again, we thank you for the subcommittee's past support and 
your leadership in this area.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.127
    
    [GRAPHIC] [TIFF OMITTED] T5117A.128
    
    [GRAPHIC] [TIFF OMITTED] T5117A.129
    
    [GRAPHIC] [TIFF OMITTED] T5117A.130
    
    [GRAPHIC] [TIFF OMITTED] T5117A.131
    
    [GRAPHIC] [TIFF OMITTED] T5117A.132
    
    [GRAPHIC] [TIFF OMITTED] T5117A.133
    
    [GRAPHIC] [TIFF OMITTED] T5117A.134
    
    [GRAPHIC] [TIFF OMITTED] T5117A.135
    
    [GRAPHIC] [TIFF OMITTED] T5117A.136
    
    [GRAPHIC] [TIFF OMITTED] T5117A.137
    
    [GRAPHIC] [TIFF OMITTED] T5117A.138
    
    Mr. Kolbe. Thank you very much, Dr. Spivey. We really 
appreciate the wonderful work the Helen Keller Worldwide group 
does.
    Dr. Spivey. Thank you very, very much. Remember those 
capsules. [Laughter.]
    We have more.
    Mr. Kolbe. Thank you very much.
    We will next hear from Dr. Herbert Pigman of Rotary 
International.
    Mr. Pigman. I am not a doctor yet, but----
    Mr. Kolbe. Oh, did I say doctor? I am sorry. We will make 
you an honorary doctor for today.
                              ----------                              

                                         Wednesday, March 28, 2001.

                          ROTARY INTERNATIONAL


                                WITNESS

HERBERT A. PIGMAN, VICE CHAIRMAN, INTERNATIONAL POLIOPLUS COMMITTEE, 
    ROTARY INTERNATIONAL
    Mr. Pigman. Thank you.
    Chairman Kolbe and Congresswoman Lowey, members of the 
committee, thank you for the opportunity to speak to you today.
    Thirteen years ago, the World Health Organization, United 
States and other member nations resolved to eradicate polio, 
which is the world's greatest cause of disability. And since 
that time, the war on polio has enlisted many, many partners. 
And it has now become the world's largest, and I dare say, the 
most successful public-private health initiative.
    The U.S. agency for development has played, and is playing, 
a vital role in this remarkable program. We hope to see the 
last case of polio on this planet within the next 24 months.
    We are in the homestretch of the race to reach the last 
child, and victory will depend on overcoming several 
challenges. Chief among these are sustaining the political 
commitment in the face of a disappearing disease, continuing to 
gain access to children in countries with civil conflict and, 
finally, timely financial support to the 20 remaining countries 
where the polio virus still circulates.
    So as I appear before you today to thank your committee, 
Mr. Chairman, for the support it has specifically provided to 
fuel USAID's role in the global partnership and to express the 
hope that your committee will support with financial support 
unabated in fiscal year 2002.
    To briefly report on the progress, the number of cases, 
which were estimated at 350,000 in 1988, has reduced to 2,817 
as of five days ago; for the year 2000, a 99 percent reduction. 
The entire Western Pacific is now polio-free, as is the Western 
Hemisphere. There has been no case of polio in the 52 countries 
of Europe in the last two years. And all countries have held 
national immunization day programs, a strategy that has proven 
to work in countries even with civil conflict and with severe 
obstacles of a weak infrastructure.
    I am very pleased to say that this program also supports 
vitamin A distribution, as Dr. Spivey mentioned. Vitamin A 
distribution became part of 60 national immunization days last 
year.
    If I may share with you the progress in India, Mr. Chairman 
and Congresswoman. India traditionally has been the reservoir 
of half of the polio cases in the world. And you can see the 
progress in the last three years. These are virologically 
determined cases reducing from 1998, almost 2,000 cases, to 256 
last year with the transmission occurring up there in Bihar, 
Uttar Pradesh, West Bengal, chiefly.
    Specifically, Mr. Chairman, we are requesting $30 million 
in USAID support for 2002, in addition to the normal USAID 
resources devoted to the regular immunization programs.
    The benefits of polio eradication, in addition to the 
humanitarian aspect, $1.5 billion savings when it no longer 
becomes necessary to immunize children against polio. For the 
U.S., the savings will be $230 million per year. There is a 
wonderful, accredited lab network now. There is, developing, a 
culture of prevention.
    The United States, Mr. Chairman, has been the global leader 
in funding this program, having provided $540 million in the 
last six years. Rotary Group, whom I represent as a volunteer, 
has committed itself to $500 million and has already deployed 
$409 million toward this program.
    Despite this funding and the generous support of many 
partners, we have a funding gap at the present time of $450 
million through the year 2005, the final five years of this 20-
year battle against polio.
    So, thank you, Mr. Chairman, for the opportunity to bring 
this good news to you and with the hope that your committee can 
again support United States leadership in this great global 
venture.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.139
    
    [GRAPHIC] [TIFF OMITTED] T5117A.140
    
    [GRAPHIC] [TIFF OMITTED] T5117A.141
    
    [GRAPHIC] [TIFF OMITTED] T5117A.142
    
    [GRAPHIC] [TIFF OMITTED] T5117A.143
    
    [GRAPHIC] [TIFF OMITTED] T5117A.144
    
    [GRAPHIC] [TIFF OMITTED] T5117A.145
    
    [GRAPHIC] [TIFF OMITTED] T5117A.146
    
    [GRAPHIC] [TIFF OMITTED] T5117A.147
    
    [GRAPHIC] [TIFF OMITTED] T5117A.148
    
    [GRAPHIC] [TIFF OMITTED] T5117A.149
    
    [GRAPHIC] [TIFF OMITTED] T5117A.150
    
    Mr. Kolbe. Thank you very much, Mr. Pigman.
    Thank you for what Rotary does as well. It is really 
heartwarming and inspiring.
    Bo Shafer, Kiwanis.
    Mr. Shafer, welcome.
                              ----------                              

                                         Wednesday, March 28, 2001.

                         KIWANIS INTERNATIONAL


                                WITNESS

BO SHAFER, PRESIDENT, KIWANIS INTERNATIONAL
    Mr. Shafer. Bo Shafer, I am lucky enough to be president of 
Kiwanis International. We are a volunteer organization, and I 
aim to congratulate you folks for being on this wonderful 
committee.
    Mr. Kolbe. And I can tell that you do not come from Mrs. 
Lowey's part of the country. [Laughter.]
    Mr. Shafer. I hope you can understand me, because the only 
language I speak is Tennessee. I know that you folks talk a 
little bit funny, but all I can do is what I can do. 
[Laughter.]
    Mrs. Lowey. Well, we appreciate it. You do important work.
    Mr. Shafer. But we have worked real closely with this 
committee for four years. And our project is eliminating iodine 
deficiency around the world. We have joined together with 
UNICEF as our partner, and we partnered with USAID and the 
United States Government, of course, which is us. And we have 
really made some big things happen.
    All we need is one teaspoon of iodine in a lifetime, and it 
is a totally preventable cause of mental retardation. So that 
is the project we are working on. And we just want to thank you 
for working with us. And we have made a huge, huge step in 
eliminating this terrible scourge around the world.
    So on behalf of our 6,200 clubs in the United States alone, 
thank you so much for helping us make a huge difference in the 
world.
    I was in New Zealand not too long ago, and a doctor was 
speaking about it. She worked with IDD, iodine deficiency 
disorder, and she was telling me about a boy who was named 
Friday. He was about this tall, about 3, maybe 4 feet tall. He 
was wearing overalls and had a big smile on his face. He was 
cretin. Cretin is the worse thing that can happen to anybody 
who does not get any iodine. He could hardly walk, hardly talk, 
barely existed.
    But they said, in this country, they said, this child was 
really lucky because when people had a child who was born 
cretin, they would just throw him right down on the street and 
let him die.
    But somebody had taken this boy in, but they had taken him 
in as an animal. He lived in the barn. They fed him with the 
cows and the sheep and the horses. And all he did was lay low. 
But they said he was lucky.
    So this is one of the things that we are trying to prevent. 
When we started this project, there were 1.5 billion children 
in the world who were affected by iodine deficiency disorder in 
115 countries. Whole populations' IQ can drop 15 percent just 
by not getting any iodine.
    And we are not hunting. We are not doing any research. We 
know the cure: putting iodine in all the salt of the world. And 
that is our project. We are raising $75 million to do that. The 
solution is to get iodine in the salt. And that is what we are 
doing. We are raising $75 million to do that.
    I have some maps I would like to show you. This first map 
is the countries that were affected with iodine deficiency when 
we first started. All the red countries did not have any iodine 
in their soil. It comes from the soil, but it gets leached out. 
And of course, we put it in salt. The United States had the 
problem years ago. We took care of it by putting iodine in 
salt.
    The next map shows what, of those 1.5 billion people, what 
iodine deficiency has caused: cretinism is 11 million; brain 
damage, 43 million; goiters, 750 million. And a total of 1.6 
billion, which is a third of the world, is affected by this.
    This next map shows the countries that we are working with 
right now. We have already given $40 million, and a lot of our 
money is in pledges. And we are working with 82 countries at 
this particular time. We are making huge progress.
    The next one shows the progress that we have made in each 
one of these countries. The green is, over 90 percent of the 
people are getting iodine. The yellow is, 50 percent to 89 
percent are getting enough iodine. The red is, 50 percent or 
less are getting enough iodine. If it is white, we do not have 
any data.
    What we want to do is, next time we come, we want to show 
you the red, and we want it all to be green. And so that is our 
goal.
    We are at $68 million in in fund raising now. We think it 
is not only a humane effort, we think it is a really good 
investment.
    And I have walked with, I have talked to, I have seen, and 
I have smelled absolute and total poverty. And I mean, most of 
it, in the places I have been, is because they do not get any 
iodine. So we think it is not only a humane effort, but it is 
an investment for our country to help these folks help 
themselves.
    We would like to ask you to do three things.
    One is to continue helping us educate the American people 
that this is a problem around the world.
    The next thing we would like you to do is support our 
partner, who we have really had a great experience with, 
UNICEF. They are asking for $120 million, and we would like for 
you to agree to help those folks have their money provided.
    And then, what we would like is to get $2.5 million. If we 
could get $2.5 million, we are getting close; we are goingto 
reach our goal to virtually eliminate this awful scourge.
    And that is what we would like you to do. We are trying to 
plant a seed for a tree that we will not only get the shade of, 
but the whole world will.
    We want to thank you for your cooperation and for your 
compassion and caring for others. And that is what we want.
    Thank you very much.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.151
    
    [GRAPHIC] [TIFF OMITTED] T5117A.152
    
    [GRAPHIC] [TIFF OMITTED] T5117A.153
    
    [GRAPHIC] [TIFF OMITTED] T5117A.154
    
    [GRAPHIC] [TIFF OMITTED] T5117A.155
    
    [GRAPHIC] [TIFF OMITTED] T5117A.156
    
    [GRAPHIC] [TIFF OMITTED] T5117A.157
    
    [GRAPHIC] [TIFF OMITTED] T5117A.158
    
    [GRAPHIC] [TIFF OMITTED] T5117A.159
    
    [GRAPHIC] [TIFF OMITTED] T5117A.160
    
    Mr. Kolbe. Thank you, Mr. Shafer.
    Mrs. Lowey. Thank you.
    Mr. Kolbe. And once again, let me say, it is really 
inspiring to me, as a member, to see organizations like 
Kiwanis, Rotary and the other organizations like that, that are 
just on their own, picking up for these programs around the 
world. It really is inspiring. And your members have also given 
me something every time I speak to a Kiwanis club, to talk 
about the work that you people are doing here.
    Mr. Shafer. Thank you very much. Thank you very much.
    We have a lot of folks out there with the right heart.
    Mr. Kolbe. You sure do.
    Mr. Shafer. They want to make a difference in this world 
for another.
    Mr. Kolbe. A lot of good people in the Kiwanis, and I love 
talking to them.
    Mrs. Lowey. Even in New York.
    Mr. Shafer. We have plenty of them in New York.
    Next time I see you, I want you all to be wearing a Kiwanis 
pin. [Laughter.]
    Thank you very much.
    Mr. Kolbe. John Salzberg.
                              ----------                              

                                         Wednesday, March 28, 2001.

                   THE CENTER FOR VICTIMS OF TORTURE


                                WITNESS

JOHN P. SALZBERG, WASHINGTON REPRESENTATIVE, THE CENTER FOR VICTIMS OF 
    TORTURE
    Mr. Salzberg. Good afternoon, Mr. Chairman.
    Mr. Kolbe. Thank you very much for coming.
    Mr. Salzberg. I appreciate this chance to talk with you. I 
would like to tell you how it is in the United States national 
interest to support treatment programs for victims of torture. 
Actually, in 1998, Congress adopted the Torture Victims Relief 
Act. In adopting this legislation, Congress recognized that 
torture is one of the most effective weapons against democracy.
    Repressive governments target human rights and democracy 
advocates. They instill fear in those who seek democratic 
change. And that is the purpose of torture.
    The Torture Victims Relief Act authorized supporting 
treatment programs for victims of torture. These programs 
enable torture victims to recover their lives and, in many 
cases, resume their advocacy for democracy and human rights. 
Thus, support for torture treatment programs is not only a 
valid humanitarian initiative in keeping with the finest 
American traditions, it also a valid strategic political 
objective.
    Health providers enable democracy leaders to recover their 
lives, continue their struggle for democracy and civil and 
political rights. They also provide professional data on the 
practice of torture, and, thereby, become the force for civil 
society to advance democracy and human rights.
    The Torture Victims Relief Act authorized three categories 
of support, two of which are under the domain of this 
subcommittee. It authorized support for the United Nations 
Voluntary Fund for Victims of Torture and authorized AID to 
support foreign treatment programs for victims of torture.
    This subcommittee has been responsive, providing financial 
support for these programs, both under Democratic and 
Republican majorities. It is my hope this will continue in the 
present Congress. The Subcommittee for the Department of Health 
and Human Services has also appropriated funding for the third 
category of assistance, support for U.S. treatment programs for 
victims residing in this country.
    In 1982, the United Nations General Assembly established 
the UN Voluntary Fund for Victims of Torture. In the year 2000, 
this fund assisted more than 100 programs in more than 50 
countries with grants totalling over $7 million.
    The fund's dispersal and modest grants to nongovernmental 
programs in these countries provides essential financial as 
well as political support for these programs. The fund also 
assists programs in countries where the victims have taken 
refuge.
    The United States is a good example. Many of the 23 
programs in the United States are recipients of grants from the 
UN fund, including, I might add, the Belleview Hospital Fund 
Center project as well as the one in Queens, New York. I am 
sure there must be one in Arizona. I will have to do the 
research on that.
    For all these reasons, we ask the Committee on 
Appropriations to recommend in its report that $5 million be 
contributed to the UN Voluntary Fund for Victims of Torture. 
This is the amount authorized in the Torture Victims Relief Act 
for fiscal year 2002.
    We also ask that your report urge the Department of State 
to encourage other governments to increase their contribution 
to the fund to report on these activities and results thereon 
by February 15, 2002.
    Now, there are well over 200 torture treatment programs in 
the world. The UN fund is unlikely ever to provide sufficient 
funding for all of these programs. For this reason, the Torture 
Victims Relief Act authorized AID to support foreign treatment 
centers for victims of torture. And since 1992, the House 
Committee on Appropriations and this subcommittee has 
recommended to AID that it support foreign treatment programs.
    Last year, AID announced, for the first time, a two-year 
award of $1.5 million to support capacity-building programs for 
the foreign treatment centers with a focus on training and 
technical assistance. This was a very important precedent for 
which AID should be complimented.
    And our center, the Center for Victims of Torture, which is 
based in Minneapolis, was pleased to receive this grant, 
because we believe that training and technical assistance is 
important. However, we were disappointed that more funding was 
not available for direct budgetary support for the centers' 
treatment services. Many of these centers are strapped 
financially and are operating under difficult political 
conditions.
    Last year's committee report reflects this opinion as well. 
The committee recommended that AID devote $10 million to 
support foreign treatment centers for victims of torture and 
that these funds be used primarily for direct treatment 
services for victims of torture.
    So Mr. Chairman, Mrs. Lowey, I would recommend the 
committee reiterate the recommendations contained in last 
year's report for torture victims and, in fact, authorize this 
$10 million to support foreign treatment centers in 2002. And 
we suggest the committee recommend that amount and that a major 
portion of these funds be in the form of direct financial 
support for these programs. And we would further recommend the 
committee request a report from AID on the implementation of 
this recommendation by February 15, 2002.
    I might add that AID has not yet submitted its report for 
this year.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.161
    
    [GRAPHIC] [TIFF OMITTED] T5117A.162
    
    [GRAPHIC] [TIFF OMITTED] T5117A.163
    
    [GRAPHIC] [TIFF OMITTED] T5117A.164
    
    [GRAPHIC] [TIFF OMITTED] T5117A.165
    
    Mr. Kolbe. Thank you very much.
    Mr. Salzberg, would you, for the record, provide any 
information you have about the treatment of tortured and 
physically abused workers on commercial farms in Zimbabwe? 
Anything you can provide for this committee would be very 
helpful.
    Mr. Salzberg. I have a sense we can. We do have a sister 
organization in Zimbabwe.
    Mr. Kolbe. We would appreciate any information you have 
about that.
    Mr. Salzberg. And you were saying, what was that? Maybe I 
will check with you.
    Mr. Kolbe. We will give you the information.
    Thank you very much.
    Mr. Salzberg. Sure.
    Mr. Kolbe. Next is Kathryn Wolford, Faith Action for 
People-Centered Development Policy. Welcome.
                              ----------                              

                                         Wednesday, March 28, 2001.

          FAITH ACTION FOR PEOPLE-CENTERED DEVELOPMENT POLICY


                                WITNESS

KATHRYN WOLFORD
    Ms. Wolford. Thank you.
    Good afternoon, Mr. Chair, Mrs. Lowey.
    It is a pleasure to be here. It is a pleasure to be here. 
My name is Kathryn Wolford, and I am the president of Lutheran 
World Relief. And I speak today on behalf of Faith Action for 
People-Centered Development Policy. We are a group of 
Protestant and Catholic religious and faith-based organizations 
who advocate for policies to promote peace, justice and the 
reduction of poverty worldwide.
    A new millennium is upon us. As people of faith and in 
Biblical spirit, we are calling for that jubilee spirit to 
provide a fresh start for people living in hunger and poverty 
around the globe, our faith compels us to also bring that word 
of advocacy to see that those values are reflected in U.S. 
foreign policy and foreign assistance.
    As a prosperous and a powerful nation, we think that the 
U.S. has both the opportunity and the responsibility to assist 
impoverished people to reduce poverty and to achieve 
sustainable development. We are concerned with many trends in 
U.S. foreign assistance, including the disproportionate amount 
that is often provided for military assistance rather than for 
humanitarian purposes.
    We believe these trends run counter to public opinion. And 
I would note recent polls by the Center for the Study of Policy 
Attitudes, which affirm that the majority of Americans actually 
support effective aid destined for the world's poorest people.
    It is our request that you consider doubling the funding 
that our government provides for humanitarian and sustainable 
development programs. And we believe the increase should be 
dedicated toward eliminating obstacles to those who struggle to 
put daily bread on the table in many countries across the 
globe.
    Specifically, we are urging more resources in a couple of 
areas.
    One is HIV/AIDS and other global health concerns. Worldwide 
preventable health catastrophes, including HIV/AIDS, are taking 
a toll. And I will not go through the statistics; I know you 
are aware of them. It is also undermining national societies 
and economies. The U.S. should invest several billion dollars 
annually on global health issues, helping to take a leadership 
role in halting this tragic loss of lives around the world. It 
is the right thing to do. We are capable of doing it. And we 
look to Congress to provide leadership on that issue.
    Debt relief for impoverished countries. Our churches and 
organizations have been at the forefront of the Jubilee 2000 
movement to cancel the crushing debts of the poorest countries 
of the world. We appreciate the tremendous support that 
Congress has provided for this initiative. And now weare asking 
you to, again, fully authorize existing debt relief programs and 
encourage you to consider expanding these important programs.
    A third area is education and with particular emphasis on 
education for the girl child. Literacy and primary education 
are the cornerstones of development and economic growth in any 
country. And yet 125 million primary school children, many of 
them girls, are not in school today. We ask the U.S. to double 
funding for international education to $300 million for 
countries who are making a commitment to achieve universal 
primary education and, at the same time, to increase U.S. 
funding for UNICEF.
    A fourth area of concern is migration and refugee needs. 
Responding to the needs of immigrants and refugees has always 
been a primary concern for Christian humanitarian organizations 
in this country. And despite, we think, our valiant efforts 
supported by the American public to address these concerns at 
home and abroad, the needs are still tremendous. We ask the 
migration and refugee assistance account be increased to $817 
million, which would simply restore the account to its 1995 
level, adjusted for inflation. And we would also ask that the 
emergency refugee and migration assistance account be 
supplemented with a $50 million appropriation.
    Finally, in terms of areas, we are most interested in 
sustainable development, and that is impossible in regions torn 
apart by conflict and internal strife. Funding that you can 
provide for conflict resolution, peacekeeping and de-mining 
efforts at the highest possible levels are called for in 
today's world. We support renewed congressional efforts to call 
on our President to join the treaty to ban landmines and to 
quickly bring the U.S. into full compliance. At the same time, 
funding for programs for the treatment of landmine survivors 
and for the rehabilitation of child soldiers worldwide is very 
important to our faith-based community.
    That runs through several of the areas that are covered in 
more depth in our written testimony. But we would also like to 
just highlight several regional concerns for the budget and to 
bring those to attention from our coalition.
    We would urge you to provide at least an additional $1 
billion above and beyond current levels to poverty-focused 
development assistance in sub-Sahara Africa. Global levels of 
official development assistance to Africa have fallen 29 
percent in the last decade alone, a trend that we believe must 
be reversed not only for the people of Africa, but for global 
security in its broadest sense. Funding for this region must be 
sufficient to fully implement a critical array of programs for 
Africa, and many of our constituents have a particular emphasis 
in this area.
    We call on Congress to support economic and humanitarian 
assistance to Indonesia. But we urge you not to provide 
military aid or training for security forces that are actually 
contributing to oppression and the inability to overcome 
poverty in that area.
    We urge Congress to ensure continued food aid for North 
Korea, something many of our agencies have been directly 
involved in.
    We urge you to support additional funding for 
reconstruction in El Salvador and not at the expense of or 
taking it away from other existing accounts.
    And we urge you to reshape Plan Colombia. I have just 
returned from Colombia. I have heard from democratically 
elected officials as well as nongovernmental humanitarian 
organizations that the emphasis on military aid in Plan 
Colombia is undermining the peace process, the defense of human 
rights and the prospects for peace and sustainable development.
    And finally, we would urge that economic aid to the 
Palestinian population be continued and increased and funding 
to the region to support and not undermine the fragile peace 
process.
    We ask that you, as members of Congress, bring your vision 
and leadership to the kinds of issues that we have raised out 
of our faith perspective and our experience as humanitarian 
organizations. We hope that you will share these concerns and 
include them in your priorities.
    And we thank you very much for your time today.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.166
    
    [GRAPHIC] [TIFF OMITTED] T5117A.167
    
    [GRAPHIC] [TIFF OMITTED] T5117A.168
    
    [GRAPHIC] [TIFF OMITTED] T5117A.169
    
    [GRAPHIC] [TIFF OMITTED] T5117A.170
    
    [GRAPHIC] [TIFF OMITTED] T5117A.171
    
    [GRAPHIC] [TIFF OMITTED] T5117A.172
    
    [GRAPHIC] [TIFF OMITTED] T5117A.173
    
    [GRAPHIC] [TIFF OMITTED] T5117A.174
    
    [GRAPHIC] [TIFF OMITTED] T5117A.175
    
    [GRAPHIC] [TIFF OMITTED] T5117A.176
    
    [GRAPHIC] [TIFF OMITTED] T5117A.177
    
    [GRAPHIC] [TIFF OMITTED] T5117A.178
    
    [GRAPHIC] [TIFF OMITTED] T5117A.179
    
    Mr. Kolbe. Thank you very much, Ms. Wolford.
    We appreciate the extensive statement that you have, which 
we will put in the record.
    Thank you very much for joining us today.
    Ms. Wolford. Thank you.
    Mr. Kolbe. Now, we have been joined by Mr. Lewis, an 
outstanding member of this subcommittee.
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Kolbe. Yes, and next we have Father Headley, U.S. 
Catholic Conference, Migration and Refugee Services and 
Catholic Relief Services.
    Welcome.
                              ----------                              

                                         Wednesday, March 28, 2001.

U.S. CATHOLIC CONFERENCE MIGRATION AND REFUGEE SERVICES/CATHOLIC RELIEF 
                                SERVICES


                                WITNESS

FATHER WILLIAM HEADLEY
    Father Headley. Thank you very much, Mr. Chairman and 
members of the committee.
    Mr. Chairman, I am Father Bill Headley, deputy executive 
director of Catholic Relief Services.
    As you probably know from our long association with this 
subcommittee, CRS is the international development agency of 
the U.S. Catholic Bishops dedicated to serving the poor, 
providing food and other assistance in over 80 countries for 
the past 57 years.
    I am here today representing CRS but also the offices of 
the U.S. Catholic Bishops Conference for International Justice 
and Peace, Migration, Refugee Services.
    Due to the shortness of time, my oral testimony today will 
simply highlight two topics from our detailed written testimony 
that has already been submitted and I see is before you.
    First, on foreign aid generally, Mr. Chairman and committee 
members, the start of a new Congress and a new administration 
presents us with a fresh opportunity to begin a serious 
dialogue about reshaping our country's foreign assistance 
programs and policies. The Catholic Bishops come here today 
seeking substantially more aid, more focused on global poverty 
reduction and more effective in reaching the poor.
    During an unprecedented period of economic growth, 
U.S.foreign aid as a percentage of GNP fell to the lowest of all donor 
countries. Our country has also failed to give adequate attention to 
the regions suffering from the most severe poverty in the world, sub-
Sahara Africa.
    The United States is now nearly last among donor countries 
in the allocation of its development assistance to this region. 
The human cost and moral consequences are staggering: 300 
million Africans live on barely $.65 a day; 15 percent of 
African children die before the age of five.
    Mr. Chairman, let us not leave only crumbs from our tables. 
We believe that our nation has a moral obligation to be in 
solidarity with our poorest brothers and sisters around the 
world. To bring U.S. assistance to sub-Saharan Africa just 
above the bottom third of donors, an additional $1 billion 
should be dedicated to poverty reduction and education in that 
region.
    We also urge an additional $1 billion for global health. 
Disease threatens to kill more than one-quarter of the 
populations in the hardest-hit African countries in the next 20 
years. $1 billion is the U.S. share of the estimated minimum 
increase per year needed to stem HIV/AIDS.
    With that relief, Mr. Chairman and committee members, we 
thank this subcommittee for its leadership in approving full 
funding last year. We ask that full funding be continued for 
fiscal year 2002 by an appropriation of $240 million to fulfill 
the Cologne Accord.
    My last point on poverty reduction programs, Mr. Chairman, 
is to address the needs of improved delivery of aid with the 
participation of faith-based groups.
    Based on our field experience in those 80 countries that we 
serve in, we believe that aid delivery is impeded by earmarking 
of funds, programmatic inflexibility, the tied-aid policy and 
micromanagement. Our written testimony describes ways to 
overcome these problems, including multiyear and multi-culti 
grants and the flexible programs focused through specific 
policy commitments, but without undue reliance on earmarking.
    The second topic is refuge protection. Mr. Chairman, 
through our Department of Migration and Refugee Services, the 
Catholic bishops resettle close to a third of the refugees who 
come into the United States each year. Last year we helped 
18,000 refugees, representing 94 ethnicities and 50 different 
nationalities.
    We thank the subcommittee for its work last year on refugee 
protection issues, specifically, the increase of $42 million 
above the administration's budget request. The $700 million 
approved for the migration and refugees' assistance account 
reversed a disturbing trend of funding reductions.
    However, given increasing refugee flows, the MRA budget 
remains inadequate, so the need for increased funding continues 
this year.
    Mr. Chairman, we recommend that at least $800 million for 
MRA and $50 million for the emergency refugee and migration 
account. This funding is needed to respond adequately to the 
refugee crisis in Guinea, the scores of Afghan women and 
children fleeing to Pakistan from the Taliban government, and 
refugee situations in Thailand, Ethiopia, Eritrea, Sudan and 
the Great Lakes regions of Africa and elsewhere. The $50 
million for ERMA would help replenish funds drawn from that 
account during the last year to address crises in Congo, the 
Middle East and Guinea.
    Mr. Chairman, other refugee protection issues are detailed 
in our written testimony, such as opposition to language to 
prevent the State Department from disbursing funds to UNHCR 
without congressional notification, and support for an increase 
in the reception and placement grant used to resettle refugees 
in the U.S. each year.
    We thank you very much for your attention, not only to my 
comments, but also to our interventions.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.180
    
    [GRAPHIC] [TIFF OMITTED] T5117A.181
    
    [GRAPHIC] [TIFF OMITTED] T5117A.182
    
    [GRAPHIC] [TIFF OMITTED] T5117A.183
    
    [GRAPHIC] [TIFF OMITTED] T5117A.184
    
    [GRAPHIC] [TIFF OMITTED] T5117A.185
    
    [GRAPHIC] [TIFF OMITTED] T5117A.186
    
    [GRAPHIC] [TIFF OMITTED] T5117A.187
    
    [GRAPHIC] [TIFF OMITTED] T5117A.188
    
    [GRAPHIC] [TIFF OMITTED] T5117A.189
    
    [GRAPHIC] [TIFF OMITTED] T5117A.190
    
    [GRAPHIC] [TIFF OMITTED] T5117A.191
    
    [GRAPHIC] [TIFF OMITTED] T5117A.192
    
    [GRAPHIC] [TIFF OMITTED] T5117A.193
    
    [GRAPHIC] [TIFF OMITTED] T5117A.194
    
    [GRAPHIC] [TIFF OMITTED] T5117A.195
    
    [GRAPHIC] [TIFF OMITTED] T5117A.196
    
    [GRAPHIC] [TIFF OMITTED] T5117A.197
    
    [GRAPHIC] [TIFF OMITTED] T5117A.198
    
    [GRAPHIC] [TIFF OMITTED] T5117A.199
    
    Mr. Kolbe. Thank you very much, Father Headley.
    Everyplace I go, I am very impressed with the work the 
Catholic Relief Services does, not only domestically, but 
around the world. It is a wonderful organization.
    Father Headley. Thank you very much, Mr. Kolbe.
    Mrs. Lowey. Thank you very much.
    Mr. Kolbe. Mr. Wallace Mlyniec of the American Bar 
Association.
                              ----------                              

                                         Wednesday, March 28, 2001.

                        AMERICAN BAR ASSOCIATION


                                WITNESS

WALLACE J. MLYNIEC
    Mr. Mlyniec. Thank you, Mr. Chairman, and all the members 
of the committee. Good afternoon.
    My name is Wallace Mlyniec. I am a professor of law and 
associate dean at Georgetown University and a member of the 
American Bar Association.
    Through my affiliation with the ABA, I became aware of an 
exciting international partnership with the United Nations 
Development Program to promote democracy and the rule of law 
worldwide. The partnership is called the ABA-UNDP Legal 
Resource Unit, and I am pleased to now serve as a member of the 
advisory committee of the LRU. I am here today to provide 
testimony to this partnership as an example of the sound 
democratic governance strengthening efforts of the UNDP 
worldwide.
    The LRU was established in December of 1999, based upon the 
common commitment and interest of the American Bar Association 
and the United Nations Development Program to support and 
promote democratic governance and the rule of law around the 
world. The fit between the two organizations is a win-win fit 
because we are able to leverage a much greater support through 
this partnership than either organization could have done 
alone.
    Housed within the ABA section of the International Law and 
Practice Committee, the LRU takes requests from the UNDP 
country offices both from national headquarters and 
international headquarters to identify legal experts who can 
fulfill the requirements of UNDP democratic and legal 
assistance projects worldwide.
    These experts usually provide their services pro bono 
through the ABA as a contribution to the LRU and its 
objectives. The UNDP, for its part, provides resources for 
matching funds for expenses related to travel and other 
incidentals.
    The LRU is a product of close collaboration between the 
personnel of the two institutions. Led by a joint Steering 
Committee composed of senior members of both organizations and 
supported by a network of advisory committee members like 
myself, consisting of lawyers and development specialists in 
the private practice, government and academia from different 
parts of the world.
    Serving as an adviser, facilitator and a catalyst, the LRU 
strives to bring together competent and committed lawyers 
worldwide to contribute to UNDP-supported democratic governance 
and legal reform programs. Because the LRU-recommended lawyers 
are willing to work pro bono, the UNDP is able to leverage its 
funding and maintain the high quality of membership.
    Last year, UNDP devoted approximately half of all its 
program funds to promoting good governance, democratization and 
the rule of law. I would like to give you just briefly three 
examples of the work that we have been doing in over 20 
countries this year.
    In Armenia, the advisory committee, the LRU, provided 
advisory services to develop programs to improve the 
accountability of parliamentary procedures and transparency of 
those procedures. We helped develop these kinds of legislative 
programs in over 46 other countries.
    In Bangladesh, we assisted in identifying and recruiting 
human rights specialists to complement the LRU's ongoing 
democratic position efforts with electoral, judicial, 
legislative and civil society institutions.
    In East Timor, we recruited legal specialists in the field 
of election law to support UNDP programs to educate their 
institutions on comparative election law and to provide 
training on civic education.
    These are just a small example of the work that we are 
doing. In light of this work in this crucial area of democratic 
governance, as illustrated by our partnership with the UNDP, 
the ABA strongly believes that the UNDP is worthy of the 
committee's support as you proceed with your fiscal year 
appropriation.
    Thank you for giving the ABA the opportunity to speak 
today. I appreciate your time, and I thank you very much.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.200
    
    [GRAPHIC] [TIFF OMITTED] T5117A.201
    
    [GRAPHIC] [TIFF OMITTED] T5117A.202
    
    [GRAPHIC] [TIFF OMITTED] T5117A.203
    
    Mr. Kolbe. Thank you very much, Mr. Mlyniec. I appreciate 
your being here today.
    Mary McClymont of InterAction. Your entire statement will 
be in the record.
                              ----------                              

                                         Wednesday, March 28, 2001.

           INTERACTION: AMERICAN COUNCIL FOR VOLUNTARY ACTION


                                WITNESS

MARY McCLYMONT
    Ms. McClymont. Very well. Thank you.
    I represent InterAction, which is, of course, an 
organization of 150 private voluntary organizations, which are 
engaged in international relief and humanitarian development.
    These organizations, I think, share the view of the 
subcommittee that we need the world to be a better place to 
live in, and we would like to try to help to do that in an 
effective and responsible way. I offer brief remarks today and 
hope that my testimony will spell out in greater detail the 
areas I would like to speak about.
    Foreign assistance, of course, supports our values, 
promotes our prosperity and enhances our security. The American 
people recognize this and increasingly support humanitarian and 
development assistance, and that need is considerable and great 
in a world that is wracked by natural and humanmade disasters, 
as well as by pervasive poverty that really is a breeding 
ground for those potential disasters and suffering.
    Development assistance, which is geared to long-term 
poverty reduction, may be the most important investment we can 
make. Every dollar invested there helps stave off and remove 
the sources of conflict that can develop in tragic and costly 
disasters down the road.
    In light of this need, we are pleased that the 
administration's request for Foreign Operations does build on 
last year's level of commitment. It established then a higher 
baseline for funding in these areas and that was in large 
measure, of course, due to the work of the subcommittee.
    Still the request for humanitarian development assistance 
and other Foreign Operations accounts this year is essentially 
flat. That is why this year we at InterAction, with our 
members, look forward to working with you and with the 
administration to make the case and build a constituency that 
we need to have to increase all of these levels in the Foreign 
Operations account and the international affairs account more 
broadly, get the money up to where we need to be for 
humanitarian relief and development assistance.
    Money, of course, is only a part of the story. It is 
essential that we also make sure that money is spent in the 
right way and in the right places. Therefore, I want to tell 
you that I came to my position at InterAction only three months 
ago. I am new. But I had spoken to many individuals and very 
definitely many agree that there is need for real improvement 
in the delivery of foreign assistance programming.
    I have heard about obstacles, failures, successes. And I, 
like many, share the perception that there is room for trying 
to make improvements to get the money to where it needs to be. 
I, therefore, hope we at InterAction can work with you and your 
colleagues as closely on the ``how'' of foreign aid, as on the 
``how much'' of foreign aid.
    Finally, I would like to draw your attention to budget 
recommendations that we have made in our testimony. When the 
full budget information is out, I presume next week, we can try 
to provide more detail. But in the meanwhile, let me highlight 
four areas that we have noted as we begin our conversations.
    First, child survival and infectious disease. We welcome 
the requested $50 million increase for this account. Yet, to 
keep pace, we think a good benchmark might be a rate of growth 
of 30 percent.
    Mr. Lewis [presiding]. My apologies.
    Ms. McClymont. That is all right. I was highlighting the 
budget recommendations that we have in our testimony.
    First, for child survival and disease, we do welcome the 
request of $50 million for an increase in that account. Yet to 
keep pace, we believe that the benchmark really should be 
lifted up to perhaps the rate of growth of last year, which was 
about 30 percent, I think, in order to continue these vital 
programs that are in great demand.
    Secondly, the other subaccount we would like to draw 
attention to is development assistance. Although we note that 
there is approximately a 2 percent increase, as we understand 
that from the information we have, this level, too, needs to be 
higher, simply given that these programs are perhaps our most 
important and effective tool for poverty reduction, so that if 
we pay now, perhaps we can avoid paying later.
    Disaster assistance. We welcome the proposed increase over 
last year's baseline, and we do thank the subcommittee for its 
role in bringing forward supplementals last year. Yet, we 
believe the supplemental funding forces very excruciating 
choices and impedes the ability of PVOs to provide assistance 
when it is needed. We would draw your attention to the 
Democratic Republic of the Congo where that circumstance seems 
to be at play.
    Finally, the migration and refugee assistance account, also 
a very pressing need. You have heard others testify and we 
share that position that because of the continuing demand, we 
would urge a level of $800 million for that account, as well as 
$50 million for the emergency refugee migration account.
    So in the end, we very much appreciate the hard choices 
that this subcommittee must make. We are very committed to 
working closely with you to try to build support for this 
budget and for future budgets for those constituencies that we 
need and also to work with you on the ``how'' of foreign aid 
and getting the job done in a better way.
    So thank you very much for your time.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.204
    
    [GRAPHIC] [TIFF OMITTED] T5117A.205
    
    [GRAPHIC] [TIFF OMITTED] T5117A.206
    
    [GRAPHIC] [TIFF OMITTED] T5117A.207
    
    [GRAPHIC] [TIFF OMITTED] T5117A.208
    
    [GRAPHIC] [TIFF OMITTED] T5117A.209
    
    [GRAPHIC] [TIFF OMITTED] T5117A.210
    
    [GRAPHIC] [TIFF OMITTED] T5117A.211
    
    [GRAPHIC] [TIFF OMITTED] T5117A.212
    
    [GRAPHIC] [TIFF OMITTED] T5117A.213
    
    [GRAPHIC] [TIFF OMITTED] T5117A.214
    
    [GRAPHIC] [TIFF OMITTED] T5117A.215
    
    [GRAPHIC] [TIFF OMITTED] T5117A.216
    
    [GRAPHIC] [TIFF OMITTED] T5117A.217
    
    Mr. Kolbe [presiding]. Thank you very much. It is very 
encouraging to hear from an organization that also talks about 
the ``how'' we do the services and I was impressed by the 
statement about the making sure our diplomats are well trained 
and equipped.
    Ms. McClymont. Absolutely.
    Mr. Kolbe. Sometimes we forget that that is an important 
part of delivering these services. Thank you very much.
    Ms. McClymont. Thank you, Mr. Chairman.
    Mr. Kolbe. I appreciate it, Ms. McClymont.
    Mark Kane, Global Fund for Children's Vaccines.
    Mark, welcome.
                              ----------                              

                                         Wednesday, March 28, 2001.

                THE GLOBAL FUND FOR CHILDREN'S VACCINES


                                WITNESS

MARK KANE, CHAIRMAN OF THE BOARD, GLOBAL FUND FOR CHILDREN'S VACCINES
    Mr. Kane. Thank you very much.
    Mr. Chairman, more than 3 million children die each year 
from diseases easily preventable with existing vaccines. Yet, 
more than 30 million children born annually, one in four, do 
not receive any immunizations. This results in the death of 
about 8,000 children every day. This is a terrible tragedy, 
since childhood immunization is the most effective and cost-
effective health intervention that medicine has to offer 
mankind.
    I want to thank this committee for recommending last year 
that $50 million be provided to the Global Fund for Children's 
Vaccines. This was a major step in saving the lives of 
children.
    Challenged by a $750 million donation from the Bill and 
Melinda Gates foundation, the world has been given an 
opportunity to close the gap between children who now have 
access to immunization and those who do not. A public-private 
partnership has been formed over the past 18 months to address 
the increased need for childhood immunizations.
    Leaders from UNICEF, WHO, the World Bank, the 
pharmaceutical industry, governments and the Gates Foundation 
have joined forces to create the Global Alliance for Vaccines 
and Immunization, and the Global Fund for Children's Vaccines 
has been established to quickly channel resources where they 
are most needed.
    Imagine, just 25 years ago only 5 percent of the world's 
children were immunized. By the 1990s, thanks to the boost in 
worldwide donor interest generated by the World Summit for 
Children, immunization rates rose to almost 80 percent. Because 
of this progress, more than 3 million children's lives are 
saved each year. We can double that and we do it in the next 
few years.
    On the other hand, we have seen what happens when there is 
a fall in resources. Immunization rates in many of the poorest 
countries, especially in sub-Saharan Africa, have actually 
decreased over the past 10 years. The world is at risk of 
moving backward on the immunization effort.
    The GAVI/Global Fund alliance is seeking to correct three 
basic gaps: an access gap as I mentioned, 25 percent of the 
children in the world, 30 million children, do not receive any 
vaccines; an equity gap as new life-saving vaccines are 
developed, only children in the richer countries receive them; 
and an investment gap, current market forces do not encourage 
the development of vaccines against diseases most prevalent in 
poorest countries, including pneumonia, diarrhea, HIV/AIDS, 
malaria and tuberculosis.
    The GAVI and Global Fund partnerships are designed to 
strengthen immunization systems and provide new and 
underutilized vaccines in the 74 poorest countries in the 
world. In a recent interview, Dr. William Foege, previous head 
of the Centers for Disease Control and the Carter Center said, 
``I don't think I'm overstating it to say that this could be 
the most important thing that has happened in global health, at 
least in my lifetime.''
    Mr. Chairman, only improved delivery of existing vaccines 
now will develop the infrastructure for rapid delivery of 
future vaccines against HIV, malaria and tuberculosis.
    Over the past year, the GAVI partners have received and 
processed proposals to strengthen immunization programs in 47 
of the 74 poorest countries. We have committed $375 million in 
vaccines and financial grants to 25 developing country 
immunization programs. This has the potential of saving an 
additional 1 million children over the next five years. And we 
have introduced the concept of outcome-based grants; if results 
are not shown, the funding stops.
    GAVI and the Global Fund will succeed because of support 
for programs on the ground in the poorest countries and because 
of our shift to a performance-based model for funding. No money 
or vaccine flows to countries until GAVI has seen a 
comprehensive 5-year immunization plan which is approved by an 
interagency coordinating committee composed of the government 
and the major partners in development in that country. Further 
funding depends on evidence of progress in protecting 
additional children.
    The $50 million recommended by Congress last year for a 
contribution to the Global Fund for Children's Vaccines, as 
part of the fiscal year 2001 Foreign Operations appropriations 
bill, will help stimulate other countries and private 
donations. Major contributions to the Global Fund have already 
been received from Norway, the United Kingdom and The 
Netherlands.
    Mr. Chairman, when Bill Gates was asked why he gave $750 
million to establish the Global Fund, he responded, ``Melinda 
and I are committed to ensuring that every child has access to 
lifesaving vaccines in the next millennium, regardless of where 
they live.'' I urge you to also feel this commitment.
    If we are, in fact, going to meet these goals, we need 
continued and increased support from the United States. I hope 
that this committee will be able to recommend a level of 
funding for next year that far exceeds the $50 million provided 
last year. Vaccines are our most powerful tool in the child 
survival revolution, and the unprecedented public-private 
sector partnership that has been created can fulfill the 
promises made a decade ago; it can close the gap between 
immunized and nonimmunized children, and can bring about a 
better life for millions of children around the world.
    Thank you very much, Mr. Chairman.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.218
    
    [GRAPHIC] [TIFF OMITTED] T5117A.219
    
    [GRAPHIC] [TIFF OMITTED] T5117A.220
    
    [GRAPHIC] [TIFF OMITTED] T5117A.221
    
    [GRAPHIC] [TIFF OMITTED] T5117A.222
    
    [GRAPHIC] [TIFF OMITTED] T5117A.223
    
    Mr. Kolbe. Thank you very much. And I agree, there are few 
programs I can think of that could make such a difference in 
the world than what you are doing in children's vaccinations.
    Thank you very much.
    Mr. Kane. Thank you very much.
    Mr. Kolbe. Mr. Robert Black, Global Health Council.
                              ----------                             

                                         Wednesday, March 28, 2001.

                         GLOBAL HEALTH COUNCIL


                                WITNESS

ROBERT BLACK, MEMBER OF THE BOARD OF DIRECTORS, GLOBAL HEALTH COUNCIL
    Mr. Black. Mr. Chairman, Congresswoman Lowey, and members 
of the subcommittee, I thank you for the opportunity to provide 
this testimony. I am here on behalf of the Global Health 
Council, as a member of their board of directors.
    The Global Health Council is the United States largest 
membership organization and alliance of health professionals 
and organizations dedicated to improving the health around the 
world. On behalf of the Global Health Council's thousands of 
members, I commend your committee for the attention it has 
historically paid to the health needs of children and families 
in developing countries.
    This new Congress and new administration can provide an 
opportunity for new leadership, and it is very important that 
this leadership be directed to the long-term dividends for the 
American people that can come from this funding, as well as for 
the people in developing countries. The investment in health 
can make an enormous difference in the lives of billions of 
people for a very small investment.
    Never before have we seen so starkly the inter-relationship 
between the health of the poor of the world and the well-being 
of our own citizens. Every week we hear news about the reports 
of disease outbreaks and the exchange of people and goods 
around the world.
    This globalization, as we know, is a double-edged sword. 
The National Intelligence Council warns us about the threat to 
national security caused by infectious diseases, especially 
AIDS. The Council on Foreign Relations highlights global health 
as an emerging new dimension to the foreign policy interests of 
the United States. And the upcoming United Nations Special 
Session on Children, following the special session 10 years 
ago, highlights the fact that, despite remarkable progress in 
very difficult circumstances, far too many children in 
developing countries still die needlessly of causes we know how 
to prevent and know how to treat.
    Your committee is at the very center of this country's 
capacity to act wisely and effectively. While we spend more 
than $4,000 a year on domestic health for every man, woman and 
child in this country, we invest just $5 for each American in 
protecting health beyond our borders, and this is despite our 
knowledge that AIDS, tuberculosis and diseases that affect our 
citizens often have a very strong link with problems abroad.
    So as public health professionals, we know that essential 
health services are a realistic possibility for those at high 
risk around the world and not at a very expensive cost, as in 
this country, but at a remarkably low $20 per person per year.
    Of course, this Congress is dealing with many pressures, 
for cutting taxes, for holding the line on spending. But let me 
clear what I am talking about.
    Currently, this country invests just over one-half of one-
tenth of 1 percent of our total federal budget in global 
health. And this part of our budget directly affects the lives 
of 2 billion people around the world. Where else can the 
American people get such a broad benefit for this investment?
    The Global Health Council and our wide alliance of members 
call on this committee to increase our investment in this 
critical area by $1 billion in fiscal year 2002, bringing the 
portion of our national budget dedicated to this cause up to 
just one-tenth of 1 percent. We ask that you appropriate this 
money toward the most essential aspects of health around the 
world, improving child health and nutrition, reducing the risk, 
spread and consequences of HIV and other major infectious 
diseases, and improving women's health by reducing unintended 
pregnancies and helping to assure that all pregnancies are safe 
and healthy.
    These fundamental health priorities are captured in the 
Global Health Act of 2001, introduced today in the House by 
Representatives Joe Crowley and Connie Morella, and to be 
introduced into the Senate by Senators Patrick Leahy and Jim 
Jeffords, along with more than 52 members of Congress and with 
the support of more than 153 nongovernmental organizations and 
public charities.
    This list is growing daily, and we have provided with our 
written materials the list of the organizations supporting the 
Global Health Act. These investments would complement, and 
would be complemented by, investments in basic education and in 
poverty reduction.
    Last year, Congress appropriated just over $1.3 billion for 
these critical global health issues. Congress's funding 
increases for HIV/AIDS and infectious disease in last year were 
wide and welcome. Yet among health programs which did not see 
increases last year, we recognize those that directly affect 
the health and survival of children and also of women who 
should have the opportunity to go through pregnancy without 
endangering their lives or the lives of their children.
    Just to finish, we have the specific request in our written 
materials as far as the particular funding levels that we would 
humbly suggest and request you would consider.
    We want to stress one thing, I will just say it in closing, 
that this is not a request to shift funding from one part of 
our global health budget to another or from any other priority 
area. This is a request very directly to increase the funding 
for these very critical areas by $1 million.
    I know that you will take this seriously, and I know you 
have very many difficult decisions, but I thank you very much 
for the opportunity to testify before you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.224
    
    [GRAPHIC] [TIFF OMITTED] T5117A.225
    
    [GRAPHIC] [TIFF OMITTED] T5117A.226
    
    [GRAPHIC] [TIFF OMITTED] T5117A.227
    
    [GRAPHIC] [TIFF OMITTED] T5117A.228
    
    [GRAPHIC] [TIFF OMITTED] T5117A.229
    
    [GRAPHIC] [TIFF OMITTED] T5117A.230
    
    [GRAPHIC] [TIFF OMITTED] T5117A.231
    
    [GRAPHIC] [TIFF OMITTED] T5117A.232
    
    [GRAPHIC] [TIFF OMITTED] T5117A.233
    
    [GRAPHIC] [TIFF OMITTED] T5117A.234
    
    [GRAPHIC] [TIFF OMITTED] T5117A.235
    
    Mr. Kolbe. Thank you very much, Mr. Black.
    Let me just say, since we are hearing a number of health 
organizations testify about global health, while I agree, 
certainly, about the need to do this and to make a larger 
commitment, there also has to be something at the other end to 
receive it. And if you have a government that is engaged in 
widespread corruption and plutocracy, then there is nothing 
there to deliver the system to the people, and you are not 
using the money effectively. And I think we need to consider 
that too, as we consider where we put these programs.
    Mr. Black. I fully agree, sir.
    Mr. Kolbe. Thank you very much, Mr. Black.
    We have been joined by Ms. Pelosi. Thank you very much, Ms. 
Pelosi, for joining us, and Mr. Knollenberg.
    He is hiding right behind me here. Thank you very much.
    Well, let me call the next person and I will be back 
shortly here. The next person we are going to hear from is Mr. 
Phil Hopewell, the International Union against TB and Lung 
Disease.
                              ----------                              

                                         Wednesday, March 28, 2001.

       INTERNATIONAL UNION AGAINST TUBERCULOSIS AND LUNG DISEASE


                                WITNESS

DR. PHILIP C. HOPEWELL
    Mr. Hopewell. Thank you very much, Mr. Kolbe.
    Mr. Kolbe. Thank you.
    Mr. Hopewell. My name is Phil Hopewell. I am the director 
of the Francis Curry National Tuberculosis Center in San 
Francisco and associate dean of the School of Medicine, 
University of California, San Francisco.
    As you indicated, I am here today representing the 
International Union Against Tuberculosis and Lung Disease, a 
mouthful of an organization that I will refer to as the 
``union'' from here on.
    My mission today is really threefold. First, I would like 
to thank the subcommittee for its ongoing support for 
international tuberculosis control activities.
    Second, I would like to report on what I view as truly 
groundbreaking tuberculosis control efforts that are under way, 
having been catalyzed by USAID efforts on tuberculosis control 
globally.
    And third, to encourage the subcommittee to continue its 
important work that you have started with the funding that has 
been provided through the current fiscal year, by providing 
additional funding in line with what we estimate the needs to 
be in next fiscal year's budget.
    The consistent support of this subcommittee, combined with 
a growing awareness of the magnitude and economic impact of 
tuberculosis, has led to a strong commitment to tuberculosis 
control activities at USAID. I am pleased to report that USAID 
is now playing a leadership role in developing strong 
tuberculosis control programs globally. I firmly believe that 
USAID's attitude is a direct result of the foresight and 
leadership provided by this subcommittee.
    Of considerable importance, USAID is now a major 
stakeholder in a coordinated global framework for tuberculosis 
control. The funding provided by USAID is serving to leverage 
additional funding from governments and, perhaps more 
importantly, from a number of private sources that support 
global tuberculosis control efforts.
    Governments and private foundations have assumed 
responsibility for many aspects, but it is USAID who is really 
providing the leadership to ensure that each element of the 
plan is executed in a coordinated and efficient way.
    I am pleased to report that USAID has used a significant 
portion of the $60 million in the current fiscal year to 
provide crucial diagnostic and treatment services for patients 
in countries having a high instance of tuberculosis. However, 
more funding is needed to expand these programs. Today, only 
one in five patients with tuberculosis has access to effective 
treatment services.
    One of the elements in this coordinated global plan that I 
have mentioned is a global drug facility. To control 
tuberculosis, it is crucial that there be a consistent supplyof 
high-quality tuberculosis drugs, and I am quite pleased to report that 
a global drug facility has been created to provide access to TB drugs 
for countries that are committed to conducting effective tuberculosis-
control programs. Major funding for this has come from Canada, as an 
example of the, sort of, leverage that the USAID funding has had and 
coordinated efforts that are being conducted by a number of 
governments.
    Recently, the Institute of Medicine, here in the United 
States, published a report on the elimination of tuberculosis 
in the United States. This report emphasizes the need for 
increased efforts internationally in order to control 
tuberculosis domestically. The union endorses the Institute of 
Medicine report and its recommendations.
    Representatives Brown, Morella, Waxman and Ganske have 
introduced two bills, one for domestic and one for 
international tuberculosis control, that are based on the 
Institute of Medicine recommendations. We estimate that it will 
cost in the neighborhood of $200 million for the USAID 
component of these recommendations to be implemented.
    I would encourage the subcommittee to review this TB 
proposed Senate legislation and to provide NIH, CDC and USAID, 
the major federal agencies responsible for tuberculosis control 
and research related to new tools related to tuberculosis, and 
to provide them with the resources needed to address TB in the 
U.S. and around the world.
    Mr. Chairman, as I said, the subcommittee has initiated 
important programs to control tuberculosis internationally, but 
the work has only just begun. In your deliberations, I would 
ask that you consider the following.
    First, 42 percent of the United States tuberculosis cases 
occur in foreign-born individuals. Clearly, the United States 
will not control tuberculosis domestically until the global 
tuberculosis problem is addressed.
    Of greater importance, however, is that, globally, each 
year, at least in the past decade, approximately 2 million 
people have died of tuberculosis, and it is estimated that 8 
million new cases of tuberculosis, 8 million people, will 
develop tuberculosis in this year.
    Because tuberculosis affects people in their most 
productive years, this disease causes a major impediment to 
economic development globally. TB creates more orphan children 
than any other infectious disease. It is the leading killer of 
HIV-positive individuals, causing over 30 percent of AIDS 
deaths. And as the number of tuberculosis cases has increased 
globally, the multidrug-resistant strain of the disease has 
emerged that poses a major threat----
    Mr. Knollenberg [presiding]. Mr. Hopewell, let me just 
interrupt for a moment. You are at the conclusion?
    Mr. Hopewell. Yes.
    Mr. Knollenberg. Great. Thank you.
    Mr. Hopewell. These statistics provide compelling rationale 
for the subcommittee to continue its support of international 
TB control by providing $200 million for USAID for TB control 
in fiscal year 2002. On behalf of the union, I would like to 
thank the subcommittee for its leadership. I would be happy to 
answer any questions that you might have.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.236
    
    [GRAPHIC] [TIFF OMITTED] T5117A.237
    
    [GRAPHIC] [TIFF OMITTED] T5117A.238
    
    [GRAPHIC] [TIFF OMITTED] T5117A.239
    
    [GRAPHIC] [TIFF OMITTED] T5117A.240
    
    [GRAPHIC] [TIFF OMITTED] T5117A.241
    
    [GRAPHIC] [TIFF OMITTED] T5117A.242
    
    Mr. Knollenberg. Thank you for your testimony, and the 
entirety of that will be included in the record of course.
    Any questions?
    Ms. Pelosi. Mr. Chairman, if I may join you in----
    Mr. Knollenberg. Ms. Pelosi?
    Ms. Pelosi. Thank you, Mr. Chairman.
    Join you in welcoming Dr. Hopewell to the committee. Friday 
was World Tuberculosis Day, and I was, in my community, 
received an honor for $60 million. I accepted the award on 
behalf of this committee, because working with Mr. Callahan and 
you and others on the committee, we were able to get the figure 
up that high.
    It is all we could have done because of the authorization; 
we were limited in that case to the authorization level. But it 
is not in any reflection of the need, which is, as Dr. Hopewell 
says, $200 million.
    By the nature of the way tuberculosis is spread so 
casually, and the rest, it is in all of our interests to stop 
it internationally, as well as domestically, because we will 
not stop it domestically unless we do so internationally.
    So I thank you for your good work, Dr. Hopewell----
    Mr. Knollenberg. Thank you.
    Ms. Pelosi [continuing]. And for taking the time to come 
all the way to Washington.
    Mr. Knollenberg. I just want to mention, too--thank you, 
Ms. Pelosi--you mentioned here that TB is the leading killer of 
women around the world, which I did not know. It is a signal of 
something disturbing.
    So thank you very much.
    Mr. Hopewell. Thank you.
    Mr. Knollenberg. The next individual is Mr. Robert Edelman, 
and he is from the American Society of Tropical Medicine and 
Hygiene.
                              ----------                             

                                         Wednesday, March 28, 2001.

           AMERICAN SOCIETY OF TROPICAL MEDICINE AND HYGIENE


                                WITNESS

DR. ROBERT EDELMAN
    Mr. Edelman. Thank you, Mr. Chairman.
    Mr. Knollenberg. We welcome you, Mr. Edelman. Your entire 
testimony will be included in the record. Thank you.
    Mr. Edelman. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to testify. My name is Robert 
Edelman. I am professor of medicine and pediatrics at the 
University of Maryland School of Medicine. I am here on behalf 
of the American Society for Tropical Medicine and Hygiene, as 
you just heard.
    The society is a professional organization of some 3,500 
researchers and practitioners dedicated to the treatment and 
prevention of tropical diseases, and we appreciate this 
opportunity to testify before you.
    The society thanks the members of this committee for the 
previous support for programs to combat tropical and infectious 
disease administered by the U.S. Agency for International 
Development. Your support for these medical programs has 
resulted in some remarkable progress.
    The world health experts estimate that USAID's child 
survival programs have helped drop infant mortality rates in 
the developing world to their lowest levels ever. There is a 
long way to go.
    Since 1985, the programs have helped to save over 25 
million children. The child survival programs include critical 
activities to prevent and treat infectious diseases in 
developing nations. The activities improve vector control, 
enhance public health infrastructure through training programs 
and technical assistance, provide immunizations, oral 
rehydration therapy, Vitamin A supplementation, and AIDS 
prevention and treatments.
    USAID's child survival programs are at the forefront of 
international efforts to alleviate morbidity and mortality 
among children under 5. These children represent the world's 
most vulnerable population.
    The society also thanks the committee for support in the 
current fiscal year for programs and initiatives to encourage 
research and development of vaccines and drugs to combat 
malaria, tuberculosis, AIDS and other infectious diseases. 
These diseases cause enormous suffering and millions of deaths 
annually.
    Your support has helped to ensure that vaccines and drugs 
are accessible to populations in developing countries. Your 
efforts are critical to enhance partnerships between federal 
agencies, industry, nonprofit organizations, the World Bank and 
other international organizations.
    Your support for the international AIDS vaccine initiative 
and AIDS trust fund, administered by the World Bank, will help 
advance the prospects for successful AIDS vaccines and 
therapies.
    Now, I am a member of the Center for Vaccine Development at 
the University of Maryland, and I would just like to share with 
you the fact that we are testing many vaccines to combat 
infectious scourges of children in developing countries. Our 
research is made possible through support of the federal 
government, such as yourselves, industry and private 
foundations.
    Examples of the center's efforts include clinical testing 
of experiment dengue virus vaccines for prevention of dengue 
fever and lethal dengue hemorrhagic fever. Dengue sickens 
millions of children in tropical countries every year.
    The center is also developing improved orally administered 
vaccines to prevent cholera, typhoid fever and lethal forms of 
dysentery in infants and children. Our center recently received 
a $20 million grant from the Bill and Melinda Gates foundation 
to develop an improved vaccine against early infancy measles. 
This improved measles vaccine would be used overseas, 
particularly in Africa, where the current licensed measles 
vaccine is poorly protective.
    The society requests your continued support for 
international organizations, such as UNICEF and the Global 
Alliance for Vaccines and Immunization, or GAVI; I see on your 
program, it had earlier testimony. These organizations purchase 
and distribute vaccines and drugs in developing countries.
    Control of global infectious disease threats is not just a 
development issue, it is also a national security issue for the 
United States and a health concern for every American. By 
helping others, we are also launching a strong defense to 
protect the health of our nation.
    We urge the subcommittee to provide the highest possible 
funding level for the USAID child survival programs, to help 
promote economic and social development in some of the poorest 
countries of the world.
    And we also applaud the committee's 2001 support to 
establish coordinated centers by USAID for centers of 
excellence in malaria research. We seek additional funds for 
this effort and stand ready to work with the committee to 
facilitate these and other malaria prevention and control 
activities.
    Thank you, really, for the opportunity to present to you, 
on behalf of the American Society of Tropical Medicine and 
Hygiene, and thank you for consideration of its request.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.243
    
    [GRAPHIC] [TIFF OMITTED] T5117A.244
    
    [GRAPHIC] [TIFF OMITTED] T5117A.245
    
    [GRAPHIC] [TIFF OMITTED] T5117A.246
    
    [GRAPHIC] [TIFF OMITTED] T5117A.247
    
    [GRAPHIC] [TIFF OMITTED] T5117A.248
    
    [GRAPHIC] [TIFF OMITTED] T5117A.249
    
    [GRAPHIC] [TIFF OMITTED] T5117A.250
    
    Mr. Knollenberg. Thank you. Thank you very much.
    Next on the list is, I presume this is, Mr. C. Payne Lucas. 
Do I have it right?
    Mr. Lucas. Yes, sir.
    Mr. Knollenberg. And, Mr. Lucas, you are with Africare. We 
acknowledge your coming forward to make your presentation. All 
of it will be included in the record.
                              ----------                              

                                         Wednesday, March 28, 2001.

                                AFRICARE


                                WITNESS

C. PAYNE LUCAS
    Mr. Lucas. Thank you, Mr. Chairman. I will try to keep my 
remarks to five minutes.
    Mr. Knollenberg. That is great. We appreciate that.
    Mr. Lucas. I am the president of Africare, but I am here 
today representing UNDP. Normally, I would be represented with 
Africare, but the role of UNDP is so important that we are 
trying to establish our own U.S. committee on UNDP, so that we 
can, in the long run, get the same kind of support from the 
Congress and other places that UNICEF gets.
    For Africa, this is the best of time and the worst of time. 
The best of time in the sense that there are more democratic 
governments in Africa than any other place in the world. And it 
is all new for us, which America should feel proud of.
    The worst of times is that Africa is dying. It is as simple 
as that. When Dick Gephardt and Congressman Allen were in 
Africa last year, what they saw of HIV/AIDS was worse than what 
happened in Nazi Germany.
    Everybody talks about this thing is so massive and the 
people do not even want to talk about it. Even in our churches 
at home they do not want to talk about it. But this is a 
serious problem for all of us.
    Here we talk about an energy crisis, and on the rigs of 
Chevron and Exxon and other places, Africans are dying. There 
is not going to be anybody to run those rigs. The governments 
in Africa are already stretched; their resources are already 
stretched.
    And the one organization that makes a difference in pulling 
all of these donors together is UNDP. It is the one 
organization that has that respect.
    Last year, year before last, you gave UNDP $87 million. And 
now we are asking this year for $110-$120 million, and their 
work has almost doubled. It has almost doubled.
    And the Congress asked UNDP to become more efficient. It 
has become more efficient. It has let lots of people go. It has 
a new UNDP director. So for something that we can feel proud 
of, they have responded to your marching orders.
    And given all the things that Africa faces now, it would be 
difficult for us to say we cannot give UNDP any more money. And 
with few exceptions, I think in the international community, in 
the NGO community, in the African community, you will find less 
criticism of this agency than anyone else, because they do not 
engage in jurisdictional dispute: ``Who is responsible for 
this?'' When there are problems in the African governments, 
they turn to this agency with these competent international 
civil servants to help them solve their problem.
    This is a situation that is desperate, and I hope you will 
give full opportunity for this budget request. Thank you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.251
    
    [GRAPHIC] [TIFF OMITTED] T5117A.252
    
    [GRAPHIC] [TIFF OMITTED] T5117A.253
    
    [GRAPHIC] [TIFF OMITTED] T5117A.254
    
    [GRAPHIC] [TIFF OMITTED] T5117A.255
    
    [GRAPHIC] [TIFF OMITTED] T5117A.256
    
    [GRAPHIC] [TIFF OMITTED] T5117A.257
    
    [GRAPHIC] [TIFF OMITTED] T5117A.258
    
    [GRAPHIC] [TIFF OMITTED] T5117A.259
    
    [GRAPHIC] [TIFF OMITTED] T5117A.260
    
    [GRAPHIC] [TIFF OMITTED] T5117A.261
    
    [GRAPHIC] [TIFF OMITTED] T5117A.262
    
    [GRAPHIC] [TIFF OMITTED] T5117A.263
    
    Mr. Knollenberg. Thanks for condensing your remarks.
    Any member have----
    Mr. Lewis. Mr. Knollenberg, only to mention that it is my 
understanding that Speaker Hastert will be visiting Africa 
within the month.
    Mr. Lucas. Well, if he visits Africa, you tell him Mr. 
Lucas is prepared to go with him. [Laughter.]
    Mr. Lewis. That is above my pay grade, but between now and 
then the important thing is that the speaker is going.
    Mr. Lucas. And we have to get the leadership from America. 
The resources are there. Africa is still turning toward America 
for help. And for this, even though the last administration did 
a lot, the real response to what we care about Africa, 
including the trade bill and everything else, none of us can go 
much longer without getting on top of this problem, because the 
place is dying.
    Mr. Lewis. I guess the point that I would make is that the 
map is different than the territory. To have the speaker 
traveling to Africa to see firsthand the challenges you are 
talking about is a pretty important development.
    Mr. Knollenberg. We next look to, it is the Constituency 
for Africa, represented here today by Lauri J. Fitz-Pegado.
    Ms. Fitz-Pegado. Yes, sir.
    Mr. Knollenberg. Ms. Fitz-Pegado, you are entitled to 
begin, and your entire testimony, written or otherwise, will be 
included in the record.
    Ms. Fitz-Pegado. Thank you very much, sir.
    Mr. Knollenberg. You are welcome.
                              ----------                              

                                         Wednesday, March 28, 2001.

                        CONSTITUENCY FOR AFRICA


                                WITNESS

LAURI J. FITZ-PEGADO
    Ms. Fitz-Pegado. It is a pleasure to be here today. Thank 
you for the opportunity to come before you.
    My name is Lauri Fitz-Pegado. I am a board member of the 
Constituency for Africa. And I am here on behalf of the 
Honorable Ron Dellums, the chairman of the CFA, and the 
Honorable Jack Kemp, the vice-chairman of the Constituency for 
Africa.
    CFA is a nonpartisan, 10-year-old coalition of 
organizations, groups and individuals concerned with the 
economic development and welfare of Africa and African peoples, 
working to educate Americans about critical issues affecting 
Africa and to encourage a strong public and public partnership 
to address issues of concern to the continent.
    Following is a summary of Mr. Dellums and Mr. Kemp's 
statement.
    We are charged with the monumental task for persuading you 
to steer the political might and moral authority of the 
Congress of the U.S. toward the execution of a proactive United 
States policy toward Africa. We ask for your unequivocal 
assistance in providing funding that is critical to pursuing a 
results-oriented strategy toward an effective U.S.-Africa 
foreign policy agenda.
    With the support of organizations like CFA, several 
important initiatives were launched with strong and 
unprecedented bipartisan support in the Congress. These 
initiatives addressed Africa trade, the HIV/AIDS pandemic, debt 
relief and conflict resolutions. U.S. policymakers must 
continue to focus on a more balanced strategy that deals with 
both the continent and the means of implementing any policy 
toward Africa.
    While the historical passage of the Africa Growth and 
Opportunity Act, the AIDS Marshall Plan Trust Fund, and 
measures to address Africa's debt load have emerged as a result 
of U.S. policy toward Africa, federal funding is needed to 
ensure the programmatic efforts that have been authorized in 
these measures are successfully implemented.
    Consider, for example, that $150 million in funding was 
authorized last year for the Global AIDS and Tuberculosis Act. 
To date, less than $30 million has been appropriated. For 
fiscal year 2002, we ask that $130 million be provided to the 
U.S. Agency for International Development to support the 
implementation of this act.
    Moreover, we ask that the committee include funding and 
language in the report that will assist and allow not-for-
profit organizations, such as CFA, to strengthen and expand 
their efforts as they relate to Africa.
    In particular, in fiscal year 2002, CFA asks that $2 
million be provided by the committee to support the 
establishment of a clearinghouse and technical assistance 
resource center.
    CFA has worked diligently and effectively to bring greater 
attention and resources to the continent of Africa. We have 
never received any federal funding. The funding requested would 
assist us and the nation in providing critical outreach 
programs and related technical assistance services.
    Clearly, the unfolding HIV/AIDS pandemic will reshape 
Africa and largely influence U.S. policy toward the continent. 
The latest figures from UNAIDS are that 58 million people 
worldwide have now been infected with the AIDS virus, 42 
million of them from sub-Saharan Africa. Of the 58 million, 22 
million have died already, 17 million in Africa.
    Africa is now the home to more than 13 million AIDS 
orphans, with that number expected to rise to more than 40 
million by 2010.
    As tragic as these numbers are, we strongly believe that if 
the United States and resource-rich Western countries do not 
take some decisive action and the necessary measures to address 
those already infected by HIV/AIDS and to contain future 
infections in Africa, this epicenter will surely widen and 
shift to include untold millions living in Russia, Eastern 
Europe, India, China, Latin America, the Caribbean and the 
United States.
    If ever there was a national and world security threat on 
our horizon, this is it. For these reasons, U.S. 
nationalinterests in combating HIV/AIDS in Africa on moral, 
humanitarian, economic and transnational security grounds will 
increasingly be understood on global terms.
    We also would encourage the Congress to move simply to 
build on the promise of the recently passed African Growth and 
Opportunity Act. CFA supported the passage of this 
groundbreaking legislation, which enjoyed tremendous bipartisan 
support.
    As a former assistant secretary in the International Trade 
Agency of the Department of Commerce, I understand and support 
the importance of trade to creating economic development, 
sustainable work forces and growth.
    While the AGOA bill addresses issues and concerns of 
tariffs and market access for African goods sold in the U.S., 
perhaps the most important aspect of the AGOA bill is that it 
encourages American entrepreneurs and companies to look to 
Africa as a place where we can encourage trade, business 
development and economic growth.
    U.S. trade with Africa is greater than with the former 
Soviet Union countries combined. U.S. exports to Africa total 
more than $6 billion and generate employment for some 130,000 
American workers. Critical imports from Africa, such as 68 
percent of our imported oil, are substantial and increasing.
    American companies going to Africa can indeed both do well 
and do good. The countries of Africa have a wealth of 
undeveloped human and natural resources that offer tremendous 
potential for the growth and sustainability of the continent.
    To the distinguished members of this committee, in the 
words of CFA chairman, Ron Dellums, ``We must dig deep, let our 
moral compass point the way, and use our self-interest for 
motivation to address the challenges facing America and Africa 
as we move forward into the 21st century.''
    I thank you for your time and hope that you will consider 
these requests.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.264
    
    [GRAPHIC] [TIFF OMITTED] T5117A.265
    
    [GRAPHIC] [TIFF OMITTED] T5117A.266
    
    [GRAPHIC] [TIFF OMITTED] T5117A.267
    
    [GRAPHIC] [TIFF OMITTED] T5117A.268
    
    [GRAPHIC] [TIFF OMITTED] T5117A.269
    
    [GRAPHIC] [TIFF OMITTED] T5117A.270
    
    [GRAPHIC] [TIFF OMITTED] T5117A.271
    
    [GRAPHIC] [TIFF OMITTED] T5117A.272
    
    [GRAPHIC] [TIFF OMITTED] T5117A.273
    
    [GRAPHIC] [TIFF OMITTED] T5117A.274
    
    [GRAPHIC] [TIFF OMITTED] T5117A.275
    
    [GRAPHIC] [TIFF OMITTED] T5117A.276
    
    [GRAPHIC] [TIFF OMITTED] T5117A.277
    
    [GRAPHIC] [TIFF OMITTED] T5117A.278
    
    [GRAPHIC] [TIFF OMITTED] T5117A.279
    
    [GRAPHIC] [TIFF OMITTED] T5117A.280
    
    [GRAPHIC] [TIFF OMITTED] T5117A.281
    
    [GRAPHIC] [TIFF OMITTED] T5117A.282
    
    [GRAPHIC] [TIFF OMITTED] T5117A.283
    
    [GRAPHIC] [TIFF OMITTED] T5117A.284
    
    [GRAPHIC] [TIFF OMITTED] T5117A.285
    
    [GRAPHIC] [TIFF OMITTED] T5117A.286
    
    [GRAPHIC] [TIFF OMITTED] T5117A.287
    
    [GRAPHIC] [TIFF OMITTED] T5117A.288
    
    [GRAPHIC] [TIFF OMITTED] T5117A.289
    
    [GRAPHIC] [TIFF OMITTED] T5117A.290
    
    [GRAPHIC] [TIFF OMITTED] T5117A.291
    
    [GRAPHIC] [TIFF OMITTED] T5117A.292
    
    Mr. Knollenberg. We thank you for your testimony. We know 
it is a little tough to get everything in----
    Ms. Fitz-Pegado. In five minutes. I tried.
    Mr. Knollenberg. You did a good job and we appreciate that.
    And does any member of the subcommittee have a question 
for----
    Mr. Lewis. Would you please communicate to your chairman 
that it has been a long time since he has visited the Health 
Committee and I have been looking to see him?
    Ms. Fitz-Pegado. All right.
    Mr. Lewis. It is his friend Jerry Lewis asking him.
    Ms. Fitz-Pegado. All right. I will.
    Mr. Lewis. I know he is very busy these days.
    Ms. Fitz-Pegado. All right. Thank you. I will convey that. 
Thank you very much.
    Mr. Knollenberg. Thank you very much, Ms. Fitz-Pegado.
    Now we have Madeline Wake with Marquette University. And we 
welcome you. The subcommittee is interested in your testimony, 
what your request might be. And everything that you have in 
your testimony will be included in the record.
                              ----------                             

                                         Wednesday, March 28, 2001.

                          MARQUETTE UNIVERSITY


                                WITNESS

MADELINE WAKE
    Ms. Wake. Mr. Chairman and members of the subcommittee, I 
am Madeline Wake, dean of the College of Nursing at Marquette 
University in Milwaukee, Wisconsin. Thank you for the 
opportunity to appear before your committee, and I ask that my 
complete testimony be included in the record.
    Mr. Knollenberg. So ordered.
    Ms. Wake. I see the list of the people that you are seeing 
today, and I will try to keep my remarks brief but hit the key 
points.
    You are aware, and I have heard the couple of testimonies, 
you are very aware of the magnitude of the AIDS crisis. Over 20 
million Africans are affected today with HIV/AIDS. You are 
aware that USAID has taken a leadership role in the world in 
the response to AIDS, investing over $800 million to date. The 
AIDS epidemic demands that we use the full spectrum of short-
and long-term strategies.
    The purpose of my testimony today is to alert you to an 
underutilized resource for fighting AIDS and to ask you to help 
us in tapping into that resource. The resource of focus is 
nursing. I ask you to direct a portion of USAID funding for 
capacity-building of the nursing work force in sub-Saharan 
Africa.
    Efforts in mass communication, in medical care and in 
pharmaceuticals are important. However, these alone will not 
adequately address the problem. These will not 
adequatelyaddress the devastation of AIDS. For example, without 
diligent follow-up, ineffective use of discounted or even free drugs 
could produce drug-resistant strains of the virus.
    There is a need to build a sustainable work force of health 
professionals who can mobilize their communities and build 
health-system infrastructure. Advanced HIV/AIDS nurse training 
would tap and empower a vital resource.
    Nurses are the largest group of health professionals, close 
to the people, trusted members of their communities. They could 
offer care for persons with AIDS, which makes prevention 
efforts credible. They could begin to cut through the fear and 
the stigma, these barriers to testing, to lifestyle changes.
    The training for these nurses needs to build on their 
preparation and be culturally appropriate. It must contain 
effective as well as cognitive elements. It must include 
caregiver support, burnout prevention and mechanisms for 
continuous learning. The field of AIDS is so dynamic.
    I believe that nurse training can bring hope and the 
capacity to build the future in Africa. I thank you for your 
time, and I would entertain any questions.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.293
    
    [GRAPHIC] [TIFF OMITTED] T5117A.294
    
    [GRAPHIC] [TIFF OMITTED] T5117A.295
    
    [GRAPHIC] [TIFF OMITTED] T5117A.296
    
    [GRAPHIC] [TIFF OMITTED] T5117A.297
    
    [GRAPHIC] [TIFF OMITTED] T5117A.298
    
    [GRAPHIC] [TIFF OMITTED] T5117A.299
    
    [GRAPHIC] [TIFF OMITTED] T5117A.300
    
    [GRAPHIC] [TIFF OMITTED] T5117A.301
    
    [GRAPHIC] [TIFF OMITTED] T5117A.302
    
    [GRAPHIC] [TIFF OMITTED] T5117A.303
    
    [GRAPHIC] [TIFF OMITTED] T5117A.304
    
    [GRAPHIC] [TIFF OMITTED] T5117A.305
    
    Mr. Knollenberg. Well, thank you very much, Ms. Wake. To 
undertake training of nurses for the purpose of dealing with 
AIDS in an environment and a culture that is altogether 
different than what they may be used to would be a substantial 
step. But it is a big step. You have to take into consideration 
a variety of factors for administering any kind of successful 
program.
    Ms. Wake. That is correct. And this would mean that a 
program would have to have partners in the area and would have 
to include locals. And it would have to be, in fact, a local 
program, not something that we would simply bring an American 
solution to a problem in Africa.
    Mr. Knollenberg. Have you consulted with Father 
D'Augustino?
    Ms. Wake. I know Father D'Augustino. And I have also 
consulted with the East African Province of the Jesuits. I am 
from Marquette University. The Wisconsin Province is partnered 
with the East African Province, and we have very full support 
of the East African Province to move ahead with this.
    Mr. Knollenberg. Very good.
    Any other member want to----
    Ms. Wake. Thank you. Thank you very much.
    Mr. Knollenberg. Thank you very much. Appreciate your 
testimony.
    Next in line would be the Nature Conservancy, which is 
represented today by Alexander Watson, who is former assistant 
secretary of state.
                              ----------                             

                                         Wednesday, March 28, 2001.

                         THE NATURE CONSERVANCY


                                WITNESS

ALEXANDER F. WATSON
    Mr. Watson. Thank you very much.
    Mr. Knollenberg. All of your testimony will be put into the 
record, and appreciate you being here.
    Mr. Watson. Thank you very much, sir. It is a great honor 
and pleasure to appear before this subcommittee to testify 
about the international conservation work of the Nature 
Conservancy.
    I will make my oral remarks even briefer than my already 
brief written remarks, which thank you very much for having 
submitted into the record.
    The conservancy protects the plants and animals that make 
up the natural world, primarily through protection of their 
habitat. In our international work, we stress raising the 
effective level of protection in parks and nature preserves by 
working with and strengthening local, private, nonprofit 
organizations, by strengthening civil society, as well as 
governments.
    Our conservation programs in the U.S. and overseas are 
mutually supportive. For example, it is not possible to ensure 
the health of the San Pedro River and its biodiversity in 
Arizona without working at its headwaters in Mexico, and we do. 
And we cannot protect the migratory birds that grace our woods, 
fields and shores unless we protect their winter habitats in 
Latin America and the Caribbean, and we do that, too.
    We are a private, nonprofit organization. Our budget 
derives approximately 92 percent from private donors. We are in 
the midst of our largest private fund-raising effort ever. We 
hope to raise $1 billion in private funds over five years. We 
have about $655 million in cash and pledges already, and $120 
million of that will be for international conservation work.
    But the assistance we receive for our cooperative 
relationship with the U.S. Agency for International Development 
remains essential, because it is hard to fund-raise private 
dollars for operating costs of our programs.
    The Parks in Peril program in Latin America and the 
Caribbean is our flagship program. Parks in Peril and similar 
efforts in the Asian-Pacific region are successful and widely 
respected.
    In a typical year, AID, mainly through its Latin America 
and Caribbean Bureau, has provided Parks in Peril and our other 
international work with about $7 million. We are talking with 
AID about the next stage of Parks in Peril, called Parks in 
Peril 2000, which will leverage our proven methodology at more 
places approved by AID.
    This committee has praised the Parks in Peril program in 
your past reports, and we hope you will do so again.
    The degree of leverage of the U.S. government's investment 
in Park in Peril is very high, not only the $16.5 million of 
documented matching funds that we and our partners provide, but 
also a total of about $290 million raised by us and our local 
partners from other donors, the World Bank and American 
Development Bank, et cetera, for conservation work at or near 
our sites.
    AID's support to biodiversity is contained within the 
environment item in the development assistant account. The base 
level in recent years has been between $70 and $100 million for 
the whole world.
    We do not know what AID's numbers, the administration's 
number for fiscal year 2002 are going to be, because the AID 
budget is not released until next week.
    I am concerned, however, that in the competition for 
resources, AID's support for international conservation might 
lose out, despite its success and despite its support in the 
Congress.
    Therefore, we urge the committee to provide unambiguous 
guidance in your report directing a fiscal year 2002 investment 
by AID of at least $100 million in conservation.
    Mr. Chairman, I would like to make two other very brief 
points this afternoon. The first concerns the Tropical Forest 
Conservation Act, often referred to as the Portman act. This is 
another key program funded within Foreign Operations.
    We are grateful that you appropriated $13 million for this 
account in fiscal year 2001. The administration has indicated 
in its budget summary that it will request more for the 
Tropical Forest Conservation Act. We do not know exactly what 
``more'' means in this context.
    The House budget resolution report, March 23, and I am 
quoting here, ``assumes the program will receive sufficient 
resources to continue progress.'' And President Bush, during 
the campaign, explicitly pledged in his Miami speech to seek 
$100 million for the Tropical Forest Conservation Act.
    An appropriation near that level would make the Tropical 
Forest Conservation Act a truly significant factor in saving 
the tropical forests.
    And finally, the Global Environment Facility is the largest 
single source of biodiversity conservation funds in the world, 
$1.18 billion so far for the 395 projects. We urge the 
committee to fund the current year pledge of the United States 
of $170.5 million in full, and as much as possible toward U.S. 
arrears.
    Thank you very much.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.306
    
    [GRAPHIC] [TIFF OMITTED] T5117A.307
    
    [GRAPHIC] [TIFF OMITTED] T5117A.308
    
    [GRAPHIC] [TIFF OMITTED] T5117A.309
    
    [GRAPHIC] [TIFF OMITTED] T5117A.310
    
    [GRAPHIC] [TIFF OMITTED] T5117A.311
    
    [GRAPHIC] [TIFF OMITTED] T5117A.312
    
    [GRAPHIC] [TIFF OMITTED] T5117A.313
    
    [GRAPHIC] [TIFF OMITTED] T5117A.314
    
    [GRAPHIC] [TIFF OMITTED] T5117A.315
    
    [GRAPHIC] [TIFF OMITTED] T5117A.316
    
    [GRAPHIC] [TIFF OMITTED] T5117A.317
    
    [GRAPHIC] [TIFF OMITTED] T5117A.318
    
    [GRAPHIC] [TIFF OMITTED] T5117A.319
    
    [GRAPHIC] [TIFF OMITTED] T5117A.320
    
    [GRAPHIC] [TIFF OMITTED] T5117A.321
    
    [GRAPHIC] [TIFF OMITTED] T5117A.322
    
    [GRAPHIC] [TIFF OMITTED] T5117A.323
    
    [GRAPHIC] [TIFF OMITTED] T5117A.324
    
    [GRAPHIC] [TIFF OMITTED] T5117A.325
    
    [GRAPHIC] [TIFF OMITTED] T5117A.326
    
    [GRAPHIC] [TIFF OMITTED] T5117A.327
    
    [GRAPHIC] [TIFF OMITTED] T5117A.328
    
    [GRAPHIC] [TIFF OMITTED] T5117A.329
    
    [GRAPHIC] [TIFF OMITTED] T5117A.330
    
    [GRAPHIC] [TIFF OMITTED] T5117A.331
    
    [GRAPHIC] [TIFF OMITTED] T5117A.332
    
    [GRAPHIC] [TIFF OMITTED] T5117A.333
    
    [GRAPHIC] [TIFF OMITTED] T5117A.334
    
    [GRAPHIC] [TIFF OMITTED] T5117A.335
    
    [GRAPHIC] [TIFF OMITTED] T5117A.336
    
    Mr. Knollenberg. Thank you very much, Mr. Watson.
    I have no questions myself. Obviously, your entire 
commentary will be included, as well as your written testimony, 
in the record.
    Ms. Lowey?
    Mrs. Lowey. Thank you for your important work.
    Mr. Watson. Thanks very much.
    Mr. Knollenberg. Thank you very much.
    Mr. Watson. Thank you for the privilege of being here.
    Mr. Knollenberg. Estrellita Fitzhugh, who represents World 
Wildlife Fund, next up.
    We welcome you.
    Ms. Fitzhugh. Thank you.
    Mr. Knollenberg. And look forward to your testimony.
    Ms. Fitzhugh. Thank you again.
    Mr. Knollenberg. Thank you.
                              ----------                             

                                         Wednesday, March 28, 2001.

                          WORLD WILDLIFE FUND


                                WITNESS

ESTRELLITA J. FITZHUGH
    Ms. Fitzhugh. Thank you.
    World Wildlife Fund, representing 1.2 million members, is 
dedicated to protecting the world's wildlife and rich 
biological diversity that we all need to survive. WWF is one of 
the leading privately supported international conservation 
organizations in the world.
    Americans often underestimate how conserving the world's 
biological diversity is critical to furthering U.S. foreign 
policy interests. U.S. government-funded conservation programs 
help achieve these interests. For example, many conservation 
programs, as a related benefit, strengthen local democratic 
processes by teaching communities how to manage, benefit and 
demand a say in local resources.
    U.S. Government interests in stable economic markets often 
are determined by how well the resources are sustainably 
managed. In raising living standards abroad, U.S. Government 
could focus on a cost-effective solution to potable water by 
preserving or restoring the world's watersheds and wetlands.
    Medical cures to diseases often depend on plants and 
animals. For example, a Central African subspecies of the 
chimpanzee has been identified as a potential source for the 
AIDS cure. Yet, as we speak, this animal is being hunted to 
near-extinction.
    Many U.S. Government-funded programs have made 
impressivestrides in conserving biodiversity around the world, and my 
testimony details a number of these programs. They illustrate how, with 
adequate and long-term U.S. Government funding, in partnership with 
private funding and other donor funds, threats to biodiversity can 
creatively and successfully be addressed.
    But putting these successes in the larger context of global 
threats to biodiversity, one sees a daunting challenge. In the 
past few decades, growing human populations and consumption 
have, and continue to fuel, wholesale destruction of wild 
habitats around the world, and an accelerated degradation of 
the planet's environment.
    In the past few years alone, forest degradation in 
countries such as Indonesia has reached alarming rates. At 
current U.S. Government funding levels, this conservation 
crisis cannot be adequately addressed.
    WWF therefore recommends that the agencies and institutions 
that help achieve conservation of biodiversity be funded at the 
levels we have outlined in my testimony, and I will highlight a 
few of them.
    Under USAID, the conservation of biodiversity program, we 
urge the subcommittee to appropriate $110 million. For a number 
of years, USAID steadily decreased its funding for biodiversity 
conservation. Fortunately, in the last two years, this 
subcommittee, under the leadership of Chairman Callahan and 
Ranking Member Pelosi, directed USAID to restore some modest 
funding toward conservation programs. We are deeply concerned 
by reports that the Bush administration will request a $30 
million-plus cut in the development assistance budget and 
overall environmental programs, of which biodiversity 
activities is a part.
    Given the enormous threat to biodiversity globally, we urge 
the subcommittee to continue its tradition and continue the 
slow but steady increase in appropriations in recent years by 
your marking up $110 million for biodiversity conservation.
    With regard to the Global Environment Facility, we 
recommend both that the subcommittee appropriate the current 
U.S. contribution of $107.5 million and $203 million in 
accumulated arrearages, thus bringing the U.S. account to 
current level.
    And lastly, one of the other highlights in my list is the 
Tropical Forest Conservation Act. WWF supports President Bush's 
stated pledge to fund the implementation of this act at $100 
million. Appropriating this amount will be key to the law's 
effective implementation.
    In conclusion, Mr. Chairman, the fundamental balance 
between human enterprise and biological diversity upon which we 
all depend must be restored. We ask that this government and 
its global partners meet this challenge for the sake of future 
generations.
    Thank you.
    I would just like to leave with you this from the National 
Geographic, which deals with this issue of biodiversity. It was 
part of their millennium series, which I hope you will enjoy 
for your bedtime reading.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.337
    
    [GRAPHIC] [TIFF OMITTED] T5117A.338
    
    [GRAPHIC] [TIFF OMITTED] T5117A.339
    
    [GRAPHIC] [TIFF OMITTED] T5117A.340
    
    [GRAPHIC] [TIFF OMITTED] T5117A.341
    
    [GRAPHIC] [TIFF OMITTED] T5117A.342
    
    [GRAPHIC] [TIFF OMITTED] T5117A.343
    
    [GRAPHIC] [TIFF OMITTED] T5117A.344
    
    [GRAPHIC] [TIFF OMITTED] T5117A.345
    
    [GRAPHIC] [TIFF OMITTED] T5117A.346
    
    [GRAPHIC] [TIFF OMITTED] T5117A.347
    
    [GRAPHIC] [TIFF OMITTED] T5117A.348
    
    Mr. Lewis. Thank you.
    Mr. Knollenberg. Well, thank you----
    Ms. Fitzhugh. Thank you.
    Mr. Knollenberg [continuing]. Very much. We do appreciate 
your comments.
    Now we need to move on to Earth Voice and Jan Hartke.
    How are you, Mr. Hartke?
                              ----------                             

                                         Wednesday, March 28, 2001.

                              EARTH VOICE


                                WITNESS

JAN HARTKE, EXECUTIVE DIRECTOR, EARTH VOICE
    Mr. Hartke. Hello, Congressman.
    Mr. Knollenberg. We welcome you, and your full testimony 
will be included in the record.
    Mr. Hartke. Thank you.
    Mr. Knollenberg. We will let you begin any time, even 
though you will been denied a couple of seconds here, you will 
have five minutes.
    Mr. Hartke. First, it is an honor to be here, and it is 
good to see you, Mr. Chairman, and to have your expressed 
interest by having all of us come in and testify.
    And I also want to say hello again to Congressman Lewis. It 
is good to see you again, and thank you for coming to listen to 
all of our concerns.
    I am executive director of Earth Voice, the co-chairman of 
the Alliance for the United Nations Sustainable Development 
Programs, and the vice chairman of the Campaign to Preserve 
U.S. Global Leadership, an organization comprising over 300 
major U.S. corporations and nongovernmental organizations.
    I know my time is short, as everyone's is, so I would like 
to do the punchlines up, and get to some of the underlying 
arguments.
    I would like to ask that adequate funding and attention be 
provided in four operations budgets this year for thefollowing 
programs. First, $311 million in current year funding and back payments 
for the Global Environment Facility, one of the most important global 
environment activities in the world, which really I have seen their 
projects in the field, and they are doing extraordinary work.
    Second, $15 million for the United Nations Environment 
Program, to bring us back to historic funding levels. This is 
the conscience of the United Nations system. I think, here 
again, I could talk about the regional seas program, the 
information database that they are building up globally. They 
are doing a really much better job than they have, in my 
judgment, in the past and deserve a new look.
    Third, $15 million for the International Fund for 
Agricultural Development and $5 million unfulfilled commitments 
from previous years. Again, this is a lead organization on many 
areas, but particularly a major important organization for 
Africa, and in particular to arrest the growing threat of 
desertification that afflicts my old state, where I was state 
treasurer, of New Mexico, Arizona and other states.
    And then for full funding for the United Nations 
Development Program, which I understand others have testified 
regarding.
    And lastly, here again, I am very encouraged to see 
President Bush recommend $100 million for the Tropical Forest 
Conservation Act under the Enterprise for the Americas. This is 
a really great new effort to get leverage on your money here in 
Congress to do great work abroad, to save these endangered rain 
forests and all the biological diversity that we have heard 
about, which is really where most of it exists.
    All of these organizations have been formed together and 
are tied together by a common thread. No one nation can solve 
these kinds of global problems. You cannot require the forest 
to have one nation look at it. You cannot take the oceans and 
have one nation solve it. These are things that need to be 
solved in a global capacity.
    And before I go to the rest of the testimony, I would just 
say to you after several years of having discussion with 
Charlie Flickner here and members of your committee and so 
forth, and many others, what happens in this committee, every 
little turn of the dial in your mind, every concern you have, 
every new sensitivity, has an enormous impact when you leave 
these rooms on the programs that we see in the field, the ones 
I mentioned.
    Small areas of concern for you register big around the 
world, have a huge ripple effect. I just cannot hardly 
emphasize it enough. This subcommittee here can in many ways 
key what happens around the world.
    I did not know that was going to happen, but as I began to 
look at this over the last several years, you see that the 
other countries are keying on this country. They say they do 
not, but they do.
    If we ramp up, we meet these obligations--and not just 
meeting obligations, but stepping up to these challenges and 
resolving problems in the field, and with real people and real 
communities, and saving the environment.
    These are not even controversial in a political sense. They 
are only controversial in a general budget sense.
    But I think that the key point is, if we ratchet down, then 
the world says, well, for whatever reasons, the leadership, 
they ratchet down. So your numbers are eight times bigger than 
whatever you say here, one way or the other, and it is hugely 
important.
    Just to mention two specifics, the United States is an 
undisputed world leader today in the field of environmental 
technologies. United States firms are the largest recipients of 
global environment facility grants. Out of all the world, I 
could have chosen anyplace, but let me just give you one 
example of the importance of these environmental technologies 
to U.S. economy.
    The Greater Tucson Economic Council has formed the 
environmental technology----
    [Laughter.]
    That is just a wild throw of the dart--has formed the 
environmental technology industry cluster. And in its vision 
statement, it said ``to lead the State of Arizona into the 21st 
century as the worldwide center for products and services 
dedicated to the solution and prevention of environmental 
problems.''
    Tucson is a home to many of the firms that provide more 
than 5,000 environmental technology jobs in Arizona and $2 
billion in annual revenues. The Environmental Export Council 
here, which is a huge organization in this country, composed of 
everybody from the really big boys down to the smaller shops, 
have made a plea to this new administration to step up, to say, 
``Let's promote our environmental exports,'' this being a prime 
example, but there are many, many others across the country.
    And we should be an international leader in this area. 
Again, it is not controversial in the political sense. It is 
only a question of willpower of the Congress, and I think the 
administration.
    Lastly, let me just end on the United Nations Environment 
Program. Here again, the number that I requested, and that is 
backed by many, many other organizations and interests and 
individuals, is higher by far than before. I would ask the 
committee simply this, to look at it from two perspectives: a 
better management effort. The protocol that they passed in the 
Caribbean is very significant; the database that they are 
building up globally.
    We have to have men of science who know what they are doing 
on the environment before we just get out there and start 
taking care of everything. And that is what they are trying to 
do. They are trying to build up this data base around the 
world. They are doing a great job of it. And I think if we 
could give them some encouragement it would be important.
    I know my time is up. Lastly, as I walk away, the trade 
issue----
    [Laughter.]
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.349
    
    [GRAPHIC] [TIFF OMITTED] T5117A.350
    
    [GRAPHIC] [TIFF OMITTED] T5117A.351
    
    [GRAPHIC] [TIFF OMITTED] T5117A.352
    
    [GRAPHIC] [TIFF OMITTED] T5117A.353
    
    [GRAPHIC] [TIFF OMITTED] T5117A.354
    
    [GRAPHIC] [TIFF OMITTED] T5117A.355
    
    [GRAPHIC] [TIFF OMITTED] T5117A.356
    
    Mr. Knollenberg. Well, thank you Mr. Hartke.
    Mr. Hartke. I hope that I am not being abusive of the 
committee's time.
    Mr. Knollenberg. Thank you. Thank you very kindly.
    Mr. Hartke. Thank you very much.
    Mr. Knollenberg. Next we have the International Medical 
Corps, Nancy Aossey.
    Ms. Aossey. Yes.
    Mr. Knollenberg. Okay, Nancy, you are welcome.
    Ms. Aossey. Thank you.
    Mr. Knollenberg. And I look forward to your comments, and 
you are recognized and please commence.
                              ----------                              

                                         Wednesday, March 28, 2001.

                      INTERNATIONAL MEDICAL CORPS


                                WITNESS

NANCY A. AOSSEY, PRESIDENT AND CHIEF EXECUTIVE OFFICER, INTERNATIONAL 
    MEDICAL CORPS
    Ms. Aossey. Thank you, and I want to thank all the members 
of the subcommittee for the opportunity to testify today.
    I am president of International Medical Corps, which is a 
Los Angeles-based international relief and training 
organization. My other hat is I also serve as chair of 
InterAction, which, as you probably know, is the largest 
coalition of U.S. relief, development and refugee agencies, 
with 160 members located in 24 states throughout the U.S.
    But today, I would like to talk to you in my capacity as 
president of International Medical Corps, or IMC, which was 
established in 1984.
    IMC doctors and nurses and midwives have provided health 
care and training for vulnerable populations caught up in many 
of these humanitarian emergencies and post-conflict transitions 
in more than 30 countries and territories around the world.
    Since our inception, training has really been the most 
integral part of all of our programs and has proven to be a 
very powerful and extremely cost-effective way to promote self-
reliance and build local capacity.
    Mr. Chairman, we at IMC are gratified that Secretary of 
State Powell has recently called a broad array of U.S. aid 
programs the backbone of our foreign affairs. In fact, we all 
know that smart and timely humanitarian and development 
assistance can have a very powerful impact in creating 
conditions that promote political stability and development.
    And from East Timor to the Balkans to Central Africa, IMC 
has been on the front lines of many of these efforts to provide 
critical services and build local capacity.
    So I would like to talk to you a little bit about our 
experience. In East Timor, for example, we are providing health 
care training and services to the isolated enclave of Oekussee, 
and we are about to undertake the development of a new national 
health professional training institute in Dili.
    In Kosovo, we are training local health workers, emergency 
care first aid, and infectious disease control. We provided 
health care advice to tens of thousands of Kosovars in mobile 
clinics. We rehabilitated health facilities and we offered 
psychosocial programs to help youth and adults deal with the 
post-traumatic stress.
    And in Burundi, we engaged in vaccination efforts, 
therapeutic and supplemental feeding, and malnutrition 
screening, as well as training of TBAs and community health 
workers.
    But even as we effectively attempt to address these current 
concerns, we are confronted with new and formidable 
humanitarian challenges from the worldwide crisis of internal 
displacement, to the tragedy of the HIV/AIDS pandemic.
    The AIDS pandemic, in particular, threatens to devastate 
much of the African continent's economy and social fabric in 
the decade to come, and part of Asia and Europe are at serious 
risk as well. And while efforts to reduce the costs of drugs to 
poor and developing countries are welcomed, the pandemic will 
not be contained without a vast expansion for basic health care 
services training and delivery.
    At a time when the international community ought to be 
doing much more, and at a time when the U.S. remains very much 
the world leader, the U.S. still lags behind all industrialized 
donor nations in the percent of our GNP devoted to overseas 
assistance. We are concerned that funding for the international 
disaster and transitional assistance accounts appears to be 
reduced from current aggregate levels, as these modest programs 
are promoting critical U.S. humanitarian and regional security 
objectives in the Balkans, Indonesia, East Timor, Nigeria, 
Sierra Leone, among other countries. Rather than being reduced 
or straight-lined, these programs we believe should be 
augmented substantially.
    We have experience of the human implications of these 
funding shortfalls. In southern Sudan, IMC programs have 
treated thousands of Sudanese infected with sleeping sickness, 
and epidemic rates have been cut dramatically in areas of 
activity. But our program has been reduced due to lack of donor 
support.
    We are now at a crossroads. We can either slide back and 
see a recurrence of the epidemic, or we can continue and 
strengthen our efforts at treatment and control, and 
demonstrate U.S. commitment and resolve.
    On the Pakistan-Afghan border, IMC is supporting primary 
health care services for displaced Afghan women and children, 
as well as training programs for Afghan women health workers. 
If more resources were available, we could expand this 
exceptional program, and further assist Afghan women struggling 
to rebuild their lives under grueling and miserable 
circumstances.
    In Sierra Leone, we face similar choices. In the districts 
where we are operating, we are providing critical health 
services and training, but the increase in refugee return will 
require significant additional resources, if we are going to 
respond effectively to the rapid onset of returnee families. 
Such a response would be critical to sustain a very fragile 
transition process in that country.
    We understand that the administration is requesting an 
increase in foreign affairs funding from about $22.6 billion to 
$23.8 billion, with the additional monies focused largely on 
technology, human resources and security upgrades for the 
Department of State.
    This is a very laudable initiative to provide critical 
resources to U.S. diplomats, but we believe they should be 
coupled with long-term commitments to augment the very 
humanitarian programs that U.S. officials seek to administer 
day-in and day-out. Such a commitment would not only serve our 
national security interests, but also embody the values of 
humanitarianism that reflect our highest ideals and our highest 
aspirations.
    And I am sorry I went over.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.357
    
    [GRAPHIC] [TIFF OMITTED] T5117A.358
    
    [GRAPHIC] [TIFF OMITTED] T5117A.359
    
    [GRAPHIC] [TIFF OMITTED] T5117A.360
    
    Mr. Knollenberg. You did very well, and you almost got it 
within.
    I just had one quick question.
    Ms. Aossey. Sure.
    Mr. Knollenberg. For the record, should ongoing programs, 
such as aid to Sudan, for example, continue to drain funds from 
the disaster assistance account that is designed for, what we 
call, unanticipated expenses? Should we continue, do you think?
    Ms. Aossey. I think we should just enlarge the whole pie. I 
think that, based on our experience, one of our concerns is 
that, like, for instance, in southern Sudan, where certainly 
more assistance is needed, I cannot think of any other place 
where funding ought to be cut. I think the U.S. could be and 
should be doing more, generally speaking, with its own budget.
    Someone mentioned earlier that the rest of the world tends 
to look to the U.S. as the leader. And so much of what they do, 
they gauge based on what the U.S. does. And I just felt that we 
could do more overall.
    Mr. Knollenberg. Would you care to respond in writing, 
maybe in greater detail? We do not have the time here.
    Ms. Aossey. Sure. I would be happy to.
    Mr. Knollenberg. If you could give us, perhaps, more 
detail, more of an explanation on it. We would appreciate that.
    Ms. Aossey. Okay. Great. Thank you. Thank you very much.
    Mr. Knollenberg. We have next David Hoffman with Internews. 
And Mr. Hoffman, you are welcome, and we look forward to your 
testimony, and all of your testimony will put in the record.
    Mr. Hoffman. Thank you, Mr. Chairman and members of the 
subcommittee. Thank you for the opportunity to testify today on 
the issue of open media around the world.
    Mr. Knollenerg. I am just changing chairs. The real 
chairman is coming back.
    Mr. Hoffman. It is an honor, Mr. Chairman.
    Mr. Kolbe. [presiding]. Thank you very much, Mr. 
Knollenberg, for taking the chair.
    Please go ahead.
                              ----------                             

                                         Wednesday, March 28, 2001.

                               INTERNEWS


                                WITNESS

DAVID HOFFMAN, PRESIDENT, INTERNEWS
    Mr. Hoffman. Thank you.
    Electronic media are the most powerful force for social 
change in the world today. As Americans, we live and breathe in 
an information age. Media are central to our economy, our 
culture, our political system and our everyday life.
    But in many counties of the world, free media can by no 
means be taken for granted. In Russia, President Putin has been 
prosecuting Victor Gusinsky and his influential TV network. In 
Ukraine, the prime minister has been accused of ordering the 
murder of a dissident journalist. In China, they are closing 
Web sites. In Iran, they have closed dozens of newspapers and 
thrown their editors in jail. And we all saw how former 
President Milosevic used state media as a propaganda tool to 
foment hatred and violence in the Balkans.
    With U.S. Government support, Internews and other NGOs were 
able to deliver critical aid to independent broadcasters in 
Serbia that formed the nucleus of the opposition to the 
Milosevic regime. In Serbia and in many countries around the 
world, free, independent broadcasters have been on the front 
lines in the fight for freedom and democracy.
    During the last 10 years, with significant funding from 
USAID, Internews has helped develop 1,500 independent 
broadcasters that reach almost 300 million people every day in 
23 countries. We trained 16,000 journalists. In all these 
countries, we have learned that open media areessential to 
holding free and fair elections, to uncovering corruption and human 
rights abuses, to allowing for the free exchange of ideas. American 
support of uncensored news outlets should be at the top of our foreign 
policy agenda.
    This committee and this Congress ought to be proud of your 
support for open media around the world: in the former Soviet 
Union; in the Balkans; most recently, in Indonesia. But there 
are large areas of the world where open media have yet to take 
hold.
    In Africa, in particular, free media are just in infancy. 
We encourage the committee to continue to expand support of 
open media in the developing world.
    Let me share with you the key lessons that Internews has 
learned in almost 20 years of dealing with international media 
issues.
    First, local indigenous media are the best counterweight to 
repressive regimes everywhere. They should be supported as an 
integral part of American foreign policy.
    Second, support for local indigenous media is the most 
effective means for building open, civil societies and healthy 
market economies. This support needs to be sustained for the 
long run until these economies and civil societies are in 
place.
    And third, in the developing world, locally produced radio 
programs and other media coverage are unparalleled in their 
potential to effectively educate mass populations about urgent 
social problems like HIV/AIDS.
    It is this last point I would like to close on, and urge 
the committee to give special attention to as well.
    At a time when the incidence of HIV/AIDS in Africa has 
reached catastrophic proportions, there is an important 
opportunity to harness the power of local media to reduce the 
spread of this disease. Yet, local news coverage of this 
epidemic is often seriously flawed.
    As a recent Time magazine cover story concluded, 
``Ignorance is the crucial reason why the epidemic has run out 
of control.'' By training local African journalists to cover 
this issue effectively and responsibly, we can reduce the 
ignorance and fear that have exacerbated the suffering.
    One of the biggest challenges we face with dealing with the 
AIDS pandemic is reaching young audiences with needed 
information before they become sexually active. By focusing a 
media campaign on pre-pubescent African children, we can begin 
to get ahead of the spread of this deadly virus.
    Internews requests that this committee recommend funding in 
the amount of $2 million to implement a media training program 
to combat the spread of HIV/AIDS in Africa. As elected 
officials, you know better than most the unequaled power of the 
media to inform and motivate the public.
    In Africa and the developing world, nothing is more 
effective than hearing local people on radio speaking in their 
local dialect. If we can educate those voices about the true 
nature of the HIV virus, we can begin to change the attitudes 
and practices that have allowed this disease to run out of 
control.
    The democratic, open media in Africa is both a moral and a 
political imperative.
    Thank you very much for your consideration.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.361
    
    [GRAPHIC] [TIFF OMITTED] T5117A.362
    
    [GRAPHIC] [TIFF OMITTED] T5117A.363
    
    [GRAPHIC] [TIFF OMITTED] T5117A.364
    
    [GRAPHIC] [TIFF OMITTED] T5117A.365
    
    [GRAPHIC] [TIFF OMITTED] T5117A.366
    
    [GRAPHIC] [TIFF OMITTED] T5117A.367
    
    [GRAPHIC] [TIFF OMITTED] T5117A.368
    
    [GRAPHIC] [TIFF OMITTED] T5117A.369
    
    Mr. Lewis. Let me just mention that the pandemic of Africa 
is only the star that we see with regularity. The same 
testimony applies very much to other parts of Asia----
    Mr. Hoffman. Absolutely.
    Mr. Lewis [continuing]. Where there are huge difficulties 
and the need for the kind of communication you are talking 
about. It is much more hidden than----
    Mr. Hoffman. Yes. Yes, certainly in Asia, there is a huge 
problem. We have some model programs, experimenting in Russia, 
Ukraine and Indonesia. We found a great deal of success there.
    Mr. Lewis. India and China are much more difficult 
countries. The same problem exists----
    Mr. Hoffman. Yes, but you do not have independent media in 
China. In India, you definitely----
    Mr. Lewis. In India, you have a lot of it, but the cultural 
mix is such that it is extremely difficult when you have 200 
dialects. But the point is still the same.
    Mr. Hoffman. But this is why independent local media is so 
crucial, because you are train each person. They talk in their 
own idiom, and they talk in their own culture, and people can 
relate to it. When you try to get Madison Avenue ads to work in 
these foreign countries, they do not work.
    Mr. Lewis. The populations and numbers are very large in 
Africa, but the population numbers in a place like India are--
--
    Mr. Hoffman. Congressman, we would like to do this 
everywhere, actually, where it is needed, as you know.
    Thank you.
    Mr. Lewis. I was just raising the flag.
    Mr. Kolbe. Thank you very much.
    I understand that it is important that any kind of 
advertising campaign has to be culturally sensitive. There has 
been experiences with organizations which have tried exactly 
what you are talking about and failed dismally.
    Mr. Hoffman. We are aware of that.
    Mr. Kolbe. Thank you very much. We appreciate it.
    Dennis Smith?
    Mr. Smith. Hello.
    Mr. Kolbe. Good afternoon, thank you very much, Mr. Smith. 
Professor Smith, we can assure that your entire statement will 
be put in the record, if you would like to summarize your 
statement for us.
    Mr. Smith. Yes.
    Mr. Kolbe. Go ahead.
                              ----------                             

                                         Wednesday, March 28, 2001.

                          NEW YORK UNIVERSITY


                                WITNESS

DENNIS SMITH, DIRECTOR OF THE INTERNATIONAL INITIATIVE OF THE ROBERT F. 
    WAGNER GRADUATE SCHOOL OF PUBLIC SERVICE AT NEW YORK UNIVERSITY
    Mr. Smith. I certainly do not need to tell you gentlemen 
that the American experiment in democratic decisionmaking began 
long ago and in simpler times, but the challenges of conveying 
lessons of our experience to other nations in the world is a 
major challenge, and the struggle for democracy and economic 
freedom will require new weapons. It will require the kind of 
ingenuity that enabled this country to win the Cold War.
    Now, to enjoy the full fruits of that, we need to have some 
innovation of a different kind.
    Mr. Kolbe. Excuse me. We will try to handle this vote here. 
You will stay. I will vote and be right back before your 
testimony is over.
    Mr. Smith. Oh, very good.
    Mr. Kolbe. Please keep going.
    Mr. Smith. I represent the Robert F. Wagner Graduate School 
of Public Service at New York University.
    In the past decade in particular, our role in training and 
teaching people from around the world, from NIS and from Africa 
and Asia and Latin America, has dramatically expanded. We have 
current partnerships with universities and countries all over 
the world, and we have State Department-funded projects in 
Ukraine on democratic decisionmaking, and in Mozambique on 
capacity-building and policy analysis and health management.
    And our faculty provided technical assistance in a number 
of countries around the world, in conjunction with World Bank 
and other international organizations.
    More than 60 students have worked with Wagner faculty on 
projects around the world in the last several years on 
something called the Capstone Program. In this current year, we 
have had students working in teams from the Wagner School 
paired with teams of students in, for example, Mozambique, 
doing evaluation projects on programs carried out by 
international organizations.
    And to carry out those programs, we have used a variety of 
distance-learning technologies to make it possible for them to 
work together.
    The Wagner school is deeply involved in nonprofit 
organization capacity-building in developing countries, and we 
have partnerships in a number of countries to do that. A 
developing one was the first program in public nonprofit 
management in Spain, and the first one in Argentina to work 
jointly on a program of capacity-building in the nonprofit 
world in Latin America.
    We have also created programs, I think this is the first in 
the world, to train managers of international public service 
organizations. We have had, now, two classes. These intensive 
programs. They spend several months in New York, learning the 
management of organizations like Save the Children, UNICEF and 
so on.
    That is critically important because this is a new field of 
service delivery. Very complex problems are being taken on by 
these international organizations, and very dedicated people in 
this organizations have not been trained to manage the kinds of 
complex problem-solving that they are being assigned.
    Even as the largest graduate school of public service in 
the United States, serving as we do a large number of 
international students from around the world, we cannot 
possibly reach all the people that would like to take the 
programs that we have to offer.
    The program that we gave you, that we are asking for 
support of, makes the case that distance-learning technologies 
linked to the kinds of curriculum we have developed on managing 
public services and nonprofit organizations is a very effective 
way to expand the reach of our programs.
    We have been developing this, using those technologies 
wherever we have partnerships, and we have seen their 
potential. We believe that, in order to be able to achieve the 
full potential of those technologies, we have to have a 
dedicated facility which we are proposing to create at the 
Wagner school in New York City as an international center for 
democratic public service.
    We believe with the kinds of technologies that are 
available--distance-learning technologies in classrooms, 
facilities to link student teams working on public problems 
around the world, between New York and Mozambique and Buenos 
Aires and Mexico City and so forth, big cities of the world 
where a lot of the problems are concentrated--we can convey the 
learning that we have in the United States, take advantage of 
our location in New York City to bring many minds together 
around the world, using this global center. And so we are 
asking for support for that project.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.370
    
    [GRAPHIC] [TIFF OMITTED] T5117A.371
    
    [GRAPHIC] [TIFF OMITTED] T5117A.372
    
    [GRAPHIC] [TIFF OMITTED] T5117A.373
    
    [GRAPHIC] [TIFF OMITTED] T5117A.374
    
    [GRAPHIC] [TIFF OMITTED] T5117A.375
    
    [GRAPHIC] [TIFF OMITTED] T5117A.376
    
    [GRAPHIC] [TIFF OMITTED] T5117A.377
    
    [GRAPHIC] [TIFF OMITTED] T5117A.378
    
    [GRAPHIC] [TIFF OMITTED] T5117A.379
    
    [GRAPHIC] [TIFF OMITTED] T5117A.380
    
    [GRAPHIC] [TIFF OMITTED] T5117A.381
    
    Mr. Kolbe. Thank you very much. Thank you very much for 
coming, Dr. Smith. Thank you very much for testifying.
    Gary Davis from the National Corn Growers Association.
    Mr. Davis, thank you very much for coming.
    Go ahead.
                              ----------                             

                                         Wednesday, March 28, 2001.

                   NATIONAL CORN GROWERS ASSOCIATION


                                WITNESS

GARY DAVIS
    Mr. Davis. Chairman Kolbe and members of the committee, my 
name is Gary Davis. I am an corn grower and veterinarian, and I 
am here representing the National Corn Growers and also the 
Farm Bureau Federation and the Society for Plant Physiologists. 
I serve on the National Corn Growers Research Group, and we are 
actively involved in the plant genome work.
    And I appreciate the opportunity to discuss plant genomics 
and biotechnology with your committee and feel it is a very 
significant role for these technologies in alleviating some of 
the problems we have in terms of child survival and world 
hunger and deprivation, particularly in developing countries.
    We are requesting $50 million for integrated research 
effort across multiple disciplines, involving multiple research 
efforts. We feel that USAID should have a single, comprehensive 
focus.
    And we have an old problem, obviously: We cannot overstate 
the problems that there are, in terms of hundreds of millions 
of children, in terms of dietary deficiencies, malnutrition, 
and that, we feel, this is an opportune time to approach this 
old problem with new tools and make a significant increase in 
efforts to combat these issues.
    There are obviously examples of, in the media that we are 
all aware of, for biotechnology sector can do things like new 
varieties of rice with high levels of vitamin A and 
minerals,iron. There are edible vaccines on the horizon, such as 
Hepatitis B coming from bananas and corn, and the cholera virus from 
potatoes.
    So we feel that now is the time to expand the effort and to 
focus a coordinated approach to solving some of the world's 
hunger problems through these efforts.
    We believe that significant advances made in plant genomics 
and biotechnology and that USAID should focus on achieving 
sustainable improvements in helping prevent disease in a 
sustainable manner, utilizing these new technologies rather 
than just continually utilizing dollars to produce vaccines 
that have problems in distribution and getting to where they 
are needed and refrigeration.
    Specifically, we would encourage that Congress provide the 
money for focused funding of the following areas.
    One, the development of crops where we can increase the 
critical micronutrient level, vitamin A being an example. There 
are many others as we are looking at now.
    Collaborative grants to major research efforts here and 
abroad to develop stress-tolerant crops, such as drought 
resistance or insect or disease resistance that are adaptable 
to the countries where the need exists.
    To develop edible vaccines through a grant program.
    And to target, of course, funding. If we have the new 
technology and the development information, we also need to 
train the scientists locally, as we were talking earlier about 
the communication problems. We need to get it to where the 
problem exists.
    So we thank you for your time. Appreciate your 
consideration of this request. And I would entertain questions.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.382
    
    [GRAPHIC] [TIFF OMITTED] T5117A.383
    
    [GRAPHIC] [TIFF OMITTED] T5117A.384
    
    [GRAPHIC] [TIFF OMITTED] T5117A.385
    
    [GRAPHIC] [TIFF OMITTED] T5117A.386
    
    [GRAPHIC] [TIFF OMITTED] T5117A.387
    
    Mr. Kolbe. Thank you very much, Dr. Davis. We appreciate 
the work you are doing.
    It is an interesting program. Quite frankly, I was not 
aware of this, so this has been helpful information for the 
subcommittee to have. And we will take a look. Thank you very 
much.
    Mr. Davis. Thank you.
    Mr. Kolbe. Now, we are going back to the Middle East and 
some of our ethnic groups There. The American Lebanese 
Institute.
    Ready?
    Mr. Epperly. Ready.
    Mr. Kolbe. Go ahead.
                              ----------                             

                                         Wednesday, March 28, 2001.

                      AMERICAN LEBANESE INSTITUTE


                                WITNESS

DAVID EPPERLY
    Mr. Epperly. Yes, my name is David Epperly, and I am 
testifying on behalf of the American Lebanese Institute, which 
is a member of the Council of Lebanese American Organizations, 
which is a membership organization here in the United States, 
representing the interests and sentiments of over three million 
Americans of Lebanese descent.
    We work for the cause of freedom and sovereignty in Lebanon 
and start by calling for the immediate, complete and 
unconditional withdrawal of Syrian forces from the country. 
Both the institute and the council act to promote ties of 
friendship and cooperation between the United States and 
Lebanon based on the principles of democracy and human rights.
    With this brief background, let me outline our concerns and 
suggestions to the subcommittee. And we understand it is not 
the committee's responsibility to sort out the internal 
problems of Lebanon, but these are suggestions that we feel are 
related to funding to Lebanon.
    Unfortunately, since our last testimony, and we come here 
on a yearly basis, the situation in Lebanon has continued to 
deteriorate. The country remains subjugated to Syrian 
domination. And instead of bringing the much desired stability, 
prosperity and all the reasons that the Syrians put forth for 
the continued occupation, the results are human rights abuses, 
political intrigue, economic exploitation,continued violence in 
the south and the usage of Lebanon as a haven for international 
terrorism and drug trafficking.
    On the way over here. I was listening to C-Span and one of 
the other committees, the subject for today is human cloning. 
And I found it kind of interesting that there is a parallel 
between that and what is going on in Lebanon. Syria is 
essentially trying to clone Lebanon into a perfect copy of 
itself. And Lebanon was always a free and democratic country. 
And so this is kind of a throwback to the Cold War era and the 
Stalinist era.
    And yesterday in The Washington Post, there was an 
interesting article about Syria that I copied for you and about 
the economy of Syria. And the fact that they are not really 
making much progress in going forward. And I think it is very 
relevant. It is interesting reading, if you have not already 
read it.
    It is disturbing to think that a country with such a track 
record would seek to manage another country, the economy, the 
political system of another country. But that is what you have 
in Lebanon. And as American citizens of Lebanese descent, 
obviously, this is pretty disturbing.
    There are still hundreds of Lebanese unaccounted for in 
Syrian prisons for political crimes. Their whereabouts, their 
welfare is not known. We are associated with a human rights 
organization that was just in Washington last week that met 
with a couple of members of Congress to discuss that situation. 
Some of these people have disappeared since 1976. And so, that 
is a pretty disturbing situation.
    But the bottom line for us is, any aid that goes to Lebanon 
is essentially going to Syria. So we wanted to call the 
subcommittee's attention to that and recommend that the aid 
that is destined for Lebanon--and Lebanon is worthy of U.S. 
support, because, by and large, most Lebanese are very pro-U.S. 
Many of them have families here. So traditionally there is a 
strong linkage between Lebanon and the United States.
    But we suggest that that aid go to universities, such as 
the American University of Beruit, other universities, medical 
institutions, the hardworking NGOs that work in Lebanon, do a 
lot of very important work, as opposed to sending the money 
through the government coffers, because there is a tremendous 
amount of corruption and graft. And so, chances are that any 
U.S. aid that went through the Lebanese government would not 
really filter down to the people who really need it most.
    That is the thrust of our testimony.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.388
    
    [GRAPHIC] [TIFF OMITTED] T5117A.389
    
    [GRAPHIC] [TIFF OMITTED] T5117A.390
    
    [GRAPHIC] [TIFF OMITTED] T5117A.391
    
    [GRAPHIC] [TIFF OMITTED] T5117A.392
    
    [GRAPHIC] [TIFF OMITTED] T5117A.393
    
    Mr. Kolbe. Thank you very much. And let me just say I think 
you are absolutely correct. And I think it is also true that 
our aid does make it to organizations such as the ones you 
suggested, universities, medical schools, other universities, 
those organizations.
    Mr. Epperly. And we also----
    Mr. Kolbe. But there is nothing that goes to any government 
program.
    Mr. Epperly. The Lebanese army is an institution worthy of 
continued support, but it is under Syrian domination right now. 
The U.S. Government needs to send a message to Syria to stop 
blocking the Lebanese army from deploying to the south to 
secure the border with Israel. And that is another issue that 
needs to be addressed.
    Mr. Kolbe. Thank you very much, Mr. Epperly. We certainly 
appreciate your coming.
    Mr. Epperly. It is my pleasure. Thanks for having me. Thank 
you very much.
    Mr. Kolbe. Looking forward to seeing you during the course 
of the year.
    Mr. Epperly. All right. Thank you.
    Mr. Kolbe. George Cody from the American Task Force for 
Lebanon.
                              ----------                              

                                         Wednesday, March 28, 2001.

                    AMERICAN TASK FORCE FOR LEBANON


                                WITNESS

GEORGE T. CODY
    Mr. Cody. Hi, I am George Cody, executive director of the 
American Task Force for Lebanon. And I want to thank you, Mr. 
Chairman, and the committee for allowing us to present 
testimony today. I am presenting our testimony on behalf of the 
Honorable Thomas Nassif, who is chairman of the American Task 
Force for Lebanon. And I would like to have the statement 
included in the record.
    Mr. Kolbe. Your full statement will be placed in the 
record.
    Mr. Cody. Thank you very much.
    The American Task Force for Lebanon is an organization 
whose goal is to work toward reestablishing a secure, stable, 
democratic, independent and sovereign Lebanon with full control 
over all its territory.
    We want to thank the Congress for including a provision of 
$35 million for Lebanon in fiscal year 2001 Foreign Operations 
bill, which was signed into law by the President November 6, 
2000.
    A congressional notification of $15 million has been 
submitted and approved for Lebanon. We now urge that the 
remaining $20 million be disbursed.
    And because of the lack of a comprehensive Middle East 
peace agreement, Lebanon is facing now, as it has faced for the 
past 34 years, a difficult regional predicament.
    The statement by Lebanon's prime minister in Paris 
onFebruary 15 regarding Lebanon's not wanting to provide a pretext for 
an Israeli attack is an indication of Lebanon's concern with 
instability along the border.
    Certain elements in Lebanon would be overjoyed if the U.S. 
not only cut back its foreign assistance in Lebanon, but 
totally eliminated that assistance. The U.S. cannot completely 
cede influence in a crucial area such as south Lebanon.
    Congress is rightly concerned that recipients of economic 
support fund and development assistance not become mired in a 
permanent state of dependency on foreign assistance. A silver 
lining in the dark cloud of economic recession in Lebanon is 
the Lebanese public and political order recognize the urgent 
need for economic reform.
    Thus, the Lebanese government is now beginning to enact 
long deferred and necessary reforms. Among measures taken or 
being considered are: a massive reduction in the state 
bureaucracy, an open skies policy, privatization of the 
telecommunications industry and Middle East airlines and a new 
banking secrecy law. Obviously, much of Lebanon's economic 
performance is dependent upon elusive Middle East peace.
    The task force urges that the level of economic support 
fund and development assistance appropriated for Lebanon in 
fiscal year 2001, $35 million, be maintained for fiscal year 
2002. Upon Israel's withdrawal from Lebanon last May 24, U.S. 
Ambassador to Lebanon, David Satterfield, recommenced an 
increase of $60 million over three years from Lebanon's 
previous foreign assistance level. The $35 million amount would 
directly accord with the Ambassador's recommendation.
    Much of the increased U.S. foreign assistance to Lebanon is 
being used to expand USAID's rural community development 
clusters in south Lebanon. USAID-Lebanon has organized 31 
clusters, which operate in 251 villages and affect about 
600,000 people. If Lebanon received the full complement of $35 
million, the clusters program would expand to 36 clusters 
operating in 330 villages and affecting 710,000 people.
    These rural projects have also been highly successful at 
leveraging Lebanese capital assistance, which is something the 
task force encourages. Typically, 30 percent of the cost of the 
project comes from the villages or the Lebanese government in 
either labor or funding. One of the reasons these rural 
projects are so popular is that the people living in these 
village clusters form committees to decide on local priorities 
and needs.
    We urge direct funding of the American Schools and 
Hospitals Abroad Program for fiscal year 2002. This program 
supports such fine institutions in Lebanon as the American 
University of Beruit, Lebanese-American University and 
International College. We are also pleased that USAID-Lebanon 
will provide these educational institutions grants for 
scholarships.
    And one final point, the task force supports the Department 
of State de-mining program for Lebanon. The United Nations 
estimates there are 130,000 land mines in Lebanon and 11 people 
have been killed and 71 wounded since the Israeli withdrawal. 
Lebanon just received seven mine-sniffing Belgian Malinois dogs 
from the United States. It is an issue of major concern and the 
U.S. will get valuable public exposure through a highly visible 
de-mining program.
    Thank you very much.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.394
    
    [GRAPHIC] [TIFF OMITTED] T5117A.395
    
    [GRAPHIC] [TIFF OMITTED] T5117A.396
    
    Mr. Kolbe. Thank you very much, Mr. Cody. We appreciate 
your testimony----
    Mr. Cody. Thank you.
    Mr. Kolbe [continuing]. As well as the previous one, give 
us some insight on the issues in Lebanon. Thank you very much.
    Mr. Cody. Thank you very much.
    Mr. Kolbe. Bryan Ardouny from the American Armenian 
Assembly.
    Mr. Ardouny. Thank you very much.
    Mr. Kolbe. How are you?
    Mr. Ardouny. Good seeing you.
    Mr. Kolbe. Is that all set?
    I am going to turn it over in about 15 seconds here.
                              ----------                              

                                         Wednesday, March 28, 2001.

                      ARMENIAN ASSEMBLY OF AMERICA


                                WITNESS

BRYAN ARDOUNY
    Mr. Ardouny. Mr. Chairman, the Armenian Assembly of America 
is pleased to outline our perspective on the importance of U.S. 
assistance programs to the independent states, particularly 
Armenia and Nagorno-Karabakh.
    Established in 1972, the Armenian Assembly is the largest 
Washington-based organization representing Armenian-Americans 
and those who share our goals. One of our purposes is to 
strengthen U.S. relationships with Armenia and Nagorno-
Karabakh.
    I know the time is limited, as the sands run out, so I will 
highlight our recommendations.
    First, the assembly commends this subcommittee's efforts to 
bring about a peaceful resolution to the Nagorno-Karabakh 
conflict, maintaining Section 907 of the Freedom Support Act, 
to providing funding for regional projects and confidence-
building measures.
    Regardless of the outcome of the peace talks in Key West, 
Florida, scheduled this April 3, the assembly urges the 
subcommittee to continue funding for confidence-building 
measures in the fiscal year 2002 Foreign Operations bill.
    We commend U.S. Secretary of State Colin Powell's 
initiative in bringing the parties together in Florida. It is 
our hope that any solution that is reached takes into account 
facts on the ground.
    A durable settlement will have to provide 
internationalsecurity guarantees, horizontal relations between Nagorno-
Karabakh and Azerbaijan and ensure that Nagorno-Karabakh is not an 
enclave.
    Most importantly, the citizens of each of the three 
conflicting parties must approve the peace settlement. In order 
for peace to succeed, the citizens of Azerbaijan, Armenia and 
Nagorno-Karabakh must also realize a fairly immediate 
improvement in their lives.
    Job creation, resettlement of refugees, rebuilding and 
rehabilitation must take place soon after the settlement. This 
will mitigate difficult compromises accepted by all parties to 
the conflict.
    We strongly urge this committee to continue its leadership 
role during this post-conflict period to provide the necessary 
resources to implement peace.
    Second, the assembly recognizes the current budgetary 
constraints under which the subcommittee must operate. 
Therefore, we recommend that the subcommittee ensure that the 
I.S. account, as well as the South Caucasus generally, and 
Armenia specifically, receive the same percentage of funding in 
fiscal year 2002 as it did in fiscal year 2001.
    Third, the assembly commends the subcommittee and Congress 
for maintaining section 907 of the Freedom Support Act. Given 
the ongoing sensitive peace negotiations, the assembly strongly 
opposes any efforts to weaken or repeal this provision of law. 
In its current form, Section 907 constitutes a focused, 
appropriate message to the government of Azerbaijan that the 
United States will not support efforts to marginalize via 
blockade entire populations of neighboring states.
    Finally, the assembly commends the vision and leadership of 
this subcommittee in providing $20 million in humanitarian 
assistance for the people of Nagorno-Karabakh and urges the 
subcommittee to provide the remaining funding, approximately 
$8.2 million, via bill language in the fiscal year 2002 Foreign 
Operations bill.
    In conclusion, Mr. Chairman, on behalf of the Armenian-
American community, I would like to express our deep and 
sincere gratitude to Congress for its steadfast support of U.S. 
assistance to Armenia. Armenia views the United States as a 
strategic partner and friend who responded during times of 
desperation.
    Given Armenia's central location, Christian heritage, 
entrepreneurial spirit and Western value system, the country's 
potential is great. With the support of the United States, 
Armenia will be able to accomplish its objectives: regional 
peace and stability, a successful transition to a free market 
economy and a flourishing democracy.
    We thank you for your attention to these very important 
matters. We encourage you to visit the region and look forward 
to working with you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.397
    
    [GRAPHIC] [TIFF OMITTED] T5117A.398
    
    [GRAPHIC] [TIFF OMITTED] T5117A.399
    
    [GRAPHIC] [TIFF OMITTED] T5117A.400
    
    [GRAPHIC] [TIFF OMITTED] T5117A.401
    
    [GRAPHIC] [TIFF OMITTED] T5117A.402
    
    [GRAPHIC] [TIFF OMITTED] T5117A.403
    
    [GRAPHIC] [TIFF OMITTED] T5117A.404
    
    [GRAPHIC] [TIFF OMITTED] T5117A.405
    
    [GRAPHIC] [TIFF OMITTED] T5117A.406
    
    [GRAPHIC] [TIFF OMITTED] T5117A.407
    
    Mr. Kolbe. Thank you very much, Bryan. And you have my 
assurance that I will be visiting the region as soon as I can 
fit that into the schedule of all of the other things that we 
have to do. And you finished well within your time frame. 
Appreciate your being here.
    Mr. Ardouny. Thank you.
    Mr. Kolbe. Aram Sarafian. Thank you very much for coming. 
American National Committee of Armenia.
    Mr. Sarafian. It is the Armenian National----
    Mr. Kolbe. It is the Armenian National Committee of 
America.
                              ----------                              

                                         Wednesday, March 28, 2001.

                  ARMENIAN NATIONAL COUNCIL OF AMERICA


                                WITNESS

ARAM A. SARAFIAN
    Mr. Sarafian. Good afternoon. I am Aram Sarafian. I am 
representing the Armenian National Committee of America, the 
ANCA, the nation's oldest and largest Armenian-American 
grassroots advocacy organization.
    I would like to ask that my written testimony be submitted 
for the record.
    Mr. Kolbe. Full statement will be placed in the record.
    Mr. Sarafian. Thank you.
    I am honored to testify again in front of this 
subcommittee. I am especially honored that my former 
congressman, yourself, Congressman Kolbe, is now the chairman. 
I used to live in Sierra Vista, Arizona, when I was assigned to 
Fort Huachuca. And it is my pleasure that you are the new 
chairman of the subcommittee.
    Mr. Kolbe. You need to come back soon.
    Mr. Sarafian. Actually, I make it out there periodically 
for Reserve duty.
    I would like to begin by stressing the importance of 
foreign aid funding in promoting U.S. interests and American 
values abroad. I witnessed firsthand how U.S. assistance 
promotes American values when I served as an Army intelligence 
officer in Croatian Bosnia. U.S. assistance was used to rebuild 
villages and towns that were devastated by war. American 
foreign assistance was used to establish and nurture ties among 
the Serbs, the Croats and Muslims inBosnia.
    U.S. foreign assistance serves a similar purpose in 
Nagorno-Karabakh. First and foremost, it helps the native 
inhabitants of the region overcome the ravages of a devastating 
six-year war.
    Second, this aid is a critical confidence-building measure 
that may help bring peace to this war-torn region and, 
eventually, hopefully, to foster inter-ethnic ties that once 
existed prior to Azerbaijan's aggression against the local 
Armenian populace. We would like to see those inter-ethnic ties 
rekindled.
    The Armenian-American community thanks the subcommittee and 
Congress as a whole for your wisdom in providing direct aid to 
the previously neglected Nagorno-Karabakh population. We hope 
that you will maintain this important funding in fiscal year 
2002.
    The Armenian-American community is also concerned that the 
State Department has in the past ignored the will of this body 
and Congress as a whole by failing to deliver this much needed 
assistance in a timely manner. I hope that in fiscal year 2002, 
this body will make it clear that this aid must be delivered in 
a timely and efficient manner.
    U.S. foreign assistance to Armenia is also important, 
especially because of the ongoing blockade of Armenia by both 
Turkey and Azerbaijan. These blockades, which have been in 
place for almost a decade, have crippled Armenia's economy. 
These blockades are occurring during the very difficult 
transition that Armenia is going through from a Soviet command 
economy to a Western-style free market economy.
    The Armenian-American community deeply appreciates the 
assistance appropriated by Congress to promote economic and 
democratic reforms in Armenia during this difficult transition. 
We look forward to the day when these blockades will be lifted. 
Then we hope to work with Congress to end the need for foreign 
assistance to Armenia and Nagorno-Karabakh.
    We have the opportunity to move Armenia from a nation 
facing oppression and genocide in 1915 to a vibrant, 
democratic, free-market country contributing to regional 
security and prosperity.
    The Armenian-American community looks to our congressional 
leaders, especially this subcommittee, to maintain America's 
leadership in both Armenia and this critical corner of the 
world. We ask that this subcommittee maintain at least at 
fiscal year 2001 levels foreign aid funding for Armenia. We 
also ask that direct foreign aid funding for Nagorno-Karabakh 
also be maintained at fiscal year 2001 levels, at least that, 
as a minimum.
    We also ask that the subcommittee, through more aggressive 
oversight, or through additional provisions in the foreign aid 
bill, ensure that the State Department uses the foreign aid 
directly allocated to Nagorno-Karabakh in a timely and 
efficient manner.
    It is great that the aid was appropriated. But when it is 
not spent, it is not reaching its designated purpose. We hope 
to overcome that.
    The Armenian-American community further requests that 
Congress and this subcommittee maintains Section 907 of the 
Freedom Support Act, prohibiting direct assistance to the 
government of Azerbaijan. As you all are no doubt aware, 
Section 907 does not prohibit humanitarian and economic 
assistance to Azerbaijan; it just prohibits aid to the 
government. In fact, there is a lot of U.S. aid that goes to 
Azerbaijan through NGOs.
    Section 907 was passed by Congress in response to 
Azerbaijan's crippling economic blockade of Armenia and 
Nagorno-Karabakh. Weakening or eliminating Section 907 will not 
only signal to Azerbaijan the lack of concern over the 
blockade, it will affect and may irreparably damage the ongoing 
OSCE-Nagorno-Karabakh peace process.
    I would like to thank the subcommittee for their work in 
maintaining Section 907 in the foreign aid funding to Armenia 
and Nagorno-Karabakh and for this opportunity to speak before 
you today. And I am willing to answer any questions that you 
may have.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.408
    
    [GRAPHIC] [TIFF OMITTED] T5117A.409
    
    [GRAPHIC] [TIFF OMITTED] T5117A.410
    
    [GRAPHIC] [TIFF OMITTED] T5117A.411
    
    [GRAPHIC] [TIFF OMITTED] T5117A.412
    
    [GRAPHIC] [TIFF OMITTED] T5117A.413
    
    [GRAPHIC] [TIFF OMITTED] T5117A.414
    
    Mr. Kolbe. Thank you very much, Mr. Sarafian. We really 
appreciate the work that you do to represent the Armenian 
people here in the United States.
    Mr. Sarafian. Thank you.
    Mr. Kolbe. Thank you very much.
    And let me know when you get back to Fort Huachuca. We will 
get together there. Thank you.
    Mr. Orhan Suleiman, Maryland American Turkish Association.
                              ----------                              

                                         Wednesday, March 28, 2001.

                 MARYLAND AMERICAN TURKISH ASSOCIATION


                                WITNESS

ORHAN H. SULEIMAN
    Mr. Suleiman. Thank you.
    I want to thank the committee for the opportunity again to 
represent what is an extremely small constituency, Turkish-
Americans. And within the small constituency, I represent an 
even smaller group. I am an American of Turkish-Cypriot 
heritage.
    My task today is simple, to attempt to speak the truth. 
However, your task today is difficult, because even if you hear 
the truth, it will be overwhelmed by many times a well-
orchestrated chorus of fallacy, misleading statements regarding 
Turkey.
    This country cannot afford to be Balkanized by ethnic 
constituencies, be they Armenian, Greek or Turkish, just to 
name a few. These ethnic lobbies constitute a serious threat to 
the U.S. using their sheer strength in numbers to lobby against 
a nation, which by any measure, has been a trustworthy, 
steadfast and honorable ally to us, the Republic of Turkey.
    The Republic of Turkey, a secular, democratic nation, has 
achieved great success when compared to many upper geographic 
measures. Unlike the U.S., she is surrounded by hostile 
nations. She has maintained the separation of religion and 
government, at a price; has been a solid member of NATO; and 
continues to aspire to join the European Union, fulfilling the 
vision of its first president, Mustafa Kemal Ataturk, 
toWesternize.
    For these, she has paid dearly. Economically, the Iraqi 
embargo has cost Turkey billions of dollars. Politically, she 
was the first Islamic nation to recognize Israel and has always 
been looked on suspiciously by her sister Islamic nations. And 
militarily, she has contributed soldiers from Korea to 
peacekeeping troops in the Balkans. You really do not find 
allies like Turkey.
    What I want to make an important point today about, though, 
is Cyprus. Cyprus belonged to the Ottoman Turks for several 
centuries until the late 1800s when it was leased to the 
British. This ironically saved the Turks on Cyprus, because 
when the Ottoman Empire crumbled, Turkish communities on other 
islands, like Crete, were systematically massacred. I probably 
owe my existence to the British.
    Anyway, in the mid 1850s, as many former British colonies 
became independent, Cyprus was also granted independence. 
However, and this was very novel, its president will always be 
Greek, its vice president will always be Turkish. And military 
troops from both Turkey and Greece were to be stationed on the 
island to guarantee the safety of its respective communities.
    With these prophetically visionary safeguards, the Republic 
of Cyprus was launched in 1960. It only took three short years 
for the Greek-Cypriot community on the island to declare these 
constitutional safeguards against its Turkish-Cypriot partner 
unconstitutional.
    In 1963, during Christmas, the first of a series of attacks 
on the Turkish community ensued. My relatives from the village 
of Lefkara, along with Turks from many other villages, fled. 
And this was really ethnic cleansing well before the word was 
coined in Yugoslavia.
    From 1963 until 1974, the cleansing continued, Turkey 
protested, the United Nations observed, and Turks continued to 
be murdered. In 1967, my 75-year-old grandmother, Meyrem 
Suleyman, was killed when the Greeks attacked her refugee 
village, suspecting that there were Turkish military troops 
there.
    This systematic cleansing continued until 1974 when 
President Makarios was ousted by a coup engineered from 
mainland Greece. And it was then that Turkey intervened 
militarily.
    Unfortunately, today Turkey is portrayed as invading an 
innocent little island. Quite to the contrary, Turkey's 
constitutionally justified intervention was correct and has 
essentially solved the problem to this day.
    As you know, such peacekeeping operations are necessary 
when all else fails. And this one has been a phenomenal 
success. Although the Turkish-Cypriot community has tried to 
work out a political solution, it has been the Greeks, 
encouraged by their Christian ties and their ethnic lobby which 
have been uncompromising and negligent of their responsibility 
for creating the problem in the first place.
    After years of stalemated talks, the Turkish Republic of 
Northern Cyprus was proclaimed in 1984. Yet, for a nation that 
has done nothing wrong, for a nation who has simply striven to 
protect the health and welfare of its citizens, it continues to 
go unrecognized by the world community.
    Against this behavior, southern Cyprus, which is Greek, has 
armed itself to the teeth with all sorts of armaments. Turkey's 
role in the Turkish Republic of Northern Cyprus is simply 
defensive.
    One of the possible solutions to this problem is to let the 
Turks and Greeks work out their differences themselves. Outside 
interference, despite the good intentions, have had an adverse 
effect here. Aid to Cyprus, with most of it going to the 
wealthy Greek south, is an aberration of politics. This 
aggravates the situation.
    The earthquake diplomacy when Turkey and then Greece 
provided assistance to each other was very, very encouraging. I 
feel that a more positive approach by the U.S., a more hands-
off approach, but an equitable and balanced approach for the 
two sovereign peoples of Cyprus will produce much more useful 
outcomes.
    Democratic Turkey will eventually emerge a regional 
economic power. And it desperately wants to be Western, 
fighting some very serious cultural and religious pressures. We 
should never lose sight of this vision and the United States 
should do everything it can to foster it by being fair and 
equitable in its foreign policy.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.415
    
    [GRAPHIC] [TIFF OMITTED] T5117A.416
    
    [GRAPHIC] [TIFF OMITTED] T5117A.417
    
    Mr. Kolbe. Thank you very much for the very good statement, 
Mr. Suleiman. Thank you.
    Mrs. Lowey. Thank you very much.
    Mr. Kolbe. The Assembly of Turkish American Associations 
Pierre Oberling. Mr. Oberling.
                              ----------                              

                                         Wednesday, March 28, 2001.

               ASSEMBLY OF TURKISH AMERICAN ASSOCIATIONS


                                WITNESS

PIERRE OBERLING
    Mr. Oberling. I am grateful for the opportunity to appear 
before you in order to present testimony on behalf of the 
Assembly of Turkish American Associations.
    Since 1963, the Greek Cypriots, with the backing of Greek 
troops, have carried out a series of devastating ethnic 
cleansing campaigns against the Turkish Cypriot community. 
These started in December 1963.
    The Turkish Cypriot quarter of Nicosia, the Cypriot 
capital, was besieged and heavily bombarded. One hundred and 
three Turkish Cypriot villages were put to the torch, and 
25,000 Turkish Cypriots were made homeless.
    U.S. Secretary of State George W. Ball, who visited Cyprus 
in February 1964, accused Archbishop Makarios, the Greek-
Cypriot president, of turning Cyprus into his private abattoir 
and concluded that the Greek Cypriots just want to be left 
alone to kill Turkish Cypriots.
    In 1964, all remaining Turkish Cypriots were herded into 
tiny enclaves covering in their entirety only 3 percent of the 
land surface of the island. These enclaves were then surrounded 
by fortifications and barbed-wire fences. And the Turkish 
Cypriots were deprived of all their rights except the right to 
apply for a permanent exit visa.
    In 1967, several of the Turkish-Cypriot enclaves were 
attacked. On November 14 and 15 alone, more than 30 Turkish 
Cypriots were killed, including the three sons of an elderly 
couple and an 80-year-old man, who was burned alive by being 
wrapped in a gasoline soaked blanket and set on fire.
    In 1974, the Greek military dictator, General Dimitrios 
Ioannides, overthrew Makarios and replaced him with a well-
known political assassin by the name of Nikos Sampson, in the 
hope that the more ruthless Sampson would liquidate the Turkish 
Cypriot minority more expeditiously than had his predecessor.
    As massacre followed massacre, the Turkish government, 
after having beseeched in vain the British and U.S. governments 
to intervene, decided to abide by its obligations according to 
the Treaty of Guarantee, which Great Britain, Greece and Turkey 
had signed in 1960.
    The Turkish intervention caused the collapse of the hated 
military dictator in Greece and the odious Sampson regime in 
Cyprus. It prevented the occupation of Cyprus by Greece and 
ushered in a period of peace on the island which continues to 
this day. Finally, it provided a refuge in northern Cyprus for 
the Turkish-Cypriot survivors of more than 10 years of terror 
and oppression.
    As they fled into the Turkish-protected zone, The Turkish-
Cypriots, for the first time in many years, were free from 
fear. But Greek-Cypriot aggression did not end in 1974. A new 
ethnic cleansing campaign was launched, but in the form of a 
trade embargo upon the Turkish-Cypriot community, the aim of 
which was the strangulation of the Turkish-Cypriot economy. 
This embargo is still going on.
    What is mystifying to the Turkish-Cypriots, as well as to 
all those who have witnessed their suffering through the years, 
is that the U.S. Government supports this embargo. The only 
reason the Turkish-Cypriots fled to northern Cyprus was because 
they wanted to live in peace. Why should we punish them for it? 
During the past few years, we have felt the pain of the 
Bosnians and the Kosovars. Are the Turkish-Cypriots in any way 
less worthy of our sympathy?
    The Assembly of Turkish American Associations strongly 
urges the subcommittee not to recommend further economic 
assistant to the Greek-Cypriot state unless the embargo is 
lifted.
    The Assembly of Turkish American Associations also urges 
the subcommittee to make sure that, should humanitarian aid be 
distributed to both the Greek-Cypriot and the Turkish-Cypriot 
communities, it be distributed on the basis of need rather than 
on the basis of the comparative size of the two communities.
    Thank you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.418
    
    [GRAPHIC] [TIFF OMITTED] T5117A.419
    
    [GRAPHIC] [TIFF OMITTED] T5117A.420
    
    [GRAPHIC] [TIFF OMITTED] T5117A.421
    
    Mr. Kolbe. Thank you very much, Mr. Oberling. We appreciate 
your testimony.
    Andrew Manatos, the National Coordinated Effort of 
Hellenes, good afternoon. Please go ahead.
                              ----------                              

                                         Wednesday, March 28, 2001.

                NATIONAL COORDINATED EFFORT OF HELLENES


                                WITNESS

ANDREW E. MANATOS, PRESIDENT, CEH
    Mr. Manatos. Good afternoon, Mr. Chairman. And if I might 
ask if my testimony----
    Mr. Kolbe. Your full statement will be placed in the 
record.
    Mr. Manatos. Thank you very much.
    I appreciate the opportunity to testify today on behalf of 
the Coordinated Effort of Hellenes, the United Hellenic 
American Congress, the Pancyprian Association of America, and 
the International Coordination Committee on Justice for Cyprus.
    Mr. Chairman, we really have before your committee, a very 
small number of items. Number one on our list always is the $15 
million that is normally appropriated for Cyprus. And this has 
been appropriated now for, I assume, over 20 years, if not, 
very close to that. It is an important signal that is sent to 
the people of Cyprus, both the Greek-Cypriots and the Turkish-
Cypriots, and it is important we hope that it will be 
maintained again this year.
    The other appropriations matter is IMET. Last year, the 
numbers went up for training for Turkey and Greece, and Greece 
has been increased to $1 million a year for 2001 and 2002, and 
Turkey to $2.5 million. And we would hope that that full $1 
million and even more will be appropriated. Greece has not had 
much money appropriated in the past for military training and 
it is a very valuable thing torelations between the two 
countries.
    And if I might, Mr. Chairman, now just address briefly 
three issues that are very important to the Greek-American 
community. And they are all related.
    The first issue is Cyprus. And as you know, the occupation 
of Cyprus has now been opposed by the U.S. and the UN for 27 
years this summer. And there are opportunities to be had. 
Turkey very much wants to become part of the EU, and Turkey 
cannot become part of EU unless the Cyprus problem is solved. A 
key communautaire of the EU requires certain standards to be 
met, the Helsinki Final Act requires human rights and religious 
rights to be recognized. And so it is in everyone's best 
interest, certainly Turkey's, to get the Cyprus issue behind 
them.
    In that regard, that brings us to the second issue of major 
concern to the community, and that is the border line between 
Greece and Turkey. And it is as simple as adhering to 
international standards of recognizing international law and 
international boundaries. That is really all our community is 
concerned about with respect to this second issue. There was no 
dispute whatsoever between Greece and Turkey on these 
boundaries for decades, and it has just been within recent 
years that this has been created and is a very serious problem 
that nearly led to war just a very few years ago.
    And the third issue, Mr. Chairman, involves the 
patriarchate of the Greek Orthodox Church, which is located in 
Istanbul, Turkey. It is not at all an accurate parallel, but 
some people see our patriarchate like the Vatican is for the 
Catholic Church. There are differences. But it is the head. He 
is the first among equals, the Ecumenical Patriarch in 
Istanbul, among all the Orthodox around the world: Russian 
Orthodox, all sorts of Orthodox. It is a very important 
position.
    Our problem is this. There is one very acute problem. There 
was a bomb planted in the patriarchate that was diffused just a 
very short period of time before it was exploded that would 
have killed the Ecumenical Patriarch and would have destroyed 
most of the patriarchate. And that is one of three bombs; two 
others did go off, priests were taken to hospital, property was 
damaged. That is the acute problem.
    The less acute problem, but just as important, is that this 
patriarchate, which was established in 38 A.D. and has been 
going on continually since that time, will be extinguished 
probably in our lifetimes. And the reason for this is the law 
requires that for a patriarch to be appointed, he must be a 
Turkish citizen. Well, there used to be many Orthodox 
Christians in Turkey who have been pushed out. But now, the few 
that are there, in order to quality to be a patriarch, you must 
be educated, you must go into the church hierarchy. And Turkey, 
in recent years, closed down the seminary. So Halki is now 
closed, training of clergy will cease for Orthodox in Turkey. 
And it will.
    The current patriarch is not an old man. He is in his early 
60s. A brilliant man, speaks eight languages. But probably 
within our lifetime, unless something is done, this will also 
end.
    But here again, Turkey's accession to the EU is key, 
because I do not believe they will be able to maintain either 
their policy on Cyprus, or their treatment of the patriarchate, 
or their dispute in challenging legitimate boundaries with 
Greece and accede to the EU. So, we are in an interesting 
position, Mr. Chairman, those three issues are very important 
to us, and we think that there is a real opportunity for 
movement.
    If I might just make one final point, the Greek-American 
community looks at these issues as matters of principle. And I 
would point out that when Greece had a military junta, who in 
Congress was the one moving to cut off aid to Greece? At the 
time Congressman Paul Sarbanes and Congressman John Brademas, 
which articulates the position of our community. And that is we 
are not against any people, we are against systems that are not 
of benefit to anyone.
    And so we would hope, Mr. Chairman, that you do what you 
could in the appropriations process to move these issues 
forward.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.422
    
    [GRAPHIC] [TIFF OMITTED] T5117A.423
    
    [GRAPHIC] [TIFF OMITTED] T5117A.424
    
    [GRAPHIC] [TIFF OMITTED] T5117A.425
    
    [GRAPHIC] [TIFF OMITTED] T5117A.426
    
    [GRAPHIC] [TIFF OMITTED] T5117A.427
    
    [GRAPHIC] [TIFF OMITTED] T5117A.428
    
    [GRAPHIC] [TIFF OMITTED] T5117A.429
    
    [GRAPHIC] [TIFF OMITTED] T5117A.430
    
    Mr. Kolbe. Thank you very much for this very good 
statement. Appreciate it.
    Nick Larigakis?
                              ----------                              

                                         Wednesday, March 28, 2001.

                   AMERICAN HELLENIC INSTITUTE, INC.


                                WITNESS

NICK LARIGAKIS
    Mr. Larigakis. Thank you, Mr. Chairman. Mr. Chimicles sends 
his apologies. He is litigating a major case in Philadelphia 
and his wife is very full and apparently due in just a couple 
of days. So he hesitates to leave the areA.t
    It is a pleasure, Mr. Chairman, and members of the 
subcommittee, to appear before the subcommittee today on behalf 
of Mr. Chimicles and on behalf of the organizations listed 
which represent the leading Greek-American membership-based 
organizations regarding the administration's foreign aid 
proposals.
    Sir, I respectfully submit for the full record, Mr. 
Chimicles' comprehensive statement. You have a copy.
    The U.S. has long had a vital, if not critical, interest in 
Southeast Europe and the eastern Mediterranean. To the north of 
Greece are the Balkans, Eastern Europe and Russia. To the east 
Cypress and the Middle East. And to the south are North Africa 
and the Suez Canal. Since time immemorial the region has been 
an intersection of civilizations and a center for trade. Today, 
significant communication links for commerce and energy sources 
pass through the region. The region's geography also gives the 
dubious distinction of being at the geopolitical center of many 
of our world's most severe crises.
    Thus, the U.S. must remain actively engaged to provide good 
leadership and work with its close allies if we wish tomaintain 
stability, promote democracy and further our commercial interests.
    To further our interests, the U.S. has an important stake 
in fostering good relations between the two NATO allies, Greece 
and Turkey, and in achieving a just and viable settlement of 
the Cyprus problem.
    We support, Mr. Chairman, the amount of $15 million in 
humanitarian aid for Cyprus. This aid is an important symbol of 
U.S. support for Cyprus and of the U.S. commitment to achieving 
a comprehensive solution. We further believe that the 
administration should follow the lead set by this Congress a 
few years ago and publicly call for the immediate 
demilitarization of Cyprus.
    In 2000, the political, security and economic landscape in 
Southeast Europe and the eastern Mediterranean underwent 
significant changes. The emergence of a democratic government 
in Serbia transformed the prospects for progress in the 
Balkans. Further, at its December 8 to 10, 2000 Nice Council, 
the European Union took the necessary practical steps to 
underpin the process of enlargement. The active involvement of 
the EU had improved the prospects for enhanced regional 
cooperation and development. U.S. interests stand to benefit 
from these developments.
    Unfortunately, we also view with great concern the 
deteriorating situation in the former Yugoslav Republic of 
Macedonia, otherwise known as FYROM. The euphoria that followed 
Yugoslav dictator Slobodan Milosevic's ouster last year has 
given way to anxiety as another country teeters on slippery 
slope toward ethnic strife.
    U.S. diplomatic leadership will be critical to stabilizing 
the situation in FYROM. But we are also very fortunate to have 
an ally such as Greece in the region. A bulwark of democracy, 
Greece has been critical to the stability and reconstruction of 
the Balkans. The U.S. will be best served by working closely 
with its pivotal ally now as we search for a solution to the 
problems facing FYROM.
    The policy themes advocated by the American Hellenic 
Institute since it was founded in 1974 and reiterated in 
successive Greek-American policy statements, including our 
recently released 2001 edition, address the concerns of the 
Greek-American community and express policy objectives for 
furthering regional interests. This testimony is intended as a 
road map for this committee and the Congress as it considers 
its budgetary priorities for fiscal year 2002.
    The statements and opinions herein are based solely in what 
we believe are invested interests of the United States. These 
main policy objectives are: U.S. interests are best served by 
applying the rule of law in international affairs; U.S. foreign 
policy should foster and embody U.S. values, including human 
rights; the principal requirement of the U.S. is to expand and 
deepen its relationship with Greece; the U.S. should remain 
actively engaged in a search for a settlement to the Cyprus 
problem; the format of the current proximity talks should be 
expanded and intensified in the interest of a settlement based 
on the UN resolutions, democratic principles and EU legal 
principles along with common practices; in the interest of 
regional stability and dispute resolution, the U.S. should 
promote Turkey's emergence as a fully democratic state, able to 
complete EU accession process and to participate fully in the 
economic opportunities presented by the improved regional 
climate.
    Yes, ladies and gentlemen, a stable, democratic Turkey is 
what we need to further and advance U.S. policy in the region.
    In conclusion, I would like to thank the committee for 
lending its valuable time to hear this testimony on behalf of 
the key membership organizations in the Greek-American 
community. Or testimony is a balanced, objective overview of 
the situation in this vital region. The guidelines we have 
proposed are strictly based on our national interests. We hope 
this committee will carefully consider our comments as it 
deliberates and before any appropriations in the coming fiscal 
year.
    I thank you very much for the opportunity. And I know it 
has been a long day for you, so if you are available, we are 
having a congressional salute to Greek Independence Day in the 
Rayburn building foyer from 6 to 8, you can come and enjoy and 
relax a little bit. I thank you very much.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.431
    
    [GRAPHIC] [TIFF OMITTED] T5117A.432
    
    [GRAPHIC] [TIFF OMITTED] T5117A.433
    
    [GRAPHIC] [TIFF OMITTED] T5117A.434
    
    [GRAPHIC] [TIFF OMITTED] T5117A.435
    
    [GRAPHIC] [TIFF OMITTED] T5117A.436
    
    [GRAPHIC] [TIFF OMITTED] T5117A.437
    
    [GRAPHIC] [TIFF OMITTED] T5117A.438
    
    [GRAPHIC] [TIFF OMITTED] T5117A.439
    
    [GRAPHIC] [TIFF OMITTED] T5117A.440
    
    [GRAPHIC] [TIFF OMITTED] T5117A.441
    
    [GRAPHIC] [TIFF OMITTED] T5117A.442
    
    [GRAPHIC] [TIFF OMITTED] T5117A.443
    
    [GRAPHIC] [TIFF OMITTED] T5117A.444
    
    [GRAPHIC] [TIFF OMITTED] T5117A.445
    
    [GRAPHIC] [TIFF OMITTED] T5117A.446
    
    [GRAPHIC] [TIFF OMITTED] T5117A.447
    
    [GRAPHIC] [TIFF OMITTED] T5117A.448
    
    [GRAPHIC] [TIFF OMITTED] T5117A.449
    
    [GRAPHIC] [TIFF OMITTED] T5117A.450
    
    [GRAPHIC] [TIFF OMITTED] T5117A.451
    
    [GRAPHIC] [TIFF OMITTED] T5117A.452
    
    [GRAPHIC] [TIFF OMITTED] T5117A.453
    
    [GRAPHIC] [TIFF OMITTED] T5117A.454
    
    [GRAPHIC] [TIFF OMITTED] T5117A.455
    
    [GRAPHIC] [TIFF OMITTED] T5117A.456
    
    [GRAPHIC] [TIFF OMITTED] T5117A.457
    
    [GRAPHIC] [TIFF OMITTED] T5117A.458
    
    [GRAPHIC] [TIFF OMITTED] T5117A.459
    
    [GRAPHIC] [TIFF OMITTED] T5117A.460
    
    [GRAPHIC] [TIFF OMITTED] T5117A.461
    
    [GRAPHIC] [TIFF OMITTED] T5117A.462
    
    [GRAPHIC] [TIFF OMITTED] T5117A.463
    
    [GRAPHIC] [TIFF OMITTED] T5117A.464
    
    [GRAPHIC] [TIFF OMITTED] T5117A.465
    
    [GRAPHIC] [TIFF OMITTED] T5117A.466
    
    [GRAPHIC] [TIFF OMITTED] T5117A.467
    
    [GRAPHIC] [TIFF OMITTED] T5117A.468
    
    [GRAPHIC] [TIFF OMITTED] T5117A.469
    
    [GRAPHIC] [TIFF OMITTED] T5117A.470
    
    [GRAPHIC] [TIFF OMITTED] T5117A.471
    
    [GRAPHIC] [TIFF OMITTED] T5117A.472
    
    [GRAPHIC] [TIFF OMITTED] T5117A.473
    
    [GRAPHIC] [TIFF OMITTED] T5117A.474
    
    [GRAPHIC] [TIFF OMITTED] T5117A.475
    
    Mr. Kolbe. Thank you very much, Mr. Larigakis, for coming. 
We appreciate very much your patience today. And you are right, 
we are at the end of a very long day. The last person to 
testify is Mr. Maqbool Aliani.
    And Mr. Aliani, even though you are the last person does 
not mean you have unlimited time, because we have 10 minutes 
remaining on this vote, so we have to finish. Thank you very 
much for coming. Please proceed.
                              ----------                              

                                         Wednesday, March 28, 2001.

                       THE WORLD SINDHI INSTITUTE


                                WITNESS

MAQBOOL ALIANI
    Mr. Aliani. Honorable Mr. Chairman and distinguished 
members of the committee, I am appearing on behalf of the World 
Sindhi Institute and I want to thank you for giving me this 
opportunity.
    The WSI is a Washington, D.C.-based democracy and human 
rights advocacy and watch group with focus on Pakistan in 
general and Sindh in particular. The purpose of my testimony is 
to explain how it is in the U.S. national interest not to 
support the Pakistan regime. I am also here to explain how 
Pakistani military and Islamic fundamentalism are two faces of 
the same coin.
    First and foremost, Sindh is the southeastern province of 
Pakistan. It is a well-known fact that Sindh is a historical 
country that has remained the Sindhi nation-state from time 
immemorial. Sindh became a part of Pakistan 53 years ago on the 
basis of the Lahore Resolution of 1940. The Pakistani 
government, by violating each and every provision of this 
solemn covenant, has relegated Sindh's status to that of a 
colony.
    The primary geopolitical singularity is the 1958 military 
takeover of Pakistan. This usurpation is the single source of 
all the geopolitical tension and problems in the region 
endangering the world today. Pakistan was founded on the basis 
of the Lahore Resolution of 1940 that promised a loose 
confederation of the constituent units. This resolution that 
guaranteed autonomy and freedom was hijacked by Pakistan's 
corrupt and predominantly Punjabi military. The ethnic Punjabis 
constitute about 25 percent of the total population, but 
control both the military and bureaucracy of Pakistan, and call 
all the shots in matters of international and domestic policies 
excluding the rest of the peoples of Pakistan.
    The history of Pakistan, thereafter, is a record of 
violations of that sacred covenant and this Punjabi oligarchy 
has imposed upon the people of Pakistan an unnatural and 
artificial structure, that of a highly centralized state based 
upon the rapacious internal colonization of non-Punjabi 
nationalities and ethnic groups. Senseless warmongering and 
brutal exploitation and discrimination of all non-Punjabi 
nationalities and religious minorities has created explosive 
internal conditions that can destroy Pakistan, as we have 
witnessed in 1971.
    The other face of this Pakistani military and Punjabi 
colonialism is Islamic fundamentalism, or pan-Islamism, which 
it abets, supports and is closely allied to, and which 
constitutes the biggest threat to the region and to U.S. and 
the West. Islamic fundamentalism is Pakistan military's last 
card saved to use against the Western world when the chips are 
down. It is backed by nuclear blackmail and the implication 
that the technology can be passed on to other rogue states and 
extremist groups. Pakistan is known today for being in cahoots 
with the fundamentalist Taliban regime in Afghanistan, 
suspected terrorist links and an unending conflict with India.
    I appeal to you not be misled by this regime's talks of 
eradicating corruption, and the talk of democracy and 
devolution of power. The corruption of the politicians is only 
the tip of the iceberg. The real corruption is the army itself, 
which is untouched and which consumes up to 80 percent of the 
GNP directly or indirectly.
    The above problem definition points to one basic fact: that 
the core issue is the resolution of the national question in 
Pakistan, and the only solution is to let Sindhis, and other 
oppressed nations in Pakistan, exercise their right to self-
determination. This will prepare a fertile ground for a 
meaningful dialogue between the nations of the South Asian 
region for a just and enduring peace, removal of the dark 
shadow of military adventurism, and economic co-operation to 
better the lot of the people in the region.
    It is our sincere recommendation that any aid or support to 
Pakistan should be tied to the degree of genuine 
decentralization of political power to is provinces that this 
regime must implement.
    Furthermore, the U.S. should insist on the depunjabization 
and deislamization of the Pakistan army so that the nuclear 
program is in safe hands under secular multi-ethnic control. 
Only a demilitarized and decentralized Pakistan can pave the 
way for the denuclearization of the region. Without support 
from a highly centralized state, the level of insurgency should 
come down in Kashmir and will undercut and eliminate support of 
the Taliban. This will completely halt the slide of the region 
into folds of fundamentalism and anti-West sentiments, and will 
ultimately bring peace and stability to South Asia.
    Thank you.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T5117A.476
    
    [GRAPHIC] [TIFF OMITTED] T5117A.477
    
    Mr. Kolbe. Thank you very much for your statement. And we 
appreciate your taking the time to come today and give the 
statement. We will be taking this under consideration.
    Thank you. And to everybody that has been here, you have 
been very patient through this entire hearing. Thank you very 
much for your patience and your participation. It has been very 
useful and helpful for me.
    The subcommittee will stand adjourned.
    [Statements for the record follow:]
    [GRAPHIC] [TIFF OMITTED] T5117A.478
    
    [GRAPHIC] [TIFF OMITTED] T5117A.479
    
    [GRAPHIC] [TIFF OMITTED] T5117A.480
    
    [GRAPHIC] [TIFF OMITTED] T5117A.481
    
    [GRAPHIC] [TIFF OMITTED] T5117A.482
    
    [GRAPHIC] [TIFF OMITTED] T5117A.483
    
    [GRAPHIC] [TIFF OMITTED] T5117A.484
    
    [GRAPHIC] [TIFF OMITTED] T5117A.485
    
    [GRAPHIC] [TIFF OMITTED] T5117A.486
    
    [GRAPHIC] [TIFF OMITTED] T5117A.487
    
    [GRAPHIC] [TIFF OMITTED] T5117A.488
    
    [GRAPHIC] [TIFF OMITTED] T5117A.489
    
    [GRAPHIC] [TIFF OMITTED] T5117A.490
    
    [GRAPHIC] [TIFF OMITTED] T5117A.491
    
    [GRAPHIC] [TIFF OMITTED] T5117A.492
    
    [GRAPHIC] [TIFF OMITTED] T5117A.493
    
    [GRAPHIC] [TIFF OMITTED] T5117A.494
    
    [GRAPHIC] [TIFF OMITTED] T5117A.495
    
    [GRAPHIC] [TIFF OMITTED] T5117A.496
    
    [GRAPHIC] [TIFF OMITTED] T5117A.497
    
    [GRAPHIC] [TIFF OMITTED] T5117A.498
    
    [GRAPHIC] [TIFF OMITTED] T5117A.499
    
    [GRAPHIC] [TIFF OMITTED] T5117A.500
    
    [GRAPHIC] [TIFF OMITTED] T5117A.501
    
    [GRAPHIC] [TIFF OMITTED] T5117A.502
    
    [GRAPHIC] [TIFF OMITTED] T5117A.503
    
    [GRAPHIC] [TIFF OMITTED] T5117A.504
    
    [GRAPHIC] [TIFF OMITTED] T5117A.505
    
    [GRAPHIC] [TIFF OMITTED] T5117A.506
    
    [GRAPHIC] [TIFF OMITTED] T5117A.507
    
    [GRAPHIC] [TIFF OMITTED] T5117A.508
    
    [GRAPHIC] [TIFF OMITTED] T5117A.509
    
    [GRAPHIC] [TIFF OMITTED] T5117A.510
    
    [GRAPHIC] [TIFF OMITTED] T5117A.511
    
    [GRAPHIC] [TIFF OMITTED] T5117A.512
    
    [GRAPHIC] [TIFF OMITTED] T5117A.513
    
    [GRAPHIC] [TIFF OMITTED] T5117A.514
    
    [GRAPHIC] [TIFF OMITTED] T5117A.515
    
    [GRAPHIC] [TIFF OMITTED] T5117A.516
    
    [GRAPHIC] [TIFF OMITTED] T5117A.517
    
    [GRAPHIC] [TIFF OMITTED] T5117A.518
    
    [GRAPHIC] [TIFF OMITTED] T5117A.519
    
    [GRAPHIC] [TIFF OMITTED] T5117A.520
    
    [GRAPHIC] [TIFF OMITTED] T5117A.521
    
    [GRAPHIC] [TIFF OMITTED] T5117A.522
    
    [GRAPHIC] [TIFF OMITTED] T5117A.523
    
    [GRAPHIC] [TIFF OMITTED] T5117A.524
    
    [GRAPHIC] [TIFF OMITTED] T5117A.525
    
    [GRAPHIC] [TIFF OMITTED] T5117A.526
    
    [GRAPHIC] [TIFF OMITTED] T5117A.527
    
    [GRAPHIC] [TIFF OMITTED] T5117A.528
    
    [GRAPHIC] [TIFF OMITTED] T5117A.529
    
    [GRAPHIC] [TIFF OMITTED] T5117A.530
    
    [GRAPHIC] [TIFF OMITTED] T5117A.531
    
    [GRAPHIC] [TIFF OMITTED] T5117A.532
    
    [GRAPHIC] [TIFF OMITTED] T5117A.533
    
    [GRAPHIC] [TIFF OMITTED] T5117A.534
    
    [GRAPHIC] [TIFF OMITTED] T5117A.535
    
    [GRAPHIC] [TIFF OMITTED] T5117A.536
    
    [GRAPHIC] [TIFF OMITTED] T5117A.537
    
    [GRAPHIC] [TIFF OMITTED] T5117A.538
    
    [GRAPHIC] [TIFF OMITTED] T5117A.539
    
    [GRAPHIC] [TIFF OMITTED] T5117A.540
    
    [GRAPHIC] [TIFF OMITTED] T5117A.541
    
    [GRAPHIC] [TIFF OMITTED] T5117A.542
    
    [GRAPHIC] [TIFF OMITTED] T5117A.543
    
    [GRAPHIC] [TIFF OMITTED] T5117A.544
    
    [GRAPHIC] [TIFF OMITTED] T5117A.545
    
    [GRAPHIC] [TIFF OMITTED] T5117A.546
    
    [GRAPHIC] [TIFF OMITTED] T5117A.547
    
    [GRAPHIC] [TIFF OMITTED] T5117A.548
    
    [GRAPHIC] [TIFF OMITTED] T5117A.549
    
    [GRAPHIC] [TIFF OMITTED] T5117A.550
    
    [GRAPHIC] [TIFF OMITTED] T5117A.551
    
    [GRAPHIC] [TIFF OMITTED] T5117A.552
    
    [GRAPHIC] [TIFF OMITTED] T5117A.553
    
    [GRAPHIC] [TIFF OMITTED] T5117A.554
    


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Aliani, Maqbool..................................................   589
Aossey, N.A......................................................   440
Ardouny, Bryan...................................................   496
Baaklini, Toufic.................................................   638
Baird, Hon. Brian................................................    76
Beckmann, David..................................................   626
Black, Robert....................................................   284
Brown, Hon. Sherrod..............................................    19
Brown, Michael...................................................   626
Burrill, George..................................................    64
Bye, Dr. R.E., Jr................................................   655
Carlson, Gail....................................................   626
Carter, Joanne...................................................   626
Cody, G.T........................................................   490
Cohen, Rabbi B.M.................................................   128
Crow, Dr. Michael................................................   631
Crowley, Hon. Joseph.............................................    40
Davis, Gary......................................................   474
De Vries, James..................................................   626
Dillon, Fred.....................................................   657
Dunford, Christopher.............................................   626
Edelman, Dr. Robert..............................................   308
Elswick, Linda...................................................   626
Epperly, David...................................................   482
Filner, Hon. Bob.................................................   601
Fitz-Pegado, L.J.................................................   334
Fitzhugh, E.J....................................................   415
Gubser, Peter....................................................   626
Gupta, G.R.......................................................   626
Hall, Hon. Tony..................................................    23
Hartke, Jan......................................................   429
Headley, Father William..........................................   231
Hildebrand, G.B..................................................   626
Hoffman, David...................................................   447
Hopewell, Dr. P.C................................................   298
Isaac, Mark......................................................   657
Jacobson, Dr. Alan...............................................   633
Kane, Mark.......................................................   276
King, Hon. P.T...................................................     1
Kirk, Hon. M.S...................................................    46
Kohr, H.A........................................................    90
Kucinich, D.J....................................................   594
Larigakis, Nick..................................................   542
Lofgren, Hon. Zoe................................................   604
Lucas, C.P.......................................................   319
Lyons, C.J.......................................................    80
Maguire, Andrew..................................................   626
Manatos, A.E.....................................................   531
McClymont, Mary..................................................   260
McPherson, Peter.................................................   612
Miller, Lindsay..................................................   106
Mlyniec, W.J.....................................................   254
Morden, Cheryl...................................................   626
Morella, Hon. C.A................................................    13
Nassif, T.A......................................................   496
Oberling, Pierre.................................................   525
Pallone, Hon. Frank..............................................     6
Partlow, Mary....................................................   657
Phippard, James..................................................   626
Pigman, H.A......................................................   180
Pomeroy, Hon. Earl...............................................    57
Reiling, Peter...................................................   626
Robarts, Richard.................................................   626
Rodriquez, Hon. C.D..............................................   607
Roemer, Hon. Tim.................................................   597
Salzberg, J.P....................................................   206
Santelices, Chantal..............................................   646
Sarafian, A.A....................................................   509
Schakowsky, Hon. Jan.............................................   610
Shafer, Bo.......................................................   194
Smith, Dennis....................................................   459
Spivey, Dr. Bruce................................................   166
Suchlicki, Professor Jaime.......................................   650
Suleiman, O.H....................................................   519
Sumilas, Michele.................................................   657
Torres, R.B......................................................   626
Tugwell, Frank...................................................   626
Udall, Hon. Tom..................................................   606
Visclosky, Hon. P.J..............................................    53
Wake, Madeline...................................................   366
Walsh, Hon. James................................................    35
Watson, A.F......................................................   381
Wesche, K.W......................................................   626
Wolford, Kathryn.................................................   214
Worthington, Barry...............................................   140
Wright, Lisa.....................................................   626
Yanovitch, Lawrence..............................................   626
Zeigler, Margaret................................................   626

                                &lt;greek-d&gt;


</pre></body></html>
